                          2010


Fiscal Year 2010
United States Army
Annual Financial Report

America’s
Army: Our
Families Give
Us Strength
                                         America’s Army: Our Families Give Us Strength
                                         Army Family Covenant
                                         We recognize…
                                         …The commitment and increasing sacrifices that our Families are making every
                                          day.
                                         …The strength of our Soldiers comes from the strength of their Families.

                                         We are committed to…
                                         …Providing Soldiers and Families a quality of life that is commensurate with their
                                          service.
                                         …Providing our Families a strong, supportive environment where they can thrive.
                                         …Building a partnership with Army Families that enhances their strength and
                                          resilience.

                                         We are committed to improving family readiness by:
                                         n Standardizing and funding existing Family programs and services
                                         n Increasing accessibility and quality of health care
                                         n Improving Soldier and Family housing
                                         n Ensuring excellence in schools, youth services, and child care
                                         n Expanding education and employment opportunities for Family members




                                         ON THE COVER: [main] A daughter clings to her father during a welcome home ceremony. [inset right] A Soldier
                                         helps his son explore driver’s seat options, including starting the vehicles, honking the horn, flipping switches and
                                         turning on blinkers and fans. [inset left] A family cries while watching the 86th Infantry Brigade Combat Team leave
                                         after their departure ceremony in Burlington, VT. DoD photo by Chad J. McNeeley
                                         ON THE INSIDE: A Soldier playfully tosses his son, Hunter Johnson, up into the air following the brigade’s deployment
                                         ceremony.
b	 Fiscal Year 2010 United States Army*Unless
                                       Annualotherwise noted,
                                               Financial      all photos on the cover and inside pages are courtesy of the U.S. Army. (www.army.mil)
                                                         Report
                                                                                           i




                                                                                Army General Fund and Working Capital Fund
                                           A Soldier travels dismounted
                                           while on his way back to his
                                           outpost from the village of
                                           Paspajak, Charkh District,
                                           Logar province, Afghanistan.




FY 2010 Contents
Message from the Secretary of the Army	                                   iii


Message from the Assistant Secretary of the
Army (Financial Management and Comptroller)	                               v


Management’s Discussion & Analysis	                                        1


General Fund – Principal Financial Statements,
Notes, Supplementary Information, and Auditor’s Report	                   29


Working Capital Fund – Principal Financial Statements,
Notes, and Auditor’s Report	                                              97
                                                   John M. McHugh
                                                        Secretary of the Army




ii	 Fiscal Year 2010 United States Army Annual Financial Report
This has been an amazing year for the United States Army. Not only were our men and women deployed in two theaters of                    iii
war for the ninth straight year - ending combat operations in Iraq and ramping up the war effort in Afghanistan - they took on




                                                                                                                                   Army General Fund and Working Capital Fund
additional missions across the globe and here at home, bringing hope to the flood ravaged plains of Pakistan, Haiti’s shores and
New Orleans coast.

Those 1.1 million active, guard and reserve Soldiers, and 300,000 civilian employees, are making a difference around the
world; serving willingly and selflessly, without fanfare or complaint, standing in harm’s way to defend our way of life.

We must continue to ensure they have the best training, equipment and leadership; that their Families have the necessary
programs and support back home; and that we care for our wounded and fallen in a manner befitting their service and
sacrifice.

And we must make certain that the Army, as an organization, is as efficient and adaptable as the American Soldier in the field
by being responsible and accountable to the American taxpayer.

The Army’s fiscal year 2010 financial statements provide that accountability, disclosing how taxpayer dollars were used to lead,
train, organize and equip America’s Army.

We are grateful for your support, and mindful of our imperative to find new ways to be more responsive, more efficient and
provide taxpayers the value they deserve.

We have already begun efforts to identify and implement efficiencies in everything we do, from our business practices and
family programs, to our personnel management and equipment acquisitions. We are working as well to eliminate duplication,
reduce overhead and excess, and instill a culture of savings and restraint so that we can maintain critical operational
capabilities, sustain force structure, and invest in needed modernization.

From continuing our in-depth, cost-informed Capability Portfolio Reviews, to transforming the Army’s Generating Force, we
are bringing improved discipline to our programs, evaluating and realigning our requirements, and creating institutions and
processes that can adapt just as quickly as our combat formations.

Despite this past year’s achievements, we know there is more work to do. But with your continued support and partnership,
America’s Army can face any challenge, because we are the Strength of the Nation.




	
		                                                                              John M. McHugh
		                                                                              Secretary of the Army
                                                 Mary Sally Matiella
                                                Assistant Secretary of the Army
                                           (Financial Management and Comptroller)




iv	 Fiscal Year 2010 United States Army Annual Financial Report
In fiscal year 2010 (FY 2010), Army financial management responded adaptively to the changing operational needs generated                     v
by the drawdown in Iraq and continued initiatives in Afghanistan. In addition to executing the largest annual budget in Army




                                                                                                                                       Army General Fund and Working Capital Fund
history, we were able to derive efficiencies that will enable us to align resources more effectively from overhead to direct support
of combat operations. While focusing on both budget execution and the efficiencies initiative, we have also made significant
progress towards improved financial operations. As the leader of the Army Financial Management and Comptroller (FM&C)
community, I am proud to say that we have focused on moving forward on several important initiatives and have seen
measurable results. These initiatives include implementation of our new General Fund Enterprise Business System (GFEBS),
better integration of cost analysis into the decision-making process, increased emphasis on audit readiness, and further
development of our business transformation strategy.

As of year-end, the GFEBS has been successfully implemented with 5,500 end users and, in FY 2010, $6.4 billion was
obligated using the system. In FY 2011, we anticipate adding over 37,000 additional end users. The GFEBS will provide our
accounting and budgeting staffs with more timely data and a better tool to accomplish their responsibilities. Also and of great
importance, GFEBS will provide new-to-the-Army cost accounting data that will enable leaders and managers to better focus
on the effective as well as efficient use of resources in everyday business decisions across the Army.

Another major focus of our attention this year has been continuing the integration of cost analysis into our decision-making
process. To cultivate this culture of cost-informed decision making, the Army is executing cost / benefit education and training
programs for military and civilian personnel at all levels, supporting both resource management and functional communities.
The Army established the graduate level Cost Management Certificate Course in FY 2010 and trained 137 students in this first
year. The Army also developed a Cost-Benefit Analysis (CBA) training program to enable resource-informed decision making.
Over 1,000 individuals completed the CBA training in FY 2010.

In FY 2010, the Army recorded significant accomplishments in several key areas related to audit readiness. The Assistant
Secretary of the Army (FM&C) held the first annual Army FIP Conference / Workshop with more than 120 Army command-
and field-level attendees and featuring presentations from many distinguished Department of Defense leaders. The Army also
built momentum towards meeting the Under Secretary of Defense (Comptroller) priorities of improving the information
reported on the Army’s Statement of Budgetary Resources (SBR) and validating the existence and completeness of mission
critical assets. Discovery work related to SBR testing and internal controls was completed on a total of 33 locations (including
installations, commands, and headquarters). Relating to testing of existence and completeness, the Army completed physical
inventories of 5,945 capital assets.

We have invested a great deal of time in the past year developing our concept of transformation: what the future of Army
financial management should look like. Refinement of the Army Campaign Plan will continue into early FY 2011, and the
resulting document will guide the transformation of the Army in coming years. The Army FM&C, as an organization, took
the lead on the business operations transformation portion of the campaign plan. Fiscal Year 2010 was a year of great progress
for the financial management community in the Army, and we expect that FY 2011 will be the same.




	
		                                                                                Mary Sally Matiella, CPA
		                                                                                 Assistant Secretary of the Army
		                                                                                (Financial Management and Comptroller)
        A parachute, helmet, and
        goggles are prepared for Special
        Forces Soldiers for a jump during
        Menton Week.




vi	 Fiscal Year 2010 United States Army Annual Financial Report
                                                                    vii




                                                                   Army General Fund and Working Capital Fund
“We have magnificent Soldiers, leaders and civilians.
They are ordinary people who are doing extraordinary
               things for our country.”
                General George Casey, Chief of Staff of the Army
viii	 Fiscal Year 2010 United States Army Annual Financial Report
                                                                                                                                            1




                                                                                                                                     Army General Fund and Working Capital Fund
                                                                                          Posting security just outside the
                                                                                          walls of a Combined Security
                                                                                          Checkpoint.




Overview                                                         the Army has awarded 325 military construction projects, of
                                                                 which 113 are complete. Resetting equipment and units to
The last nine years have seen transformational efforts and
                                                                 full capacity through Army force generation (ARFORGEN)
operational tempo for our Army not experienced since
                                                                 is in full swing, with the reset of 29 brigades worth of
its founding over 235 years ago. The Army of 2010 has
                                                                 equipment in 2009, and an additional 25 brigades in 2010.
radically changed from the Army of 2001 due to improved
                                                                 The Army is also executing a responsible drawdown in Iraq
equipment, training, and the collective lessons learned by
                                                                 that is redistributing, transferring, or disposing of 3.4 million
leaders and Soldiers during this time of war. Our Soldiers and
                                                                 pieces of equipment; redeploying 143,000 military and
leaders at all levels are battle-hardened and combat-proven
                                                                 civilian personnel and 147,000 contractors; closing 22 supply
throughout the ranks. Despite the significant improvements
                                                                 support activities; and consuming or disposing of over 21,000
made by the Army, it continues to face many challenges in
                                                                 short tons of supplies.
the future, some foreseen, but many others that may not
be foreseen. More than nine years of persistent conflict has
                                                                 In 2007, the Chief of Staff of the Army stated that the Army
placed a strain on the Army putting it out of balance, but the
                                                                 was “out of balance” in that the demand for forces exceeded
Army continues to meet each challenge and continues to be
                                                                 the sustainable supply and the Army lacked sufficient
the premier defender of the nation.
                                                                 strategic flexibility and operational depth to respond to other
                                                                 contingencies. While in a much better position today than
The Army has completed 88 percent of the modular
                                                                 in 2007, the Army continues its efforts to restore balance,
conversion of its brigades and will be 99 percent complete
                                                                 depth, and flexibility to provide a predictable, sustainable
by the end of Fiscal Year (FY) 2011. The Army continues to
                                                                 tempo of deployments for Soldiers and their Families by the
adapt and change to become more versatile, expeditionary,
                                                                 end of 2011. To that end, boots-on-the-ground in relation to
agile, lethal, sustainable, and interoperable. The force
                                                                 dwell-time-at-home-station (BOG:Dwell) declined slightly
achieved the Grow the Army end-strength goal of 1.1 million
                                                                 from an average of 1:1.5 at the end of FY 2009 to its current
Soldiers, in all components by the end of 2009, resulting in
                                                                 rate of 1:1.38, but is projected to increase to 1:1.44 by the
the effective ending of 15-month combat tours in November
                                                                 end of calendar year 2010 for the active component (AC).
2009. Significantly, the Army also met 100 percent of its
                                                                 The build-up of 30,000 troops for Operation Enduring
recruiting goals both numerically and qualitatively. The Army
                                                                 Freedom during 2010 has delayed the Army in achieving
continues to reposition forces worldwide and will complete
                                                                 BOG:Dwell goals for the AC in 2010. The Army has attained
the requirements of the Base Realignment and Closure
                                                                 its BOG:Dwell goal for the reserve component (RC) at 1:4.
(BRAC) Commission by the end of FY 2011. Since BRAC,
                                                                 The Army’s goal is to restore a 1:2 BOG:Dwell for the AC by
   FY 2011 and is poised largely to meet that goal by the end of    The Army is committed to remaining the world’s preeminent
   next year.                                                       land power—relevant and ready at all times to serve the
                                                                    nation and to support our allies. The Army will continue to
   In FY 2010, the Army continued executing its plan to             supply combatant commanders with the forces necessary to
   restore a balance that is founded on four imperatives:           defeat any adversary, in any situation, at any time. The Army,
                                                                    therefore, must fully train and appropriately organize its
        (1) 	Sustain its Soldiers, Families, and civilians;         forces, develop innovative and adaptive leaders, and design
                                                                    support structures that are appropriate for the twenty-first
        (2) 	Continue to prepare forces for success in the          century global security environment.
             current conflict;
                                                                    The Army is a large and complex organization, with more
        (3) 	Reset returning units to rebuild the readiness
                                                                    than 566,000 AC and over 567,000 RC Soldiers. Over
             consumed in operations and to prepare for future
                                                                    231,000 AC and RC Soldiers are currently deployed or
             deployments and contingencies; and
                                                                    forward-stationed. The Army’s Soldiers are supported by over
        (4) 	Transform to meet the demands of the twenty-first      284,000 Army civilians, who are critical members of the
             century.                                               institution at every level.

   At the time, the Army acknowledged that implementing             The Army is organized with the primary objective to support
   these imperatives would require several years, considerable      and sustain the mobilization, training, and deployment
   resources, and sustained national commitment. Efforts to         of its Soldiers anywhere in the world. The Headquarters,
   restore balance are continuing, and, by FY 2012, the Army        Department of the Army (HQDA) (Figure 1), under
   expects to achieve acceptable balance between deployments        the direction of the Secretary of the Army and the Army
   and time spent at home; complete modular transformation          Chief of Staff, leads and manages the entire Army. The
   and other rebalancing initiatives; and fully implement its       HQDA consists of the Army Secretariat and the Army Staff
   force-generation model, all while sustaining the all-volunteer   (ARSTAF). The Secretariat is responsible for Army-wide
   force and setting conditions for the future. As balance is       policy development, promulgation, and oversight. The
   achieved, the Army will focus its efforts on maintaining         ARSTAF assists the Secretariat in the conduct of long-
   its combat edge while reconstituting the force for other         range planning, resource determination and allocation, the
   missions and dealing with the impacts of over nine years of      development of Army-wide objectives, the formulation of
   persistent conflict.                                             broad policy guidance, and the supervision and control of
                                                                    Department of the Army activities.

   Mission and Organization of the                                  The Army’s command structure (Figure 2) consists of
   Army                                                             two interdependent pieces: the warfighting, or operating
   The Army’s mission is to support the national military           force and the generating force. Organizations that report
   strategy by providing well-trained, well-led, and well-          to HQDA consist of Army commands, Army service
   equipped forces to the combatant commanders. This mission        component commands, and direct reporting units.
   has remained constant throughout the 235-year life of the
   Army; however, the environment and nature of conflict have       The operating force consists of numbered armies, corps,
   changed dramatically over that same time. This is especially     divisions, brigades, and battalions that conduct full-
   true in the context of today’s security environment in an        spectrum operations around the world. The generating force
   era of protracted confrontation among state, non-state,          supports the operating force. Generating force organizations
   and individual actors who are increasingly willing to use        provide the infrastructure necessary to raise, train, equip,
   violence to achieve their political and ideological ends. New    deploy, and ensure the readiness of all Army forces. Without
   adversaries and the growth in asymmetric warfare have            the generating force, the operating force cannot function.
   compelled the Army to transform how it trains and equips         Without the operating force, the generating force has no
   its Soldiers, how those Soldiers are organized, and how they     purpose.
   fight.



2	 Fiscal Year 2010 United States Army Annual Financial Report
                                                                                                                                                                                                              3




                                                                                                                                                                                                        Army General Fund and Working Capital Fund
                                                                                                                                    A U.S. Soldier provides
                                                                                                                                    supporting fire during a squad
                                                                                                                                    live fire exercise in Kirkush
                                                                                                                                    Military Training Base, Diyala
                                                                                                                                    province, Iraq. Photo Ted Green




Figure 1 – Headquarters, Department of the Army (HQDA)

                                                                                                                        The Army              Deputy Under                          The Inspector
                                                                                                                      Auditor General      Secretary of the Army                      General



                                                                                                                       Administrative                                                  Chief of
                                                                                                                     Assistant to the SA                                          Legislative Liaison



                                                                                                                                                                                    Office of Small
                                                                                                                                                                                  Business Programs
         Office of the Secretary of the Army
                                                                                                                                      Secretary             SENIOR ARMY LEADERS
                                                                                                                                                                                  Chief Information
                                                                                                                                     of the Army                                    Officer/G-6
                                                                                                       Synchronize




                                                                    ASA
       ASA             ASA                           ASA
                                                                  Financial
    Manpower       Installation,      ASA        Acquisitions,                  General
    & Reserve       Energy &       Civil Works    Logistics &
                                                                 Management
                                                                                Counsel                                           Under Secretary                                     Chief of
                                                                      &
      Affairs     Environments                   Technology
                                                                 Comptroller                                                        of the Army                                     Public Affairs



                                                                                                  Director
                                                                                                 Army Staff
                                                                                                                                    Chief of Staff                                     Chief of
                                                                                                                                                                                      Chaplains
                                                                                                                                    of the Army
                                                                                                       Integrate




                                                                                                                                                                                    The Surgeon
                                                                                                                                Vice Chief of Staff                                   General
         Army Staff
                                                                                                                                   of the Army

                   Army Chief                                                                                                                                                      Provost Marshal
                                                                     G-8                                                                                                               General
        G1         of Staff for      Chief of        G-4                            G-2             G3
                                                                  (Financial
    (Personnel)    Installation     Engineers      Logistics                   (Intelligence)   (Operations)
                                                                 Management)
                  Management
                                                                                                                                                                                    Chief National
                                                                                                                                                                                    Guard Bureau


           Defined responsibilities to ASAs                                                                            Sergeant Major      The Judge Advocate                        Chief Army
           Oversight                                                                                                    of the Army              General                              Reserve
   ASA     Assistant Secretary of the Army
   Figure 2 – Army Command Structure

                                                           Headquarters
                                                       Department of the Army




                                                                                                                       SMDC/
                FORSCOM        TRADOC           AMC                                ARCENT      EUSA       USASOC      ARSTRAT

                                                                                 ARNORTH

                                                                                ARSOUTH

                                                                            USAREUR
                                                                          USARPAC

                                                                         USARAF
                                                                      ARCYBER




     USAASC         ATEC      USACIDC           USMA      USARC          MDW        USACE     MEDCOM     NETCOM/       INSCOM       IMCOM
                                                                                                         9TH SC(A)

   LEGEND
                              FORSCOM      Force Command                           USACIDC     US Army Criminal Investigation Command
     Army Command              TRADOC      Training and Doctrine Command              USMA     US Military Academy
                                   AMC     Army Materiel Command                     USARC     US Army Reserve Command
     ASCC
                               ARCENT      Army Central                                MDW     Military District of Washington
      DRU                     ARNORTH      Army North                                USACE     US Army Corps of Engineers
                              ARSOUTH      Army South                              MEDCOM      Medical Command
                              USAREUR      US Army Europe                     NETCOM/9th SC    Network Command/9th Signal Command
                              USARPAC      US Army Pacific                           INCOM     Installation Management Command
                               USARAF      US Army Africa                             SMDC     Space and Missile Defense Command
                                USAASA     US ARmy Acquisition Support Center      ARSTRAT     Army Strategic Command
                              ARCYBER      Army Cyber Comman




            Soldiers listen to a convoy brief
            during their final convoy out of
            theater.




4	 Fiscal Year 2010 United States Army Annual Financial Report
The operational Army provides the land-power capabilities         others to secure their freedom. After more than nine years             5
for the combatant commander. Within the operational               of continuous combat, our Army remains out of balance,




                                                                                                                                   Army General Fund and Working Capital Fund
Army, the transition continues from a division-centric            straining our ability to sustain the all-volunteer force and
warfighting force to a brigade-centric force. At the heart        maintain strategic depth. The stress on our force has not
of this change is the modularization and standardization          eased in 2010 as the demand on our forces remains high. In
of Army brigade combat teams (BCTs), a process that is            2010, the Army made significant progress to restore balance.
essential to the development of a rapidly deployable, flexible,   For FY 2011, we are funded and poised largely to meet our
and powerful force.                                               goals in restoring balance by the end of next year.

Viewed by its constituent elements, the Army is separated         The Army must restore balance while simultaneously setting
into the AC and RC. The AC consists of full-time Soldiers         conditions for the future. Our future readiness demands
assigned to the operational and institutional organizations       that we continue to modernize, adapt our institutions, and
that perform day-to-day Army missions. The RC consists of         transform Soldier and leader development to ensure our
the Army National Guard (ARNG) and the United States              campaign capable force is versatile, expeditionary, agile,
Army Reserve (USAR). The Congress annually reviews                lethal, sustainable, and interoperable. Modernization efforts
and mandates the number of Soldiers that the Army may             are essential to ensure technological superiority over our
maintain.                                                         potential, diverse adversaries. Adapting our institutions
                                                                  increases efficiency and effectiveness in providing trained
The ARNG has two missions: federal and state. Its federal         and ready forces for combatant commanders. Transforming
mission is to provide trained and ready forces for wartime,       how we train Soldiers and develop agile and adaptive leaders,
national emergencies, and other requirements, as an               based on the lessons we continue to learn in Afghanistan and
operational focus. Its state mission is to train for, and         Iraq, is paramount to the success of full-spectrum operations
respond to, domestic emergencies and other missions as            in dynamic and complex operating environments.
required by state law. Unless federally mobilized, ARNG
units are commanded by their state executive, usually the         In FY 2010, the Army updated the Cost of the Doctrinal
governor.                                                         Army Model using improved and refined methods and
                                                                  the latest force structure associated with accomplishing
The USAR is the primary federal reserve force of the Army.        the missions assigned by the Office of the Secretary of
The USAR provides specialized units and resources to              Defense. The Cost of the Doctrinal Army estimate is
support the deployment and sustainment of Army forces             performed annually independent of the standard Planning,
around the globe. In addition, the USAR is the main source        Programming, Budgeting and Execution (PPBE) process.
of individual Soldiers to augment headquarters staff and to       This estimate is what the Army should cost to operate in
fill vacancies in the AC.                                         accordance with established Army Doctrine, fully staffed
                                                                  and equipped. The Army has found these top-down cost
The Army has met the challenges of the nation for over            estimates valuable in comparing to the bottom-up PPBE
235 years. It is postured to continue to defend the nation        results. The Cost of the Doctrinal Army identifies the steady-
regardless of the challenges it faces in the future. The Army’s   state Army force structure and associated equipment and
effort to restore balance enables it to be ready whenever and     facilities, and then depreciates the equipment and facility
wherever the nation calls.                                        assets to account for the annual investments to renew or
                                                                  replace the assets. The estimate includes only peacetime
                                                                  costs, excluding overseas contingency operations (OCOs).
Performance Goals, Objectives, and                                The result is a Cost of the Doctrinal Army of $183.8 billion.
Results                                                           We will continue to refine our methodology and resourcing
                                                                  strategy so we produce the leanest possible estimate, while
The Army is in the midst of a long war, the longest in our
                                                                  accurately articulating the cost of the Army and its doctrinal
nation’s history. More than one million of our country’s
                                                                  and operational capabilities to the Congress and the
men and women have deployed to combat; more than
                                                                  American people.
5,700 have sacrificed their lives; and more than 40,000
have been wounded. Our Army continues to be the leader
in this war, protecting our national interests while helping
   The costs associated with full implementation of the                Manning the Force – Recruiting and Retaining
   President’s Temporary End-Strength Increase of up to                Soldiers
   22,000 AC Soldiers resulted in an annual estimate of
   $1.01 billion in FY 2010 and $1.24 billion in FY 2011. The          While the recruiting environment is challenging, the Army
   following sections discuss the four imperatives, goals, and         remains committed to bringing only the very best into
   program performance results.                                        our ranks. Our goal is for Tier 1 Educational Credential
                                                                       Holders (e.g., those with high school diplomas or above)
                                                                       to comprise no less than 90 percent of new recruits. The
   Sustain                                                             Army achieved 98 percent Tier 1 recruits in FY 2010, which
                                                                       is a 3 percent increase from FY 2009 and a 15 percent
   The Army must maintain the quality and viability of the             increase from FY 2008. The overall attrition rates remained
   all-volunteer force and the many capabilities it provides           virtually unchanged over the last three years. The static rate
   the nation in order to sustain Soldiers, Families, and Army         and overall quality of recruits are positive signs that we are
   civilians in an era of persistent conflict. Sustainment ensures     recruiting, training, and retaining a highly qualified force.
   that Soldiers and their Families have the quality of life they
   deserve, which helps to improve retention rates.                    The Army was able to meet its recruiting requirements in
                                                                       all components. The ARNG reduced its FY 2010 recruiting
                                                                       requirement to avoid exceeding end strength limits. The
                                                                       Army adjusted several recruiting initiatives, such as Active

    Table 1 - Quality – Percent Tier 1 Educational Credential Holders (Active Component)
                                  FY 2006            FY 2007             FY 2008         FY 2009                      FY 2010
    Tier 1 Goal                       90                90                  90             90                           90
    Tier 1 Actual                     83                79                  83             95                           98

    Table 2 - Recruiting
                                 FY 2006           FY 2007           FY 2008         FY 2009          FY 2010           FY 2010
                                  Actual            Actual            Actual          Actual            Goal             Actual
    Active Army                   80,635            80,407            80,517          70,045           74,500            74,577
    Army National Guard           69,042            62,914            62,397          52,014           57,000            57,204
    Army Reserve                  25,378            27,004            26,945          23,684           26,300            26,795




           The U.S. Military Academy at
           West Point celebrated the Class
           of 2010 Graduation on May 22,
           2010. Photo by Mike Strasser




6	 Fiscal Year 2010 United States Army Annual Financial Report
                                                                                                                                                            7




                                                                                                                                                      Army General Fund and Working Capital Fund
                                                                                                          A Soldier maneuvers onto some
                                                                                                          piled up logs in order to look for
                                                                                                          anything suspicious during a
                                                                                                          reconnaissance mission near a
                                                                                                          village.




First, the Army Prep School, and the Army Advantage                           and Field Artillery. Further, medical-related CSRBs were
Fund due to the current economy. The expected FY 2011                         offered to critical specialties including clinical psychologists,
economy is also expected to yield high-quality recruits.                      physician’s assistants, and maxillofacial/oral surgeons.

Due to OCO, several special skills remain in high demand.                     When the president declares a state of national emergency,
In FY 2010, the Army continued to maintain a Critical                         end-strength limits are waiverable. The Army is trying to
Skills Retention and Accession Bonus (CSRB) to attract and                    grow to relieve stress on the force and increase time between
retain personnel in specific skills areas, including Special                  deployments.
Forces, Criminal Investigations, Military Intelligence,

 Table 3 - Active Component End Strength within 2 Percent
                              FY 2006           FY 2007                                FY 2008                 FY 2009                 FY 2010
 Goal                         502,400           518,400                                529,191                 552,400                 562,400
 Congressional Baseline       512,400           518,400                                525,400                 532,400                 562,400
 Actual                       505,402           522,017                                543,645                 553,044                 566,045
 Percent Delta                 -1.4%             +0.7%                                  +3.5%                   +3.9%                   +0.6%
 Performance Measure: The number of Soldiers on active duty at the end of the year; data are as of the end-of-month (EOM), September 2010.


 Table 4 - Reserve (ARNG and USAR) End Strength within 2 Percent
                             FY 2006          FY 2007            FY 2008                                       FY 2009                 FY 2010
 Goal                        555,000          550,000            556,300                                       563,200                 563,200
 Actual                      536,263          542,589            557,375                                       563,688                 567,296
 Percent Delta                -3.4%            -1.3%              +0.2%                                         +0.1%                   +0.7%
 Performance Measure: The number of Soldiers in the ARNG and the USAR at the EOM, September 2010.


 Table 5 - Active and Reserve Component Retention
                            FY 2006      FY 2007                            FY 2008             FY 2009             FY 2010              FY 2010
                             Actual       Actual                             Actual              Actual              Goal                 Actual
 Active Army                  67,307       62,200                             73,913              68,387             60,000                68,082
 Army National Guard          41,083       37,578                             29,618              36,672             30,472                32,156
 Army Reserve                 18,223       16,571                             16,523              11,163             10,330                10,921
 Performance Measure: Measures the number of Soldiers reenlisted during a given FY against the published goals. All components achieved their
 retention mission for FY 2010 as of the end of September. The Active Army FY 2010 Actual includes Soldiers who extended enlistments for deployment
 through the Deployment Extension Incentive Pay program.
   The Army continues to offer reenlistment bonuses for high-      Warrior Care and Transition
   demand specialties. These bonuses, which are a vital tool in
   keeping Soldiers who possess valuable combat experience,        With the continued maturation of the Army’s Warrior Care
   have helped the Army to exceed its retention goal for           and Transition Program, wounded, ill, and injured Soldiers
   FY 2010. Careful and deliberate adjustments to bonuses,         and their Families are receiving the care management and
   including which critical skills are targeted, were made to      support they both need and deserve. The Warrior Transition
   retain the correct mixture of skilled Soldiers.                 Command (WTC) was established to ensure focused and
                                                                   effective management of all aspects of the Warrior Care and
   Recruiting and retaining Soldiers who are confident,            Transition Program. The Army dedicated $1.44 billion in
   adaptive, competent, and able to handle the full complexity     FY 2010 to resource the WTC mission with cadre, training,
   of twenty-first century warfare in this combined, joint,        information technology, and investments in 20 facilities,
   expeditionary environment is a highly competitive endeavor.     31 Soldier Family Assistance Centers and 64 administrative
   The Army will continue to develop and to implement              headquarters. Staff across the enterprise included all
   programs to address this challenge.                             components, civilians, and contractors – in total, over
                                                                   3,600 squad leaders, platoon sergeants, nurse case managers
                                                                   and support staff facilitate the coordination of care across
   Improving the Quality of Life for Soldiers and Their            both warrior transition units (WTUs) and community-based
   Families                                                        WTUs (CBWTU).

   The Army must care for its Soldiers and their Families by       With the WTC at the helm, the Army is caring for a total
   providing exceptional programs and services that support        of approximately 16,300 Soldiers and veterans annually. The
   their well-being to retain Soldiers and meet the needs of       WTC’s wounded warrior program cares for approximately
   their Families. The Army is committed to improving the          7,400 severely wounded Soldiers and veterans with cases
   quality of life for Active, Guard, and Reserve Soldiers and     spanning from Post-Traumatic Stress Disorder to double
   their Families that is equal to the quality of their service.   amputees. This population is being supported by 150
   The Army continues to demonstrate this commitment               advocates in various locations across the country. There are
   through the Army Family Covenant and the Soldier                over 1,500 wounded warriors supported at nine CBWTUs
   Family Action Plan. In FY 2010, the Army standardized           that allow them to heal in their home communities while
   Army Community Service staffing and programs to meet            remaining with their families. Approximately 7,400 more
   operational and staffing shortfalls. Other improvements         wounded warriors are supported at 29 WTU locations across
   include adding 1,170 family readiness support assistant         the nation.
   positions; increasing the number of military family life
   consultants from 112 (FY 2005) to 620 (FY 2010);                To support each warrior in transition’s (WT) return to the
   completing 56 child development centers providing an            force or transition to veteran status, the Army developed
   additional 8,653 child care spaces and significantly reducing   a systematic framework known as the comprehensive
   waiting lists at 31 installations; maintaining 100 percent      transition plan (CTP). The CTP is a six-part process,
   national accreditation of Army child development centers;       which includes an individual plan created by the WT with
   providing over 1 million hours of respite child care to         the assistance of dedicated cadre and support personnel.
   reduce stress on deployed Families; supporting more than        Using a standardized framework, this process allows
   150,000 geographically dispersed AC and RC children             wounded, ill, and injured Soldiers to customize their
   who participated in youth outreach activities, camps, and       recovery plan, enabling them to set and reach their personal
   workshops offered through Operation Military Kids in 50         goals. In FY 2010, funding supported the return to duty
   states; providing funding for deployment and Exceptional        of approximately 50 percent of the wounded warrior
   Family Member Program respite care, maintaining Soldier         population. Other warriors have successfully transitioned
   and Family assistance centers; and placing thousands of         to civilian life furthering their education and/or obtaining
   spouses in jobs through the Army Spouse Employment              meaningful positions in the workplace. Initial success
   Program.                                                        indicators can also be attributed in part to an aggressive non-
                                                                   clinical rehabilitative program. Funding supported pillars
                                                                   of this program include activities such as adaptive sports
                                                                   (physical); the inauguration of the world class para-athlete

8	 Fiscal Year 2010 United States Army Annual Financial Report
                                                                                                                                      9




                                                                                                                                Army General Fund and Working Capital Fund
                                                                                      A young boy watches Soldiers
                                                                                      after their departure ceremony.
                                                                                      DoD photo by Chad J. McNeeley




competition warrior games (physical/mental); Outward           In FY 2010, the Army privatized and conveyed 1,006 homes
Bound adventure training (physical/mental/spiritual), and      at Aberdeen Proving Ground, Maryland (December 2009).
other similar programs geared toward the holistic healing      This effort completes the total number of installations
and mental and physical fitness of the Army’s wounded, ill,    scheduled to be privatized at 44, with an end-state
and injured.                                                   inventory of 85,711 homes. At the end of FY 2010, all of
                                                               the Residential Communities Initiative program will have
                                                               moved into the portfolio and asset management phase.
Improving Soldier and Family Housing                           At the end of September 2010, the Army transferred
                                                               1,242 units to Joint Base Elmendorf-Richardson, Alaska; the
The Army’s commitment and congressional support for
                                                               residences will be subject to U. S. Air Force privatization in
housing programs continue to demonstrate our pledge
                                                               early FY 2011.
to provide a quality of life for Soldiers and their Families
commensurate with their service. In concert with the private
                                                               The Army is on track to eliminate inadequate permanent
sector, the Army continues to focus considerable effort on
                                                               party, single-soldier barracks and to complete the
improving family housing and the Barracks Modernization
                                                               modernization program for these barracks by FY 2013. The
Program. The Army’s inventory of inadequate family
                                                               new barracks are expected to be available for occupancy in
housing has been eliminated at enduring U.S. locations
                                                               FY 2015. As of FY 2010, the Army has 134,942 adequate
through privatization, conventional military construction,
                                                               spaces of the 149,919 spaces required.
demolition, and divestiture of uneconomical and excess
units. At most enduring foreign locations, inadequate family
housing was eliminated through military construction,          The Army’s strategy to eliminate inadequate barracks for
demolition, and returning excess housing to host nations.      its Training Barracks Modernization Program remains on
However, at one enduring foreign location (Baumholder,         course for completion in FY 2015, with the new barracks
Germany), funding to modernize the remaining inadequate        available for occupancy in FY 2017. The goal is to construct
government-controlled family housing inventory will            new barracks to eliminate the deficit and to complete
continue through FY 2016. The Army will continue to            restoration and modernization of 91,530 Soldier (spaces)
improve or replace family housing residences worldwide in      while the potential occupants attend basic training, one-
order to maintain adequate housing and will reflect these      station unit training, and advanced individual training. As of
improvements in its property records.                          FY 2010, 46,914 spaces have been completed.
            A Paratrooper performs an
            airborne insertion from a C-17
            Globemaster III cargo aircraft
            based at Charleston Air Force
            Base, S.C., during a joint forcible
            entry exercise. Photo by Angelita
            M. Lawrence




   The Army executed four unaccompanied personnel housing                         Providing Support for Operational Requirements
   privatization initiatives for staff sergeants and above at Forts
   Irwin, Drum, Bragg, and Stewart. Together, these facilities                    The pace of operations in the new security environment
   will provide 1,394 apartments (1,394 bedrooms) in areas                        presents a number of significant force management
   that have limited available rental properties for these grades.                challenges to the Army. As a result of the Army’s global
                                                                                  commitments, approximately 231,000 Soldiers are
                                                                                  deployed or forward-stationed in nearly 80 countries
   Prepare                                                                        overseas. As of the end of September 2010, approximately
                                                                                  566,000 personnel were serving in the AC, and
   To prepare Solders, units, and equipment, the Army must                        approximately 60,100 RC Soldiers were on mobilization
   maintain a high level of readiness for the current operational                 orders.
   environments, especially in Afghanistan and Iraq, while
   taking into consideration potential future conflicts. The                      Repeated deployments affect recruiting and retention and
   Army is continually adapting training and materiel to keep                     have a very real impact on our ability to care for Soldiers and
   pace with an evolving enemy. We remain committed to                            their Families. The Army is pursuing numerous initiatives
   providing our deploying Soldiers with the best available                       that will reduce force-management risk to meet today’s
   equipment, so that they can maintain a technological                           challenges, and to position troops better for the future.
   advantage over any enemy they may face.




    Table 6 - Individual Training
                                         Basic                           Advanced        Basic Officer       Officer         Warrant
                                        Combat         One-Station       Individual        Leader           Candidate      Officer Entry     Initial Entry
    Initial Military Training           Training       Unit Training      Training         Course            School           Course         Rotary Wing
    2008 Trained (actual)               81,274           32,132          96,557            16,390             1,953            2,769              993
    2009 Trained (actual)               82,773           35,117         108,069            20,666             2,458            2,585            1,093
    2010 Trained (interim)              63,915           21,872          83,659            11,772             1,742            2,081              645
    NOTES: This data represents active Army, ARNG, and USAR students graduating from AC schools. All data is based on start date (i.e., if a class
           starts in FY 2009 and graduates in FY 2010, it is counted in the FY 2009 data). Example: The initial basic training class that started in July
           2010 is counted as a 2010 trained Soldier and is not part of the numbers in the table above. The actual 2009 trained data is as of 4 October
           2010. The interim 2010 trained data is as of 4 October 2010.




10	 Fiscal Year 2010 United States Army Annual Financial Report
                                                                                                                                              11
 Table 7 - Ground and Air Operational Tempo (OPTEMPO)
                                          FY 2007     FY 2008                              FY 2009            FY 2010            FY 2010




                                                                                                                                            Army General Fund and Working Capital Fund
                                           Actual      Actual                               Actual             Goal               Actual
 AC Ground OPTEMPO (Mileage)                 729.0      500.0                                605.0              421.0              417.0
 AC Air OPTEMPO (Flight Hours)                12.8        12.4                                 10.0                7.0                9.8
 ARNG Ground OPTEMPO (Mileage)               127.0      150.0                                119.0              110.0              122.0
 ARNG Air OPTEMPO (Flight Hours)              10.1         9.7                                  9.4                6.0                7.9
 USAR Ground OPTEMPO (Mileage)               138.0      152.0                                146.0              109.0              114.0
 USAR Air OPTEMPO (Flight Hours)               9.7         8.1                                  5.5                5.4                4.9
 NOTE: The FY 2007 through FY 2010 data reflect home-station execution only. The FY 2010 amounts are estimates based on execution, as of
       August 2010



The ARFORGEN process leverages modular unit designs                       information operations, counter-explosive hazards, and
and the operational cycle to create a sustainable deployment              operational law.
posture with units that are ready in predictable patterns and
the capacity to surge combat power for major operations.                  In FY 2010, the Army continued to provide foreign
When fully operational, ARFORGEN will enable the Army                     language training for all four Services and other Department
to schedule effectively and efficiently fully-ready units for             of Defense (DoD) activities conducting basic qualification,
deployment, which will:                                                   intermediate, and advance language training. The Defense
                                                                          Language Institute Foreign Language Center continued
     (1)	 Reduce uncertainty for Soldiers, Families, and the              to execute the Proficiency Enhancement Program which
          communities that support installations;                         enabled students to achieve higher levels of language
                                                                          proficiency through smaller instructor-to-student ratios
     (2)	 Improve the availability of forces for combatant                in the classroom. We are also using our foreign language
          commanders;                                                     training detachments to assist our professional military
                                                                          education (PME) institutions. Culture topics have been
     (3)	 Generate a continuous number of available
                                                                          imbedded into training throughout our schools.
          BCTs, augmented by all required supporting
          organizations (given appropriate mobilization
          authority); and                                                 Training Units
     (4)	 Enable the Army to surge additional BCTs                        In FY 2010, the Army provided trained and ready forces to
          augmented by all required supporting                            commanders around the globe in addition to meeting critical
          organizations (given appropriate mobilization                   homeland defense missions. To make sure Soldiers were
          authority).                                                     combat-ready in FY 2010, they engaged in an appropriate
                                                                          mix of live, virtual, and constructive training. The AC and
Training Soldiers                                                         RC executed a focused and demanding ground and air
                                                                          training plan, which included actual miles driven and hours
Initial entry training develops the Soldier’s war-fighting                flown as well as virtual miles and hours associated with
capability through individual warrior tasks and battle drills.            the use of simulators. In FY 2010, home-station training
Every six months, the Army reviews and updates these                      miles and hours executed were impacted by the limited
tasks and drills to ensure that training is relevant to today’s           dwell times between rotations, the impacts of equipment
environment.                                                              reset requirements, and unprogrammed changes in unit
                                                                          deployment schedules into theater.
The Army continues to augment its ability to conduct
irregular warfare through several functional courses that
build on language and cultural competencies and improve                   Training Support Systems
Soldiers’ and civilians’ knowledge of and capabilities
                                                                          The Army’s Training Support System (TSS) enables the
in electronic warfare, red teaming (opposing forces),
                                                                          execution of training at home stations, Combat Training
counterterrorism, weapons of mass destruction, civil affairs,
                                                                          Centers (CTCs), and at Training and Doctrine Command
                                                                          schools by creating realistic conditions that reflect the
   operational environment. These critical training enablers         TADSS, must continue to keep pace with equipment
   include ranges and targets; live-virtual-constructive and         modernization and Army transformation. The reason for
   gaming training aids, devices, simulators, and simulations        this is to support current operations, address ARFORGEN
   (TADSS); instrumentation systems; training facilities;            training and readiness requirements, and enable training for
   maintenance support of TADSS; and training support                FSO.
   operations and management.

   The Army continues to adapt TSS to support ARFORGEN               Adapting Training
   training requirements and lessons learned from current            In FY 2010, the Army conducted 22 of 24 planned
   operations. At home stations, training must support Soldiers,     rotations at the CTCs due to current deployment demands.
   leaders, and units conducting full-spectrum operations            The CTCs provide realistic joint and combined-arms
   (FSOs) training under realistic conditions. Ranges are being      training that approximates actual combat according to
   modernized to integrate digital systems that allow crews          Army and joint doctrine. The CTCs are at the core of
   and platoons to train as they fight, as well as to provide        the Army’s collective training strategy and have dedicated
   commanders and leaders with objective data to assess their        resources beyond those available at home-station training
   units’ performance and training levels. New ranges are            sites. Training is specifically tailored to prepare units for
   being built at locations to support gunnery requirements          the conditions in the theater to which they will deploy.
   in accordance with the Army Campaign Plan, and urban              While the CTCs retained the capability for major combat
   operations training facilities are being constructed and          operations-oriented unit training, which is needed for
   fielded to provide units a complex urban terrain for training.    other potential theaters of war and new modular brigades,
   This live training environment will be further enhanced           the current focus is counter-insurgency operations and
   with a Home Station Instrumentation Training System. This         lessons from combat in Afghanistan and Iraq. The training
   system links ranges, urban complexes, and training areas to       environment emphasizes rapid change and adaptation to
   Battle Command Training Centers (BCTCs), which house              current activities and uses improved facilities, civilians on
   constructive simulations and gaming, as well as simulation        the battlefield, and realistic scenarios. The complex, event-
   facilities incorporated with virtual TADSS.                       driven scenarios challenge the BCTs to execute multiple,
                                                                     simultaneous missions that include integrated enablers from
   New and improved live-virtual-constructive and gaming             the Army and the joint community.
   TADSS are being fielded to augment training against
   improvised explosive devices (IEDs). Virtual simulators, IED      The modernization of CTCs lags behind Army
   simulators, gaming simulations, and convoy live-fire systems      modernization. As a result, CTC commanders are using
   provide a complete package for battle drills, learning tactical   OCO funds to improve their centers and provide conditions
   techniques and procedures, and generally raising IED              that reflect the current operational environment.
   situational awareness.

   The Army also is modernizing the BCTCs and training               Growing Adaptive Leaders
   simulations to increase leader and battle-staff training and to
   improve mission-rehearsal capabilities for deploying units.       The current operational environment proves that leaders
   The BCTCs provide units the ability to train and to sustain       must possess skills beyond those of pure tactical war fighting.
   critical individual/operator and battle-staff skills on digital   It instead demands leaders who have developed skills in
   command, control, communications, computer, intelligence,         such disciplines as irregular warfare, information operations,
   and surveillance and reconnaissance systems. The BCTCs            negotiation, cultural awareness, stability and reconstruction
   will also network with other installations and simulations        operations, and foreign language proficiency without
   to support joint training exercises. The BCTC serves as the       losing their warfighting focus. The Army initiated and will
   hub for an installation’s live-virtual-constructive integrated    continue to maintain:
   training environment.
                                                                          (1)	 Cultural awareness training and education in all
   Army training modernization, including manpower and                         levels of PME;
   operations support required to maintain and operate


12	 Fiscal Year 2010 United States Army Annual Financial Report
                                                                                                                                                         13




                                                                                                                                                         Army General Fund and Working Capital Fund
                                                                                                         A Soldier walks the tarmac of
                                                                                                         the Mosul Airfield at Contingency
                                                                                                         Operating Base Diamondback,
                                                                                                         Iraq.




 “Military success in this war is tied to the capabilities of our
leaders and Soldiers, and we will not fail to prepare them for
                                                               success.”
                                                   General George Casey, Chief of Staff of the Army



Table 8 - Professional Development (AC Schools Only)
                                                                                               Sergeants                              Senior Service
                                                                                              Major Course         Intermediate          College
                                                                                                Resident         Level Education         Resident
                                 Warrior Leader        Advanced           Senior Leader       and Distance           Resident,         and Distance
                                    Course           Leader Course           Course             Learning          Common Core            Learning
2008 Trained (actual)                 27,272              12,087              10,242            592/780             957/739             443/389
2009 Trained (actual)                 28,321              38,496              13,852            594/495           1,556/903             257/247
2010 Trained (interim)                30,188              24,016              11,082              0/601               0/631             263/302
NOTES: This data represents active Army, ARNG, and USAR students graduating from active component schools. The 2010 resident Sergeants
       Major Course does not graduate (328 inputs) until May 2011. The 2010 resident intermediate level education classes do not graduate (1,439
       inputs) until December 2010 and June 2011. The 2010 resident SSC classes do not graduate (966 inputs) until June 2011. All data is based
       on start date (i.e., if a class starts in FY 2010 and graduates in FY 2011, it is counted as FY 2010 data). Actual 2009 trained data is as of 4
       October 2010. Interim 2010 trained data is as of 4 October 2010.




    (2)	 Expertise in irregular warfare and FSOs for Soldiers                 Due to the current high operational demand, many of our
         and leaders from the tactical to strategic level,                    leaders are unable to attend their PME at the optimal time
         emphasizing multinational, interagency, and joint                    in their career. As a result, the Army has a large backlog at
         operations; and                                                      nearly all educational levels in both the AC and RC. To
                                                                              slow the growth of the backlog, the Army employed mobile
    (3)	 Language training and cultural education                             training teams for Noncommissioned Officer Education
         throughout the Army, in schools, through self-                       System courses and increased use of distributed learning
         development, online, and in training at CTCs.
    Table 9 - Civilian Professional Development
                                                                     Industrial College of the          Civilian Education
                                          Army War College               Armed Forces                         System
    2010 Inputs                                 12                               9                             15,604


   to conduct PME within the constraints of ARFORGEN.                Looking forward to FY 2011 and beyond, the CTSA will
   As mission requirements change, the Army expects the              expand to include Army civilians enrolled in the Defense
   availability of leaders to attend PME to increase significantly   Senior Leader Development Program. Several new initiatives
   and will begin reducing the current backlog.                      will be implemented to provide a more robust training
                                                                     program that improves access for all Army civilians. They
   The Civilian Education System (CES) will meet the                 include but are not limited to the following:
   Secretary of the Army’s mandate that leaders of tomorrow be
   “adaptable and multi-skilled.” This requires a new paradigm            (1) 	Establish an Army-wide civilian training
   and a centralized development program for training and                      management system;
   educating the Army’s future civilian leaders “who will serve
   in both operational and institutional capacities to operate,           (2) 	Establish leader competency-based training
   and win, in this new environment.”                                          in conjunction with the Army competency
                                                                               management system;
   The Army is keenly aware of the valuable contributions of its          (3) 	Establish fellowships and Joint Interagency
   civilian corps in supporting the National Military Strategy.                International and Multinational broadening
   The Army must provide its civilians training, education, and                assignments for senior Army civilians; and
   operational experiences that develop leader competencies
   and enhance their ability to support Soldiers, the Army,               (4) 	Increase outreach and communication to the Army
   and the nation. To accomplish this, the Civilian Leader                     Civilian Corps to increase CES participation.
   Development Program has been revamped into a system that
   is similar to the Military Leader Development Program.            Improvements to CES and the successful implementation of
                                                                     new initiatives will reduce redundancies in the Army civilian
   The CES uses leadership competencies derived from those           training programs by providing overarching processes that
   set by the Office of Personnel Management and those               enable the civilian population to be managed across the
   identified by the Center for Army Leadership. These courses       Human Capital life cycle from an enterprise perspective.
   provide leader development training and education that
   support civilian leaders’ career path requirements and
                                                                     Modernizing and Equipping the Army
   professional development, and promote lifelong learning and
   self-development.                                                 The Army’s Soldiers and commanders rely on and deserve
                                                                     the very best equipment that can be provided, and they
   During FY 2010, in direct support of the Secretary of the         play a large role in setting Army requirements. Since
   Army’s initiative to transform the Army civilian workforce,       FY 2002, the Army has shifted resources in response to the
   the Civilian Training and Student Account (CTSA)                  many lessons learned from Operations Iraqi Freedom and
   was established for Army-funded civilians attending an            Enduring Freedom. Force protection, communications,
   Army senior service college (SSC). This account mirrors           surveillance, and weapon systems programs were accelerated
   the Military Trainees, Transients, Holdees, and Students          to meet Soldiers’ urgent needs. To modernize the force, the
   account by reassigning SSC participants, who have been            Army invested in a variety of new equipment to replace the
   selected to attend the Army War College and the Industrial        outdated and expensive-to-maintain equipment, including
   College of the Armed Forces resident programs, to an              trucks and aircraft. For example, the Army plans to complete
   HQDA-centralized operational Table of Distribution and            the divestiture of all M35 series trucks (2.5-ton) by the end
   Allowances. Funding from the CTSA enables the losing              of FY 2011 and replace all M809 series trucks (5-ton) with
   command immediately to backfill against the position and          family of medium tactical vehicles by the end of FY 2012.
   mitigate disruptions to the organization mission.



14	 Fiscal Year 2010 United States Army Annual Financial Report
The Army also has accelerated the fielding of the M4            desired level of combat capability commensurate with a           15
carbine, enhanced night vision devices, and continued efforts   unit’s future mission. Reset reverses the effects of combat




                                                                                                                                 Army General Fund and Working Capital Fund
to provide Soldiers the very best body armor. To address a      stress on equipment and extends the life of vital systems
unique operational requirement, the Army invested in the        and platforms that have been used at unprecedented rates in
mine-resistant ambush-protected vehicle (MRAP). The             harsh and demanding desert and mountain environments.
Army’s aviation fleet was significantly modernized through      In addition, the Army must also revitalize Soldiers and their
procurements of UH-60M Black Hawk, CH-47F Chinook,              Families by providing them the time and the opportunity to
and AH-64D Apache helicopters. There is also the new            recover from the cumulative effects of sustained operations.
Ground Combat Vehicle program. The ground combat
vehicle effort will initiate the modernization of the Army’s
fighting vehicles.                                              Repair, Replace, and Recapitalize Equipment

                                                                In FY 2010, Reset was highly successful, despite a dynamic
The Rapid Fielding Initiative (RFI) continues to enhance        strategic environment. For the fiscal year, the Army received
warfighting capabilities through modernized technology to       $10.9 billion in OCO funding from the Congress for Reset.
address the Soldier’s immediate requirements. Twenty-four       The Army aggressively executed this funding to restore
BCTs and numerous other OCO-deploying units in the              units’ equipment readiness. The Army obligated 37 percent
ARFORGEN operating cycle comprising 240,806 Soldiers            of procurement funding within eight months of receipt,
were fielded RFI equipment during FY 2010.                      while Operation and Maintenance, Army, obligations occur
                                                                throughout the fiscal year as equipment returns. The Army
The Rapid Equipping Force (REF) provides rapid                  completed the Reset of 25 brigades worth of equipment
capabilities to Army forces employed globally by harnessing     during the fiscal year and has 18 more brigades worth of
current and emerging technologies to improve operational        equipment in progress.
effectiveness. The REF’s priority is at the deployed brigade
and BCT level, focusing on commercial off-the-shelf and         A fully-funded Army Reset program ensures that equipment
government off-the-shelf solutions to increase effectiveness    is operationally ready for use by combat forces. Reset
and reduce risk. The REF maintains forward deployed             funding should match Reset requirements and be provided
teams in Afghanistan and Iraq to interact with deployed         in a timely manner at the beginning of each fiscal year to
units to identify, equip, and evaluate their requirements and   promote cost efficiencies and process effectiveness, while
capability shortfalls. In FY 2010, the REF introduced over      ensuring the timely return of equipment to support training
845 different types of equipment, and provided more than        and future deployments.
45,709 individual equipment items to deployed Soldiers and
units in the past 12 months.
                                                                Drawdown in Iraq
The Army continues to invest in the ARNG and USAR
to enhance their mission capabilities and to ready forces       The drawdown in Iraq is the largest logistics operation since
entering the ARFORGEN cycle for deployment. The fleet           World War II. It is important to remember that we are still
age of trucks, combat vehicles, communications systems, and     engaged in Iraq and we do not want to take equipment
Soldier weapons continues to decline as new equipment is        that is essential for operations in Iraq until the operational
fielded to the RC. The ARNG and USAR forces preparing           commanders determine that the equipment is no longer
to deploy are fielded with the very best modernized             needed to complete their missions.
equipment, eliminating the disparity in modernization
between the AC and RC a critical goal in the effort to create   While simultaneously supporting the warfighter, the Army
strategic depth and operationalize the RC.                      is successfully executing coordinated and synchronized
                                                                plans and processes for the retrograde and redistribution of
                                                                equipment from Iraq under a responsible drawdown. All
Reset                                                           Phase IV-defined metrics for the responsible drawdown of
                                                                forces and equipment out of Iraq were achieved prior to the
Units returning from theater enter the Reset phase of           change of mission, on 31 August 2010, to Operation New
ARFORGEN which restores Soldiers, units, and equipment          Dawn.
for future deployments and other contingencies to the
   Some United States Forces-Iraq and Third Army/Army                  The following are key accomplishments during FY 2010:
   Central Command key accomplishments are as follows:
                                                                            (1)	 The GCSS rolled out release 1.1 at the National
        1.	 Closed/transferred 413 bases (from 505 to 92).                       Training Center in July 2010. Operational
                                                                                 assessment continues to assess maintenance, supply,
        2.	 Reduced boots on ground by over 60 percent,                          property book, finance, and material master
            achieving the 50,000 U.S. forces mandate (while                      data management and expanded hub services
            downsizing contractor support by over 24 percent).                   functionality.
        3.	 Retrograded over 1.1 million pieces of equipment                (2)	 LMP finished rolling out deployment 2 at
            out of Iraq to meet other theater and Army-wide                      the Aviation and the Missile Command and
            requirements.                                                        deployment 3 roll-out at Tank and Automotive
                                                                                 Command began in October 2010.
        4.	 Reduced the number of vehicles by over 25,000
            to 15,617, exceeding the 31 August 2010 goal of                 (3)	 The GCSS received Milestone B approval from
            16,500.                                                              the Under Secretary of Defense (Acquisition,
                                                                                 Technology and Logistics) and began developing
        5.	 Shipped out 41,000 supply containers.
                                                                                 maintenance, ammunition, and property-book
        6.	 Reduced the supply support activities footprint by                   functionality.
            68 percent, downsizing from 22 to 7.
                                                                            (4)	 Fielding of bridging systems to the ARNG was
   The Army continues to work with U.S. Forces-Iraq to                           almost 100 percent complete by the end of
   identify equipment for transfer that will enable the Iraqi                    FY 2010.
   Security Forces to reach minimum essential capabilities.
                                                                       The SALE initiatives provide a more effective support
   Such equipment includes wheeled and tracked vehicles,
                                                                       for Soldiers deployed overseas with the tactical Army,
   weapons, ammunition, and repair parts. These items will
                                                                       provide logistics management practices that are in line with
   be transferred to the Government of Iraq through various
                                                                       commercial best business practices, and enable the Army
   existing authorities.
                                                                       to efficiently and effectively manage its worldwide logistics
                                                                       system. The Army must continue to implement the SALE to
   Enhancing Logistics Readiness                                       improve logistics processes and tactical logistics operations as
                                                                       it continues to field the federated GCSS and General Fund
   Logistics information systems yield an unprecedented shared         Enterprise Business System (GFEBS) financial solutions for
   awareness of logistics processes, capabilities, requirements,       the Army.
   and resources. Decision support tools, empowered with
   the shared awareness, enable logistics leaders effectively          In FY 2010, more than 79,000 items were repaired at
   to plan, execute, control, and assess sustainment and               depot-level facilities. This includes, for example, more than
   warfighter functions across the Army. The Army continues            2,300 tracked vehicles (e.g., Abrams tanks, Bradleys, and
   to implement the Single Army Logistics Enterprise (SALE)            M88 recovery vehicles), more than 2,500 tactical-wheeled
   as the Army’s overarching logistics business and information        vehicles (e.g., high-mobility, multipurpose, wheeled vehicles
   technology framework providing Army-wide logistics                  (HMMWVs) and medium and heavy tactical vehicles),
   efficiency gains, interoperability, traceability, accountability,   and more than 15,700 individual and crew-served weapons
   and transparency. The Army continues a two-tiered strategy:         (e.g., rifles, pistols, and machine guns). Meanwhile,
   (1) continued support to current systems still in the field;        the Army’s Special Repair Teams brought additional
   and (2) implementation of enterprise resource planning              depot-level expertise out into the field, completing over
   solutions such as the Logistics Modernization Program               490,000 items including small arms, night vision devices,
   (LMP), the Global Combat Support System – Army                      and communications electronics, as well as chemical and
   (GCSS), and the Army Enterprise Systems Integration                 biological gear. Furthermore, our Aviation Special Technical
   Program (formerly Product Lifecycle Management Plus).               Inspection and Repair program restored more than 400 fixed
                                                                       and rotary wing aircraft to combat capability.


16	 Fiscal Year 2010 United States Army Annual Financial Report
                                                                                                                                                   17
 Table 10 - BCT Transformation Summary
                               FY 2007                               FY 2008                       FY 2009                        FY 2010




                                                                                                                                                   Army General Fund and Working Capital Fund
 AC Transformed                  35                                    38                            39                             42
 ARNG Transformed                  0                                     0                             7                            14
 Total Transformed               35                                    38                            46                             56

 AC Transforming                            4                             2                             3                             1
 ARNG Transforming                         26                            28                            21                            14
 Total Transforming                        30                            30                            24                            15

 Total Transformation                      65                            68                            70                            71
 NOTES: Transformed means the unit has completed its initial reorganization and re-equipping to a modular design within resource constraints, is
        participating in the ARFORGEN process, and may be used against a requirement. Transforming means the unit is still undergoing initial
        reorganization and re-equipping to a modular design within resource constraints. The last 2 Army brigades (numbers 72 and 73) do not
        begin transformation until FY 2012 and FY 2013, respectively, and are not counted in this table.



Transform                                                                          3.	 Redesign organizations to perform as integral
                                                                                       parts of the joint force, making them more
To transform, the Army must continuously improve its                                   effective across the range of military operations
ability to meet the combatant commanders’ needs in                                     and enhancing their ability to contribute to joint,
a changing twenty-first century security environment.                                  interagency, and multinational efforts.
Transformation is a holistic effort to adapt how we fight,
train, modernize, develop leaders, base our forces, and                       Of the 45 AC maneuver brigades programmed for the end
support our Soldiers, Families, and civilians. Transformation                 of FY 2010, the Army finished converting 42 brigades to
is a journey, not a destination.                                              the modular design and was in the process of converting
                                                                              one to a heavy BCT. The conversion process can take up to
                                                                              12 months for an AC-heavy BCT and infantry BCT, and as
Growing and Modularizing the Army                                             long as 24 months for a Stryker BCT.
Operating in an era of persistent conflict and the
                                                                              The ARNG began transforming in FY 2005 with an
requirement to maintain a forward presence created
                                                                              accelerated plan allowing early reorganization, manning, and
both the necessity and the opportunity to accelerate
                                                                              training under the new BCT designs. Transformation for
change from the current to the future force. The Army’s
                                                                              an ARNG BCT can take as long as 48 months. At the end
conversion to a modular force that is carefully balanced
                                                                              of FY 2010, the ARNG had fully converted 14 BCTs and
between the AC and RC is nearly complete. Modularity is
                                                                              was in the process of transforming an additional 14 BCTs.
intertwined throughout the force to the point that it is now
                                                                              The ARNG is scheduled to complete 10 of the transforming
indistinguishable as a separate effort. As a result, the Army is
                                                                              BCTs by the end of FY 2011.
more versatile, lethal, expeditionary, agile, and interoperable.

                                                                              The overall transformation plan is on track to achieve a
The Army modular force reorganizes the operational Army
                                                                              combined total of 73 BCTs: 45 in the AC and 28 in the
into Army Service Component Commands, theater support
                                                                              ARNG. Initial transformation covers training, manning, and
structures, corps and division headquarters, BCTs, and
                                                                              organization only; equipment transformation will occur over
multi-functional and functional support brigades, all based
                                                                              time. Table 10 provides a summary of BCT transformation.
on standardized organizational designs across the three
components. The intent of this transformation is to:
                                                                              Providing Advanced Technologies
     1.	 Increase the number of available BCTs to meet
         operational requirements.                                            Utilizing the 2010 Army Modernization Strategy as a
                                                                              baseline, the Army will provide relevant capabilities that are
     2.	 Create brigade-size combat support and                               required today and into the future. The Army intends to
         combat-service support formations of common                          deliver the right capabilities to Soldiers and units at the best
         organizational designs.                                              value given available resources. It includes the flexibility to
            A U.S. Army Major shakes hands
            with a Si Av village resident
            from the Bawka district in Farah
            province, Afghanistan. Photo by
            Rylan K. Albright




   “We’re ultimately working toward an agile, globally responsive
        Army that’s enhanced by modern networks, surveillance
       sensors, precision weapons and platforms that are lighter,
    less logistics-dependent and less manpower-intensive. It’s a
                                               truly 21st century force.”
                                                 General George Casey, Chief of Staff of the Army




   adapt to the rapidly-changing operational environment and               including LandWarNet (LWN) the Army’s portion of
   embraces both rapid and deliberative acquisition/equipping              the Global Information Grid. By 2017, using the Global
   as a means to ensure all relevant capabilities are delivered.           Network Enterprise Construct (GNEC), the Army will
   Key to this effort is validating requirements and disciplining          transform LWN to a centralized, more secure, operational,
   requirements growth, clearly defining capability gaps,                  and sustainable network capable of supporting an
   establishing a clear priority of needs, routinely reassessing           expeditionary Army in this era of persistent conflict. The
   the value of systems in development and in the field, and               GNEC is best described as the focused, time-phased,
   remaining flexible enough to take advantage of technological            resource-sensitive, Army-wide strategy to transition LWN
   advances and emerging needs.                                            from many loosely affiliated independent networks into a
                                                                           truly global capability that functions as a single integrated
                                                                           enterprise. In response to today’s operational complexity and
   LandWarNet Operational Capabilities                                     the growing demand by the Army and its partners to get the
                                                                           right information at the right place at the right time, GNEC
   To support an expeditionary Army, the Army is
                                                                           is concentrated on network access, utilization, security and
   fundamentally changing and adapting its institutions,
                                                                           control.


18	 Fiscal Year 2010 United States Army Annual Financial Report
Developing the Global Network Infrastructure                        Army stationing plan. This second project will also include      19
                                                                    constructing an additional siding to the access track to allow
The LWN transformation must be executed largely




                                                                                                                                     Army General Fund and Working Capital Fund
                                                                    direct railcar pickup by commercial trains as opposed to
within existing programmed resources; duplication and               taking the railcars to the nearest commercial interchange
inefficiencies must be eliminated. Over the past year, fidelity     yard at Kelker Junction. Construction will begin in
has been brought to the GNEC strategy with detailed plans           November 2010, with a scheduled completion of November
for adopting industry standards and protocols; pursing              2011.
data center consolidation; utilizing common operational
environments for different echelons to accelerate software          The next three (of the seven) projects improve out-loading at
application development; improving global network                   the seaport in Charleston Naval Weapons Station, the only
operations; continuing operational evaluations to define            military general cargo seaport in the southeast region. This
and refine the network doctrine, tactics, techniques, and           seaport has been very busy supporting current real-world
procedures; and standing up Army Forces Cyber Command               operations in the Middle East, for both deployment and
to oversee the operation and defense of Army networks.              redeployment. The first of these three out-loading projects
                                                                    upgrades paving, lighting, and fencing of the port, which
Recently, the focus has been on Army data centers and               improves security for equipment and personnel during
enterprise services. The Army Data Center Consolidation             deployment and also helps protect equipment from damage.
Plan (ADCCP) is a strategic implementation plan to                  The contract has been awarded and construction will begin
consolidate data centers and applications, provide enterprise       in January 2011, with completion in January 2012. The
hosting as a managed service, and improve the security of           second of these three projects upgrade rail capabilities
Army information assets. The ADCCP is a critical element            from 40 railcars per day to 60 railcars per day to meet rail
of the transformation of the Army’s network. Enterprise             requirements fully. Construction for this project begins
Services include enterprise service desk, enterprise e-mail,        around mid-October 2010, with a completion date of mid-
and enterprise Active Directory. All three are inextricably         December 2011. The third of these projects expands the
linked to GNEC success and will continue to evolve through          pier and hardstand to be able adequately to position larger
an iterative process and will require regular updates based on      roll-on/roll-off and container ships. The contract for this
changing circumstances.                                             project has been awarded with a start date of April 2011 and
                                                                    a completion date of April 2012.
Developing Force Generation Platforms in Support
                                                                    The sixth project constructs a consolidated multi-class
of Army Force Generation
                                                                    munitions handling, storage, and shipping facility at
Seven deployment infrastructure projects were executed or           McAlester Army Ammunition Plant (AAP). This project
initiated in FY 2010. These projects support the “Flagships         corrects ammunition shipping/receiving deficiencies to
of Readiness” concept.                                              provide more efficient and timely out-loading especially for
                                                                    small quantity shipments, which experienced a 50 percent
The first project, a rail line bypass project at Fort Riley, is a   increase at McAlester AAP in the past few years. This project
holdover from FY 2009 and provides a mainline bypass for            is scheduled to begin in December 2010, with a December
commercial trains so that recently increased commercial rail        2011 completion.
traffic does not interfere with rail operations at Fort Riley.
This project improves rail out-loading from 157 railcars per        The seventh project constructs an alert holding area and
day to potentially 316 railcars per day and was completed in        defense readiness reaction facility at Fort Bliss to enhance
July 2010.                                                          out-loading of equipment and Soldiers. Fort Bliss has
                                                                    experienced the most growth of any U.S. installation as
The second project, a rail head upgrade and expansion               outlined in the Grow the Army stationing plan. This project
project at Fort Carson, improves the out-loading of a               upgrades the out-loading of equipment and soldiers to
heavy BCT from the current 240 railcars per day to the              handle the growth and is funded through the Grow the
275 railcars per day requirement. This project will be              Army initiative. Construction is 15 percent complete, with a
done by constructing five additional spurs to handle the            scheduled completion by the end of July 2011.
growth at Fort Carson as documented in the Grow the
   Implementing Base Realignment and Closure /                       installations and 37 USAR centers, and disposed of
   Restationing Forces                                               19,047 excess acres from BRAC 2005 properties.

   The intent of BRAC 2005 was to support the Army’s                 The program is on track to meet the September 2011
   transformation by positioning assets to support our missions,     deadline. With over 200 construction projects still to
   Soldiers, civilians, reservists, and their Families better. The   be completed and over 400 unit/activity realignments
   BRAC 2005 also accommodates the rebasing of overseas              remaining, successful execution of BRAC 2005 remains an
   units within the Global Defense Posture Realignment Basing        Army leadership priority.
   Strategy, and divests an accumulation of installations that are
   either no longer relevant or are less effective in supporting
   a joint and expeditionary Army. In partnership with other         In-sourcing program
   Services, the Army is using BRAC 2005 to transform RC
   infrastructure to create more operational opportunities for       Contracted services comprise a growing proportion of the
   joint training and deployment. This transformation will           Army’s top line. There is a consensus at the strategic level
   create efficiencies in core Army business processes.              that the Army’s reliance on contractors is out-of-balance.
                                                                     Namely, there are concerns that we may have contracted
   Under BRAC 2005, the Army closes 13 AC installations,             inherently governmental functions and have eroded
   387 RC installations, and 8 leased facilities. Additionally,      organic intellectual capital required for proper oversight of
   BRAC 2005 realigns 53 installations and/or functions              contracted work.
   and enables the Army to establish multi-component
   headquarters, joint and Army training centers of excellence       In response to this challenge, the Army established
   (COEs), joint bases, joint power projection platforms, a          a contractor inventory review process to identify
   Human Resources COE, and joint technical and research             appropriate in-sourcing candidates that was endorsed
   facilities. To accommodate the relocating units from the          by the Congress and set the standard for other Defense
   closing RC installations, BRAC 2005 authorizes 125 new            Components to follow. To date, this process identified about
   multi-component armed forces reserve centers and realigns         41,000 positions with tasks closely associated with inherently
   the USAR command and control structure.                           governmental functions. The Army planned to in-source
                                                                     7,162 positions in FY 2010, and as of 30 September 2010
   This BRAC 2005 is more than three times larger than the           had filled 5,930 of those positions. It is expected that the
   four previous Army BRAC rounds combined. The Army                 remainder will be filled by the end of the calendar year.
   is in the fifth year of the six-year BRAC 2005 execution          The Army is programmed to in-source 11,084 positions
   window and continues aggressively to implement its                from FY 2011 through FY 2015. Most of these functions
   $18 billion portion (53 percent) of the overall DoD BRAC          are closely associated with inspector general functions and
   Program.                                                          3,988 are acquisition positions. This exceeds the Secretary of
                                                                     Defense goals for all years from FYs 2010-2015.
   The Army developed 102 business plans to define further
   the BRAC 2005 Commission recommendations, including               Implementing Business Transformation Initiatives
   more than 1,100 actions. These actions represent the
   requirements for achieving full implementation. A majority        The 2008 National Defense Authorization Act established
   of the BRAC 2005 actions are dependent on construction            the position of the Chief Management Officer and directed
   at gaining installations with 75 percent of the total resources   the Under Secretary of the Army as the primary manager
   dedicated to funding 330 major construction projects              of business operations within the Army. In this capacity,
   valued at $13.0 billion. In FY 2010, the Army awarded             the Chief Management Officer focuses on managing
   85 construction projects valued at $1.7 billion, adding to        and improving business processes. As mandated in the
   the 240 already awarded in FYs 2006-2009. The Army                2009 Duncan Hunter National Defense Authorization
   will award the last five BRAC 2005 construction projects          Act, the Secretary of the Army, acting through the Chief
   in FY 2011. To date, the Army has completed 113 of                Management Officer, is responsible for carrying out an
   these projects. The Army also completed 185 National              initiative for the business transformation of the Army. The
   Environmental Policy Act actions, closed 6 active                 objectives of the business transformation initiative are to
                                                                     develop a comprehensive business transformation plan to

20	 Fiscal Year 2010 United States Army Annual Financial Report
achieve an integrated management system for Army business       will enable the Army to move to a cost and performance         21
operations; develop business systems architecture and           culture. During FY 2010, the Army implemented GFEBS




                                                                                                                               Army General Fund and Working Capital Fund
transition plan encompassing end-to-end business processes;     functionality with users at Fort Bragg, North Carolina;
and implement the business transformation plan and              Fort Gordon and Fort McPherson, Georgia; Fort Knox and
business systems architecture and transition plan.              Fort Campbell, Kentucky; Fort Polk, Louisiana; Fort Rucker,
                                                                Alabama; Fort Drum, New York; and the ARNG,
To assist the Chief Management Officer in executing the         Kentucky. Additionally, GFEBS implemented headquarters
requirements of the 2009 National Defense Authorization         functionality with the Army Medical Command, Army
Act, the Secretary of the Army established the Office of        Network Enterprise Technology Command, National Guard
Business Transformation. The primary role of the Office of      Bureau, and the USAR. The GFEBS remains on schedule
Business Transformation is to engage and assist the Army        and on budget to be completed in FY 2012.
actively to achieving an integrated management system.
                                                                The Army continues to transform from a budget focus to a
The purpose of the integrated management system is to help      cost and performance culture, which requires that leaders
leadership make better resource-informed decisions resulting    understand the full cost of the capabilities they provide
in “Readiness at Best Value” rather than “Readiness at Any      and incorporate cost considerations in their planning and
Cost.” Much more than just measuring performance, the           decision making processes. This new approach enables the
system focuses the entire Army toward results.                  Army to achieve its readiness and performance objectives
                                                                more efficiently and effectively.
The Army chose Lean Six Sigma (LSS) as its continuous
process improvement (CPI) methodology. The Army                 To cultivate this cost culture, the Army is executing
selected LSS because its methodology is applicable to the       education and training programs for military and civilian
vast majority of Army process improvement opportunities.        personnel at all levels, supporting both resource management
The LSS process also provides a common business lexicon         and functional communities. The Army established the
that both increases the business acumen of the workforce        graduate-level Cost Management Certificate Course
and creates a common framework in which to discuss,             (CMCC) to educate and develop cost-savvy subject matter
report, and approach process improvement. Progress in           experts to serve as senior leader staff advisors. The Army
FY 2010 validated the Army’s approach to CPI. The Army          trained 137 students in the CMCC in FY 2010, achieving
now has trained over 7,800 military personnel (AC, RC           91 percent of its training goal. The Army also developed a
and Department of the Army civilians). Army organizations       four-hour cost-benefit analysis (CBA) training program of
within the Continental U.S. (FY 2010) and Third Army/           instruction in February 2010 to enable resource-informed
Army Central Command outside the Continental U.S.               decision making within HQDA. Over 1,000 individuals
(FYs 2009 and 2010) have completed process improvements         from HQDA completed the CBA training in FY 2010.
with a combined return on investment of $1.0 billion in cost    Additionally, the Army provided Cost Management
savings and $7.1 billion in cost avoidance.                     101 training, a program of instruction designed to educate
                                                                GFEBS sites on cost management principles in advance of
Additionally, the Army continues to develop and implement       system deployment, to over 1,500 individuals in FY 2010.
modern system solutions that improve the quality and
efficiency of various business processes including financial,
accounting, real property, and cost management across the       Conclusion
enterprise. The GFEBS is the centerpiece of this effort as      During the last 12 months, the Army has successfully
it transforms business processes to enable better-informed      transitioned from Operation Iraqi Freedom to Operation
decisions, better manage resources, and better support the      New Dawn, while completing one of the largest wartime
warfighter. This system integrates funding, real property       retrogrades in our nation’s history. At the same time, the
management, financial accounting, cost management and           Army surged troops into Afghanistan in support of a
related output, and performance data in an Enterprise           new direction in that vital theater. Meanwhile, the Army
Resource Planning system. The GFEBS is a web-based              has nearly completed transformation of the operational
system and provides real-time visibility of data for the        force from a division-centric to a brigade-centric one and
active Army, the ARNG, and the USAR. This solution              made significant progress in restoring balance. Despite
   these efforts, much remains to be done. An area ripe for         as the Army supports its global commitments and maintains
   opportunities to utilize precious taxpayer dollars responsibly   programs that improve the quality of life for our Soldiers
   can be found within the generating force. Efforts have begun     and their Families. The resources and support provided in
   to develop a system of plans to transform and improve            FY 2011 and beyond will determine whether the Army can
   business practices to establish a generating force that is       continue to accomplish its mission, maintain momentum of
   sufficiently agile to create and support Soldiers who can        the key programs, and prepare to succeed in whatever tasks
   operate with comfort and confidence in an environment of         the Army faces today and tomorrow.
   uncertainty. The Army has also begun a review and analysis
   of where its money goes and the value it gets in return.         Everything the Army does is directly tied to enabling
   This effort is critical given America’s difficult economic       Soldiers to continue to fight and win the nation’s wars.
   circumstances that will cause harsher scrutiny on military       We owe our Soldiers the very best, and the financial
   spending in the foreseeable future. To support these efforts,    management community remains dedicated to serving them
   the Army’s financial managers are balancing resources among      as they serve the nation.
   myriad competing, but critical, demands.

   The Army continues to implement its four imperatives to
   restore balance. As we reach a point by the end of 2011,
   when we will have a more sustainable deployment tempo for
   our forces, the Army faces a key challenge in maintaining
   its combat edge while reconstituting the force for other
   missions and dealing with the continuing impacts of war.
   Our focus will be building resilience in the force, refining
   our understanding of full-spectrum operations, reducing the
   backlog of PME programs, revitalizing home-station training
   programs, and undertaking some basic recovery after a
   decade of combat and transformation. The continuing
   challenge is to establish balance between current readiness
   and future investments, while keeping risk at moderate levels




           U.S. Army Soldiers gather around
           a fire to stay warm during an
           operation in Helmand province,
           Afghanistan. Photo by Efren
           Lopez




22	 Fiscal Year 2010 United States Army Annual Financial Report
Analysis of Financial Statements                                      must be supported by compliant business systems and an            23
                                                                      effective set of management controls.
and Stewardship Information




                                                                                                                                        Army General Fund and Working Capital Fund
As discussed in the accompanying independent auditor’s
report, longstanding financial management challenges                  Army General Fund Financial Results and
prevent the Army from producing auditable financial                   Balance Sheet
statements for the Army General Fund (GF) or the Army
Working Capital Fund (WCF). The Army, however,                        The Army GF balance sheet includes total assets that
continues to work with the DoD to develop sustainable                 exceed $379.3 billion. Two asset categories, Fund Balance
business practices and enhanced internal controls that will           with Treasury (FBWT) and General Property, Plant and
improve financial management processes and produce                    Equipment (PP&E), comprise 88 percent of total assets,
quality financial management information. These processes             with values of $166.9 billion and $165.0 billion, respectively.


                     Figure 3 - Composition of General Fund Assets and Liabilities
                                                                                          2%
                                    4%
                               9%
                                                                                                         26%



                                                       44%                 52%

                         44%
                                                                                                         20%




                            General Fund Assets                                General Fund Liabilities
                          General Property, Plant and Equipment             Other Liabilities
                          Fund Balance with Treasury                        Accounts Payable
                          Inventory                                         Environmental Liabilities
                          Remaining Assets                                  Remaining Liabilities


 Table 11 - Select General Fund Assets and Liabilities
 (Amounts in billions)
                                                                                                                   Percentage of
 Asset Type                                               FY 2010       FY 2009 Restated           Change         FY 2010 Assets
 Fund Balance with Treasury                                  $166.9             $163.4                   $3.5           44%
 General Property, Plant and Equipment                        165.0              128.9                   36.1           44%
 Inventory                                                     34.1               34.5                   (0.4)          9%
 Remaining Assets                                              13.3               12.0                    1.3           4%
 Total Assets                                                $379.3             $338.8                  $40.5          100%

                                                                                                                    Percentage
                                                                                                                    of FY 2010
 Liability Type                                           FY 2010       FY 2009 Restated           Change            Liabilities
 Environmental Liabilities                                    $33.4              $37.4                  ($4.0)          52%
 Accounts Payable                                              12.6               15.8                   (3.2)          20%
 Other Liabilities                                             16.5               15.5                    1.0           26%
 Remaining Liabilities                                          1.3                1.3                    0.0            2%
 Total Liabilities                                            $63.8              $70.0                  ($6.2)         100%
   Liabilities primarily consist of $33.4 billion in                    The Army WCF is required to maintain a positive cash
   Environmental Liabilities and $12.6 billion in Accounts              balance to prevent an Antideficiency Act violation under
   Payable.                                                             31 U.S.C. § 1517(a), Prohibited obligations and expenditures.
                                                                        Unlike appropriated funds, the Army WCF cash balance is
   The General PP&E account increased $36.1 billion due                 not equal to outstanding obligations; however, the cash-on-
   to additions of military equipment (e.g., MRAP, HMMV,                hand at Treasury must be sufficient to pay bills when due.
   Stryker vehicles).
                                                                        Sufficient cash levels should be maintained to support
                                                                        7 to 10 days of operational disbursements, plus adequate
   Army Working Capital Fund Financial                                  cash to meet 6 months of capital investment program
   Results                                                              disbursements, plus the amount of any positive accumulative
                                                                        operating results that is to be returned to customers.
   The Army WCF activities maintain the Army’s combat
   readiness by providing supplies, equipment, and ordnance
   necessary to prepare, sustain, and reset our forces in the most      The cash balance is primarily affected by cash generated
   efficient and cost-effective manner possible. In performing          from operations; however, the balance is also affected by
   this mission, WCF activities are obligated to control                appropriations, transfers, and withdrawals. Maintaining a
   and minimize costs. Financial performance is measured                proper cash balance depends on setting rates to recover full
   through cash management, net operating results (NOR),                costs—including prior year losses—accurately projecting
   and accumulated operating results (AOR). Operational                 work load and meeting established operational goals.
   performance is measured by carryover, stock availability, and
   production.                                                          The Army WCF ended FY 2010 with a cash balance of
                                                                        $1,808.1 million, $641.9 million above the 10-day cash
                                                                        level of $1,166.2 million. The Army WCF cash balance
   Cash Management                                                      will return to a balance closer to the 10-day level when
                                                                        operations in Afghanistan and Iraq decline, and payments
   The current balance of funds with the U.S. Treasury equals           associated with the delivery of replacement stocks and the
   the beginning of the fiscal year amount plus the cumulative          repairs of spares are higher than inventory sales.
   fiscal-year-to-date amounts of collections, appropriations
   and transfers-in, minus the cumulative fiscal-year-to-date           Table 12 shows an overall growth in cash primarily from
   amounts of disbursements, withdrawals and transfers-out.             operations offset by transfers out. The Army WCF received



    Table 12 - Army Working Capital Fund Cash
    Cash (Amounts in millions)                                    FY 2008                 FY 2009                   FY 2010
    Collections                                                   $16,352.9              $16,676.7                  $16,315.7
    Disbursements                                                  15,934.9               17,421.0                   15,626.9
       Net Outlay                                                    $418.0                ($744.3)                    $688.8
    Appropriations Received                                         1,324.4                  545.4                       50.0
    Transfers Out                                                   1,450.0                1,023.0                      280.0
       Net Cash Transactions                                         $292.4              ($1,221.9)                    $458.7
       Cash Balance                                                $2,571.4               $1,349.5                   $1,808.1
    Amounts may not sum due to rounding.


    Table 13 - Net and Accumulated Operating Results by Activity Group
    Operating Results (Amounts in millions)             FY 2008                           FY 2009                   FY 2010
    Industrial Operations NOR                            $158.8                            ($31.6)                    $57.3
    Industrial Operations AOR*                           $481.5                            $462.6                    $525.6

    Supply Management NOR                                          $411.0                  $516.5                   ($125.1)
    Supply Management AOR                                          ($56.4)                 $460.1                    $335.0

    * Includes prior-period AOR adjustments.



24	 Fiscal Year 2010 United States Army Annual Financial Report
                                                                                                                                        25
 Table 14 - Army Working Capital Fund Carryover
 (Amounts in millions)                                    FY 2008                        FY 2009                   FY 2010




                                                                                                                                        Army General Fund and Working Capital Fund
 New Orders                                               $6,990.6                       $6,393.1                  $6,196.5
 Allowable Carryover                                      $3,653.7                       $3,327.3                    Note 1
 Carryover                                                $2,862.1                       $3,146.0                    Note 1
 NOTE 1: Amounts not available at time of printing



direct appropriations for war reserve materiel, inventory            Carryover
augmentation, replacement of inventory combat losses,
and higher fuel costs. Transfers were made to several                Carryover is the dollar amount of orders accepted from
appropriations in support of urgent, unfunded combat                 customers that have not been completed by the end of a
requirements. At some point, part or all of the transfers will       fiscal year. It is a normal part of doing business; these orders
require repayment to ensure that the fund has sufficient cash        enable the industrial workforce to maintain continuity in
on hand.                                                             production operations. The Army expects the carryover for
                                                                     FY 2010 to be less than the maximum allowable amount.

Net Operating Results and Accumulated Operating
Results                                                              Stock Availability

The NOR represents the difference between revenues                   Stock availability measures the percentage of requisitions
and costs within a fiscal year. The AOR represents the               filled within established timeframes. The DoD and Army
aggregate of all recoverable net earnings, including prior-year      have set a target 85 percent stock availability. The Army
adjustments, since inception of the Army WCF. The goal               exceeded this goal in FY 2010 and has done so since
of the Army WCF is to establish rates that will bring the            FY 2008.
AOR to zero in the budget year. An activity group’s financial
performance is measured by comparing actual results to the
                                                                     Production
budget’s NOR and AOR.
                                                                     Although the industrial operations activity group is
                                                                     comprised of 13 activities, the preponderance of workload
                                                                     is performed at the 5 hard-iron maintenance depots. Major
                                                                     operations in Iraq and Afghanistan place tremendous
                                                                     demands on equipment. As a result of higher operating

     Figure 4 - Stock Availability (percentage)


90


88


86


84
                                                                                                       Stock Availability
82                                                                                                     Target

80         Q1         Q2          Q3          Q4     Q1       Q2         Q3         Q4         Q1        Q2         Q3         Q4


                       FY 2008                                   FY 2009                                  FY 2010
   tempo, rough desert environments, and limited depot                      The aircraft and radar increases shown in FY 2010 of
   maintenance available in theater, operational fleets age at a            Table 15 are due to increases in production requirements.
   far greater pace than expected. To counter this, the Army                Track shoe production levels increased from FY 2009 to
   established a reset program designed to reverse the effects of           FY 2010 due to increases in expected operational levels for
   combat stress on equipment and to prepare equipment for                  the M1 and Bradley fighting vehicles.
   future missions.

   The Army’s depots and their efforts to partner with industry             Army Working Capital Fund Balance Sheet
   are critical to the entire reset effort. These repair programs           The Army WCF balance sheet shows assets exceeding
   must continue through the end of the current conflict and                $26.4 billion, primarily in Inventory and Fund Balance with
   for at least three additional years to reconstitute equipment            Treasury. Liabilities consist of Accounts Payable and Other
   completely. Due to actions taken in support of wartime                   Liabilities, which include payroll benefits, accrued annual
   requirements, the industrial operations activity group                   leave, and workers’ compensation.
   dramatically increased depot production over pre-war levels,
   as illustrated below in Table 15.



    Table 15 - Annual Production Throughput1
                                         Pre-War                           FY 2008                      FY 2009                FY 2010
    Aircraft                                       4                                82                           70                   74
    Helicopter Engines                         <200                                781                          817                  468
    Bradleys                                     144                             1,038                        1,384                  758
    HMMWVs                                     <100                              9,471                        9,813                6,189
    Firefinder Radars                             <1                                50                           30                   61
    Track Shoes                              120,000                           250,660                      110,293              120,667

    NOTE 1: Throughput is the number of weapon systems completed for any given year.


                      Figure 5 - Army Working Capital Fund Assets and Liabilities

                                       4% 5%
                                                    7%                                       15%
                                                                                                                   31%




                                                                                             54%
                                       84%



                         Working Capital Fund Assets                             Working Capital Fund Liabilities
                            General Property, Plant and Equipment                      Other Liabilities
                            Fund Balance with Treasury                                 Accounts Payable
                            Inventory                                                  Military Retirement and Other Federal
                            Remaining Assets                                           Employee Benefits




26	 Fiscal Year 2010 United States Army Annual Financial Report
                                                                                                                                               27
    Table 16 - Army Working Capital Fund Assets and Liabilities
    (Amounts in millions)




                                                                                                                                               Army General Fund and Working Capital Fund
                                                                                                                          Percentage of
    Asset Type                                                FY 2010            FY 2009               Change            FY 2010 Assets
    Inventory                                                 $22,309.8          $23,164.3               ($854.5)             84%
    Fund Balance with Treasury                                  1,808.0            1,349.5                 458.5               7%
    General Property, Plant and Equipment                       1,397.8            1,260.2                 137.6               5%
    Remaining Assets                                              981.3            1,278.1                (296.7)              4%
    Total Assets                                              $26,496.9          $27,052.2               ($555.2)             100%

                                                                                                                           Percentage
                                                                                                                           of FY 2010
    Liability Type                                            FY 2010            FY 2009               Change               Liabilities
    Accounts Payable                                              $762.2           $1,690.9              ($928.6)              54%
    Other Liabilities                                              440.5              422.1                 18.4               31%
    Military Retirement and Other Federal
    Employee Benefits                                              219.9              231.2                 11.2              15%
    Total Liabilities                                           $1,422.6           $2,344.2              ($921.5)             100%
    Amounts may not sum due to rounding.




Required Supplementary                                                     construction of an ARNG facility on state land. Since the
                                                                           facility is constructed on state land, it is the property of
Stewardship Information and                                                the state; therefore, the Army cannot report it as an asset.
Required Supplementary                                                     However, since the funds were used to acquire a mission-
Information                                                                related state facility, the outlay is tracked as an investment in
Stewardship information relates to expenditures involving                  nonfederal physical property.
a substantial investment by the Army for the benefit of
the nation. When made, these expenditures are treated as                   Investments in R&D are based on R&D outlays
expenses in the financial statements. Since these expenses are             (expenditures). Outlays are used because current Army
intended to provide long-term benefits to the public, they                 accounting systems are unable to capture and summarize
are reported as supplemental information in the financial                  costs in accordance with federal accounting standards. The
statements.1 There are four areas on which the Army reports                R&D programs are classified as basic research, applied
stewardship information: (1) nonfederal physical property;                 research, and development.
(2) investments in research and development (R&D);
(3) deferred maintenance; and (4) heritage assets and                      Stewardship information is also comprised of real property
stewardship land.                                                          and military equipment deferred maintenance. Real property
                                                                           deferred maintenance relates to maintenance needed on
Investment in nonfederal physical property is an expense                   Army facilities that has not been funded. At the end of
incurred by the Army for the purchase, construction, or                    FY 2010, the Army reported approximately $39.0 million
major renovation of physical property owned by state and                   in deferred real property maintenance on facilities with
local governments. An example of this type of investment                   a replacement value of approximately $260.0 billion.
is funding provided to the ARNG for assistance in the                      Real property deferred maintenance totals approximately
                                                                           16 percent of estimated replacement value of the facilities
                                                                           requiring maintenance. The nine major categories of military
                                                                           equipment deferred maintenance totaled approximately
                                                                           $2.4 billion at the end of FY 2010. Electronic and
                                                                           communication systems equipment represented the
                                                                           largest category of deferred equipment maintenance at
1
      Federal Accounting Standards Advisory Board. Statement of            approximately $825.0 million.
      Federal Financial Accounting Concepts and Standards (June 30,
      2008). Statement of Federal Financial Accounting Standards 8:
      Supplementary Stewardship Reporting, page 740. Found at http://
      www.fasab.gov/pdffiles/codification_report2008.pdf on October 27,
      2010.
   Heritage assets are comprised of PP&E of historical, natural,
   cultural, educational, or artistic significance. Stewardship
   land is land other than that acquired for, or in connection
   with, general PP&E. The Army’s heritage assets are
   comprised of buildings and structures, archeological sites,
   museums, and museum collection items.

   Detailed information concerning most stewardship
   information may be found in the Required Supplementary
   Stewardship Information and the Required Supplementary
   Information (RSI) Sections of this report. Heritage assets
   and stewardship land are no longer reported in the RSI; they
   are now required to be reported in a note to the statements.2
   Additional information on heritage assets and stewardship
   land may be found in Note 10 of the Army GF statements.




   2
         ibid. Statement of Federal Financial Accounting Standards 29:
         Heritage Assets and StewardshipLand, pages 9 and 13 and
         Technical Release 9: Implementation Guide for Statement of Federal
         Financial Accounting Standards 29: Heritage Assets and Stewardship
         Land, page 46. SFFAS 29 found at http://www.fasab.gov/pdffiles/
         sffas_29.pdf on October 27, 2010. Technical Release 9 found at http/
         fasab.gov/aapc/technicl.html on October 27, 2010.




28	 Fiscal Year 2010 United States Army Annual Financial Report
                                                                                                                                     29




                                                                                                                                     Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
                                                                                           Army General Fund Principal
                                                                                           Financial Statements, Notes,
                                                                                           Supplementary Information, and
                                                                                           Auditor’s Report




Limitations
Limitations of the Financial Statements
The financial statements have been prepared to report the financial position and results of operations for the entity, pursuant to
the requirements of Title 31, United States Code, section 3515(b).

While the statements have been prepared from the books and records of the entity, in accordance with the formats prescribed
by the Office of Management and Budget, the statements are in addition to the financial reports used to monitor and control
budgetary resources which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the United States Government, a sovereign
entity.
    Department of Defense - Army General Fund

    CONSOLIDATED BALANCE SHEET
                                                                                                          Restated
    As of September 30, 2010 and 2009 (Amounts in thousands)                     2010 Consolidated    2009 Consolidated
    ASSETS (Note 2)
       Intragovernmental:
            Fund Balance with Treasury (Note 3)                                  $      166,987,504   $      163,425,416
            Investments (Note 4)                                                              3,218                3,241
            Accounts Receivable (Note 5)                                                  1,006,385              530,847
            Other Assets (Note 6)                                                         1,033,623            1,401,723
            Total Intragovernmental Assets                                       $      169,030,730   $      165,361,227

       Cash and Other Monetary Assets (Note 7)                                            1,776,209            1,965,004
       Accounts Receivable, Net (Note 5)                                                    819,603              635,969
       Loans Receivable (Note 8)                                                                  0                   93
       Inventory and Related Property, Net (Note 9)                                      34,113,653           34,497,598
       General Property, Plant and Equipment, Net (Note 10)                             165,019,692          128,946,696
       Other Assets (Note 6)                                                              8,570,058            7,439,337
    TOTAL ASSETS                                                                 $      379,329,945   $      338,845,924

    LIABILITIES (Note 11)
        Intragovernmental:
             Accounts Payable (Note 12)                                          $        1,890,428   $        1,717,108
             Debt (Note 13)                                                                       1                1,060
             Other Liabilities (Note 15 & 16)                                             2,924,663            2,988,874
             Total Intragovernmental Liabilities                                 $        4,815,092   $        4,707,042

       Accounts Payable (Note 12)                                                        10,753,970           14,107,839
       Military Retirement and Other Federal Employment Benefits (Note 17)                1,350,559            1,325,170
       Environmental and Disposal Liabilities (Note 14)                                  33,352,731           37,374,583
       Loan Guarantee Liability (Note 8)                                                      3,640                2,436
       Other Liabilities (Note 15 and Note 16)                                           13,532,369           12,548,364
    TOTAL LIABILITIES                                                            $       63,808,361   $       70,065,434

    COMMITMENTS AND CONTINGENCIES (NOTE 16)
    NET POSITION
        Unexpended Appropriations - Other Funds                                  $      158,281,584   $      150,169,657
        Cumulative Results of Operations - Earmarked Funds                                   58,686               58,132
        Cumulative Results of Operations - Other Funds                                  157,181,314          118,552,701
    TOTAL NET POSITION                                                           $      315,521,584   $      268,780,490

    TOTAL LIABILITIES AND NET POSITION                                           $      379,329,945   $      338,845,924


    The accompanying notes are an integral part of these financial statements.




30	 Fiscal Year 2010 United States Army Annual Financial Report
Department of Defense - Army General Fund                                                                              31

CONSOLIDATED STATEMENT OF NET COST




                                                                                                                       Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
                                                                                                      Restated
As of September 30, 2010 and 2009 (Amounts in thousands)                     2010 Consolidated    2009 Consolidated
Program Costs
Gross Costs                                                                  $     209,719,324    $     217,960,813
(Less: Earned Revenue)                                                             (11,960,786)         (12,397,729)
Net Program Costs                                                            $     197,758,538    $     205,563,084
Net Cost of Operations                                                       $     197,758,538    $     205,563,084

The accompanying notes are an integral part of these financial statements.
    Department of Defense - Army General Fund

    CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                                                                 2010                     2010
    As of September 30, 2010 (Amounts in thousands)                         Earmarked Funds         All Other Funds     2010 Eliminations
    CUMULATIVE RESULTS OF OPERATIONS

    Beginning Balances                                                     $          57,671    $        118,171,296    $                   0
    Prior Period Adjustments
         Correction of errors                                                            461                 381,405
    Beginning balances, as adjusted                                        $          58,132    $        118,552,701    $                   0
    Budgetary Financing Sources:
         Appropriations used                                               $               0    $        229,297,580    $                   0
         Nonexchange revenue                                                           4,362                       0                        0
         Donations and forfeitures of cash and cash equivalents                        8,190                       0                        0
         Transfers-in/out without reimbursement                                            0                 280,280                        0
         Other budgetary financing sources                                                 0                (323,902)                       0
    Other Financing Sources:
         Donations and forfeitures of property                                             0                       0                        0
         Transfers-in/out without reimbursement (+/-)                                      0               2,292,891                        0
         Imputed financing from costs absorbed by others                                   0               1,240,470                        0
         Other (+/-)                                                                    (606)              3,588,440                        0
    Total Financing Sources                                                $          11,946    $        236,375,759    $                   0
    Net Cost of Operations (+/-)                                                      11,392             197,747,146                        0
    Net Change                                                             $             554    $         38,628,613    $                   0
    Cumulative Results of Operations                                       $          58,686    $        157,181,314    $                   0

    UNEXPENDED APPROPRIATIONS
    Beginning Balances                                                     $               0    $        150,540,142    $                   0
    Prior Period Adjustments
         Corrections of errors                                                             0                (370,485)                       0
    Beginning balances, as adjusted                                        $               0    $        150,169,657    $                   0
    Budgetary Financing Sources:
         Appropriations received                                           $               0    $        231,889,806    $                   0
         Appropriations transferred-in/out                                                 0               9,227,449                        0
         Other adjustments (rescissions, etc)                                              0              (3,707,748)                       0
         Appropriations used                                                               0            (229,297,580)                       0
    Total Budgetary Financing Sources                                      $               0    $          8,111,927    $                   0
    Unexpended Appropriations                                                              0             158,281,584                        0
    Net Position                                                           $          58,686    $        315,462,898    $                   0


    The accompanying notes are an integral part of these financial statements.




32	 Fiscal Year 2010 United States Army Annual Financial Report
Department of Defense - Army General Fund                                                                                                           33

CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION




                                                                                                                                                    Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
                                                             2009 Earmarked           2009 Restated              2009           Restated 2009
As of September 30, 2009 (Amounts in thousands)                  Funds               All Other Funds         Eliminations       Consolidated
CUMULATIVE RESULTS OF OPERATIONS

Beginning Balances                                           $          52,946       $    98,560,990     $                  0   $    98,613,936
Prior Period Adjustments
     Correction of errors                                                  461               381,405                        0           381,866
Beginning balances, as adjusted                              $          53,407       $    98,942,395     $                  0   $    98,995,802
Budgetary Financing Sources:
     Appropriations used                                     $               0       $   228,796,596     $                  0   $   228,796,596
     Nonexchange revenue                                                12,308                     0                        0            12,308
     Donations and forfeitures of cash and cash
     equivalents                                                             6,426                  0                       0              6,426
     Transfers-in/out without reimbursement                                      0          1,023,000                       0          1,023,000
     Other budgetary financing sources                                           0                  0                       0                  0
Other Financing Sources:
     Donations and forfeitures of property                                      0                   0                       0                  0
     Transfers-in/out without reimbursement (+/-)                               0          (2,462,951)                      0         (2,462,951)
     Imputed financing from costs absorbed by
     others                                                                  0             1,067,410                        0         1,067,410
     Other (+/-)                                                        (1,114)           (3,263,560)                       0        (3,264,674)
Total Financing Sources                                      $          17,620       $   225,160,495     $                  0   $   225,178,115
Net Cost of Operations (+/-)                                            12,895           205,550,189                        0       205,563,084
Net Change                                                   $           4,725       $    19,610,306     $                  0   $    19,615,031
Cumulative Results of Operations                             $          58,132       $   118,552,701     $                  0   $   118,610,833

UNEXPENDED APPROPRIATIONS
Beginning Balances                                           $                  0    $   153,860,352     $                  0   $   153,860,352
Prior Period Adjustments
     Corrections of errors                                                      0         (2,258,668)                       0        (2,258,668)
Beginning balances, as adjusted                              $                  0    $   151,601,684     $                  0   $   151,601,684
Budgetary Financing Sources:
     Appropriations received                                 $                  0    $   228,203,093     $                  0   $   228,203,093
     Appropriations transferred-in/out                                          0          4,052,068                        0         4,052,068
     Other adjustments (rescissions, etc)                                       0         (4,890,592)                       0        (4,890,592)

     Appropriations used                                                     0           (228,796,596)                      0       (228,796,596)
Total Budgetary Financing Sources                            $               0       $     (1,432,027)   $                  0   $     (1,432,027)
Unexpended Appropriations                                                    0            150,169,657                       0        150,169,657
Net Position                                                 $          58,132       $    268,722,358    $                  0   $    268,780,490

The accompanying notes are an integral part of these financial statements.
    Department of Defense - Army General Fund

    COMBINED STATEMENT OF BUDGETARY RESOURCES
                                                                           Budgetary Financing Accounts       Non-Budgetary Financing Accounts
                                                                                             Restated 2009                       Restated 2009
    As of September 30, 2010 and 2009 (Amounts in thousands)            2010 Combined          Combined       2010 Combined        Combined
    BUDGETARY FINANCING ACCOUNTS
    BUDGETARY RESOURCES
    Unobligated balance, brought forward, October 1                 $       42,835,509    $     39,265,028    $         290     $         318
    Recoveries of prior year unpaid obligations                             22,661,187          24,785,208                0                 0
    Budget authority
        Appropriation                                                      231,902,473         228,221,133                 0                0
        Borrowing authority                                                          0                   0                 1              193
        Spending authority from offsetting collections
             Earned
                Collected                                                   26,540,103          25,547,587            4,547                18
                Change in receivables from Federal
                sources                                                       (640,368)            834,711                 0                 0
             Change in unfilled customer orders
                Advance received                                                46,537             170,061                 0                0
                Without advance from Federal sources                         2,612,167             194,781                 0                0
        Subtotal                                                    $      260,460,912    $    254,968,273    $        4,548    $         211
    Nonexpenditure transfers, net, anticipated and actual           $        9,507,729    $      5,075,068    $            0    $           0
    Permanently not available                                               (3,707,748)         (4,890,592)           (1,060)               0
    Total Budgetary Resources                                       $      331,757,589    $    319,202,985    $        3,778    $         529

    Status of Budgetary Resources:
    Obligations incurred:
         Direct                                                     $      253,349,257    $    246,900,034    $         137     $         239
         Reimbursable                                                       30,097,522          29,466,855                0                 0
         Subtotal                                                   $      283,446,779    $    276,366,889    $         137     $         239
    Unobligated balance:
         Apportioned                                                $       42,153,378    $     38,032,024    $       3,510     $         290
         Exempt from apportionment                                              54,633              54,677                0                 0
         Subtotal                                                   $       42,208,011    $     38,086,701    $       3,510     $         290
    Unobligated balance not available                                        6,102,799           4,749,395              131                 0
    Total status of budgetary resources                             $      331,757,589    $    319,202,985    $       3,778     $         529

    Change in Obligated Balance:
    Obligated balance, net
         Unpaid obligations, brought forward, October 1             $      143,712,640    $    144,392,278    $            0    $            0
         Less: Uncollected customer payments from
         Federal sources, brought forward, October 1                       (23,600,975)        (22,571,944)               0                  0
         Total unpaid obligated balance                             $      120,111,665    $    121,820,334    $           0     $            0
    Obligations incurred net (+/-)                                         283,446,779         276,366,889              137                239
    Less: Gross outlays                                                   (260,577,017)       (252,261,322)            (137)              (239)
    Less: Recoveries of prior year unpaid obligations,
    actual                                                                 (22,661,187)        (24,785,208)                0                 0
    Change in uncollected customer payments from
    Federal sources (+/-)                                                   (1,971,798)         (1,029,492)                0                 0
    Obligated balance, net, end of period
         Unpaid obligations                                         $      143,921,215    $    143,712,637    $            0    $            0
         Less: Uncollected customer payments from
         Federal sources (-)                                               (25,572,773)        (23,601,436)                0                 0
         Total, unpaid obligated balance, net, end of
         period                                                     $      118,348,442    $    120,111,201    $            0    $            0

    Net Outlays:
         Gross outlays                                              $      260,577,017    $    252,261,322    $          137    $         239
         Less: Offsetting collections                                      (26,586,641)        (25,717,648)           (4,547)             (18)
         Less: Distributed Offsetting receipts                                (142,173)           (416,926)                0                0
         Net Outlays                                                $      233,848,203    $    226,126,748    $       (4,410)   $         221

    The accompanying notes are an integral part of these financial statements.


34	 Fiscal Year 2010 United States Army Annual Financial Report
Note 1. Significant Accounting Policies                                                                                              35




                                                                                                                                     Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
1.A. Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the Army General
Fund (GF), as required by the Chief Financial Officers Act of 1990, expanded by the Government Management Reform
Act of 1994, and other appropriate legislation. The financial statements have been prepared from the books and records
of the Army GF in accordance with, and to the extent possible, U.S. generally accepted accounting principles (USGAAP)
promulgated by the Federal Accounting Standards Advisory Board; the Office of Management and Budget (OMB) Circular
No. A-136, Financial Reporting Requirements; and the Department of Defense (DoD) Financial Management Regulation. The
accompanying financial statements account for all resources for which the Army GF is responsible unless otherwise noted.

Information relative to classified assets, programs, and operations is excluded from the statements or otherwise aggregated and
reported in such a manner that it is not discernable.

The Army GF is unable to fully implement all elements of USGAAP and the OMB Circular No. A-136 due to limitations
of financial and nonfinancial management processes and systems that support the financial statements. The Army GF derives
reported values and information for major asset and liability categories largely from nonfinancial systems, such as inventory
and logistic systems. These systems were designed to support reporting requirements for maintaining accountability over assets
and reporting the status of federal appropriations rather than preparing financial statements in accordance with USGAAP. The
Army GF continues to implement process and system improvements addressing these limitations.

The Army GF currently has 14 auditor-identified financial statement material weaknesses: (1) Financial management systems;
(2) Accounting adjustments; (3) Abnormal account balances; (4) Intragovernmental transactions and eliminations; (5) Fund
Balance with Treasury; (6) Accounts Receivable; (7) Inventory and Related Property, including government-furnished
materiel and contractor-acquired materiel; (8) General Property, Plant, and Equipment (PP&E); (9) Accounts Payable;
(10) Environmental Liabilities; (11) Statement of Net Cost; (12) Reconciliation of Net Cost of Operations to Budget;
(13) Statement of Budgetary Resources; and (14) Contingency payment audit trails.


1.B. Mission of the Reporting Entity
The Army mission is to support the national security and defense strategies by providing well-trained, well-led, and well-
equipped forces to the combatant commanders. This mission encompasses the intent of the Congress, as defined in Title 10
of the United States Code (U.S.C.), to preserve the peace and security and provide for the defense of the U.S., its territories,
commonwealths, and possessions, and any areas occupied by the U.S.; support national policies; implement national
objectives; and overcome any nations responsible for aggressive acts that imperil the peace and security of the U.S.

This mission has been unchanged for the 235-year life of the Army, but the environment and nature of conflict have
undergone many changes over that same time, especially with the overseas contingency operations. These contingency
operations have required that the Army simultaneously transform the way that it fights, trains, and equips its soldiers. This
transformation is progressing rapidly, but it must be taken to its full conclusion if the Army is to continue to meet the nation’s
domestic and international security obligations today and into the future.


1.C. Appropriations and Funds
The Army GF receives appropriations and funds as general, trust, special, and deposit funds. The Army GF uses these
appropriations and funds to execute its missions and subsequently report on resource usage.
   The GFs are used for financial transactions funded by congressional appropriations, including personnel, operation and
   maintenance, research and development, procurement, and military construction.

   These GFs also include supplemental funds enacted by the American Recovery and Reinvestment Act (Recovery Act) of 2009.
   Details relating to Recovery Act appropriated funds are available on-line at http://www.defenselink.mil/recovery.

   Trust funds contain receipts and expenditures of funds held in trust by the government for use in carrying out specific
   purposes or programs in accordance with the terms of the donor, trust agreement, or statute. Special fund accounts are used
   to record government receipts reserved for a specific purpose. Certain trust and special funds may be designated as earmarked
   funds. Earmarked funds are financed by specifically identified revenues; required by statute to be used for designated activities,
   benefits or purposes; and remain available over time. The Army GF is required to separately account for and report on the
   receipt, use and retention of revenues and other financing sources for earmarked funds.

   Special fund accounts are used to record government receipts reserved for a specific purpose.

   Deposit funds are used to record amounts held temporarily until paid to the appropriate government or public entity. They are
   not funds of the Army GF and, as such, are not available for the Army GF’s operations. The Army GF is acting as an agent or a
   custodian for funds awaiting distribution.

   The Army GF is a party to allocation transfers with other federal agencies as a transferring (parent) entity or receiving (child)
   entity. An allocation transfer is an entity’s legal delegation of authority to obligate budget authority and outlay funds on its
   behalf. Generally, all financial activity related to allocation transfers (e.g., budget authority, obligations, outlays) is reported
   in the financial statements of the parent entity. Exceptions to this general rule apply to specific funds for which OMB has
   directed that all activity be reported in the financial statements of the child entity. These exceptions include U.S. Treasury-
   Managed Trust Funds, Executive Office of the President (EOP), and all other funds specifically designated by OMB.

   The Army GF receives allocation transfers for the following agencies: Federal Highway Administration and the U.S. Forestry
   Service.

   Additionally, the Army GF receives allocation transfers from certain funds meeting the OMB exception and all related activity
   is included in the Army GF’s financial statements, e.g., the EOP.

   The Army GF receives allocation transfers for the Foreign Military Sales (FMS) trust fund which meets the OMB exception;
   however, activities for this fund are reported separately from the DoD financial statements. All activities meeting the OMB
   exception related to the FMS trust fund are reported in the Army GF financial statements.

   As a parent, the Army GF allocates funds to the Department of Agriculture and the Department of Transportation for the
   active Army and Army National Guard.


   1.D. Basis of Accounting
   The Army GF’s financial management systems are unable to meet all full accrual accounting requirements. Many of the
   Army GF’s financial and nonfinancial feeder systems and processes were designed and implemented prior to the issuance of
   USGAAP. These systems were not designed to collect and record financial information on the full accrual accounting basis as
   required by USGAAP. Most of the Army GF’s financial and nonfinancial legacy systems were designed to record information
   on a budgetary basis.

   The Army GF’s financial statements and supporting trial balances are compiled from the underlying financial data and
   trial balances of the Army GF sub-entities. The underlying data is largely derived from budgetary transactions (obligations,

36	 Fiscal Year 2010 United States Army Annual Financial Report
disbursements, and collections), from nonfinancial feeder systems, and accruals made for major items such as payroll expenses,     37
accounts payable, and environmental liabilities. Some of the sub-entity level trial balances may reflect known abnormal




                                                                                                                                   Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
balances resulting largely from business and system processes. At the consolidated Army GF level, these abnormal balances
may not be evident. Disclosures of abnormal balances are made in the applicable footnotes, but only to the extent that the
abnormal balances are evident at the consolidated level.

The DoD is determining the actions required to bring its financial and nonfinancial feeder systems and processes into
compliance with USGAAP. One such action is the current revision of accounting systems to record transactions based on the
United States Standard General Ledger. Until all of the Army GF’s financial and nonfinancial feeder systems and processes are
updated to collect and report financial information as required by USGAAP, the Army GF’s financial data will be derived from
budgetary transactions, data from nonfinancial feeder systems, and accruals.


1.E. Revenues and Other Financing Sources
The Army GF receives congressional appropriations as financing sources for GFs that expire annually, on a multi-year basis,
or do not expire. When authorized by legislation, these appropriations are supplemented by revenues generated by sales of
goods or services. The Army GF recognizes revenue as a result of costs incurred for goods and services provided to other federal
agencies and the public. Full-cost pricing is the Army GF’s standard policy for services provided as required by OMB Circular
A-25, User Charges. The Army GF recognizes revenue, when earned, within the constraints of its current system capabilities. In
some instances, revenue is recognized when bills are issued.

The Army GF does not include nonmonetary support provided by U.S. allies for common defense and mutual security in
amounts reported in the Statement of Net Cost and Note 21, Reconciliation of Net Cost of Operations to Budget. The U.S. has
cost-sharing agreements with countries having a mutual or reciprocal defense agreement, where U.S. troops are stationed, or
where the U.S. Fleet is in a port.


1.F. Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period incurred. Current
financial and nonfinancial feeder systems were not designed to collect and record financial information on the full accrual
accounting basis. Estimates are made for major items such as payroll expenses, accounts payable, environmental liabilities, and
unbilled revenue. In the case of operating materiel and supplies (OM&S), operating expenses are generally recognized when
the items are purchased. Efforts are underway to transition to the consumption method for recognizing OM&S expenses.
Under the consumption method, OM&S would be expensed when consumed. Due to system limitations, in some instances
expenditures for capital and other long-term assets may be recognized as operating expenses. The Army GF continues to
implement process and system improvements to address these limitations.


1.G. Accounting for Intragovernmental Activities
Accounting standards require an entity to eliminate intraentity activity and balances from consolidated financial statements in
order to prevent an overstatement for business with itself. However, the Army GF cannot accurately identify intragovernmental
transactions by customer because the Army GF’s systems do not track buyer and seller data at the transaction level. Generally,
seller entities within the DoD provide summary seller-side balances for revenue, accounts receivable, and unearned revenue to
the buyer-side internal DoD accounting offices. In most cases, the buyer-side records are adjusted to agree with DoD seller-
side balances and are then eliminated. The DoD is implementing replacement systems and a standard financial information
structure that will incorporate the necessary elements that will enable DoD to correctly report, reconcile, and eliminate
intragovernmental balances.
   The “U.S. Treasury’s Federal Intragovernmental Transactions Accounting Policy Guide” and Treasury Financial Manual,
   Part 2 – Chapter 4700, “Agency Reporting Requirements for the Financial Report of the United States Government,”
   provide guidance for reporting and reconciling intragovernmental balances. While the Army GF is unable to fully reconcile
   intragovernmental transactions with all federal agencies, the Army GF is able to reconcile balances pertaining to investments
   in federal securities, Federal Employees’ Compensation Act transactions with the Department of Labor, and benefit program
   transactions with the Office of Personnel Management.

   The DoD’s proportionate share of public debt and related expenses of the federal government is not included. The federal
   government does not apportion debt and its related costs to federal agencies. The DoD’s financial statements do not report any
   public debt, interest or source of public financing, whether from issuance of debt or tax revenues.

   Generally, financing for the construction of DoD facilities is obtained through appropriations. To the extent this financing
   ultimately may have been obtained through the issuance of public debt, interest costs have not been capitalized since the U.S.
   Treasury does not allocate such costs to DoD.


   1.H. Transactions with Foreign Governments and International Organizations
   Each year, the Army GF sells defense articles and services to foreign governments and international organizations under the
   provisions of the Arms Export Control Act of 1976. Under the provisions of the Act, DoD has authority to sell defense articles
   and services to foreign countries and international organizations generally at no profit or loss to the federal government.
   Payment in U.S. dollars is required in advance.


   1.I. Funds with the U.S. Treasury
   The Army GF’s monetary resources are maintained in U.S. Treasury accounts. The disbursing offices of the Defense Finance
   and Accounting Service (DFAS), Military Departments, U.S. Army Corps of Engineers (USACE), and Department of State’s
   financial service centers process the majority of the Army GF’s cash collections, disbursements, and adjustments worldwide.
   Each disbursing station prepares monthly reports to the U.S. Treasury on checks issued, electronic fund transfers, interagency
   transfers, and deposits.

   In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by appropriation on interagency
   transfers, collections received, and disbursements issued. The U.S. Treasury records these transactions to the applicable Fund
   Balance with Treasury (FBWT) account. On a monthly basis, the Army GF’s FBWT is adjusted to agree with the U.S.
   Treasury accounts.


   1.J. Foreign Currency
   Cash is the total of cash resources under the control of DoD, which includes coin, paper currency, negotiable instruments, and
   amounts held for deposit in banks and other financial institutions. Foreign currency consists of the total U.S. dollar equivalent
   of both purchased and nonpurchased foreign currencies held in foreign currency fund accounts. Foreign currency is valued
   using the U.S. Treasury prevailing rate of exchange.

   The majority of cash and all foreign currency is classified as “nonentity” and is restricted. Amounts reported consist
   primarily of cash and foreign currency held by disbursing officers to carry out their paying, collecting, and foreign currency
   accommodation exchange missions.

   The Army GF conducts a significant portion of operations overseas. The Congress established a special account to handle the
   gains and losses from foreign currency transactions for five GF appropriations: (1) operation and maintenance; (2) military


38	 Fiscal Year 2010 United States Army Annual Financial Report
personnel; (3) military construction; (4) family housing operation and maintenance; and (5) family housing construction.         39
The gains and losses are calculated as the variance between the exchange rate current at the date of payment and a budget




                                                                                                                                 Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
rate established at the beginning of each fiscal year. Foreign currency fluctuations related to other appropriations require
adjustments to the original obligation amount at the time of payment. The Army GF does not separately identify currency
fluctuation transactions.


1.K. Accounts Receivable
Accounts receivable from other federal entities or the public include accounts receivable, claims receivable, and refunds
receivable. Allowances for uncollectible accounts due from the public are based on the estimate of uncollectible accounts
receivable from the public on a percentage of aged receivables by category. The allowance is calculated by using 50 percent
of aged receivables in the 181-day to 2-year category and 100 percent of aged receivables in the greater than 2-year category.
The DoD does not recognize an allowance for estimated uncollectible amounts from other federal agencies. Claims against
other federal agencies are to be resolved between the agencies in accordance with dispute resolution procedures defined in the
Intragovernmental Business Rules published in the Treasury Financial Manual at http://www.fms.treas.gov/tfm/vol/07-03.pdf.


1.L. Direct Loans and Loan Guarantees
The Army GF operates the Armament Retooling and Manufacturing Support Initiative under Title 10, U.S.C. 4551-4555.
This loan guarantee program is designed to encourage commercial use of inactive government facilities. The revenue generated
from property rental offsets the cost of maintaining these facilities.

The Federal Credit Reform Act of 1990 governs all amended direct loan obligations and loan guarantee commitments made
after FY 1991.


1.M. Inventories and Related Property
The Army GF manages only military- or government-specific materiel under normal conditions. Materiel is a unique term
that relates to military force management and includes items such as ships, tanks, self-propelled weapons, aircraft, and
related spares, repair parts, and support equipment. Items commonly used in and available from the commercial sector are
not managed in Army GF materiel management activities. Operational cycles are irregular and the military risks associated
with stock-out positions have no commercial parallel. The Army GF holds materiel based on military need and support for
contingencies. The DoD is currently developing a methodology to be used to account for inventory held for sale and inventory
held in reserve for future sale with a completion date of FY 2011 year-end reporting.

Related property includes OM&S and stockpile materiel. The OM&S, including munitions not held for sale, are valued
at standard purchase price. The Army GF uses both the consumption method and the purchase method of accounting for
OM&S. Items that are centrally managed and stored, such as ammunition and engines, are generally recorded using the
consumption method and are reported on the Balance Sheet as OM&S. When current systems cannot fully support the
consumption method, the Army GF uses the purchase method. Under this method, materiel and supplies are expensed when
purchased. During FY 2010 and FY 2009, the Army GF expensed significant amounts using the purchase method because
the systems could not support the consumption method or management deemed that the item was in the hands of the end
user. This is a material weakness for the DoD and long-term system corrections are in process. Once the proper systems are in
place, these items will be accounted for under the consumption method of accounting.

The Army GF determined that the recurring high dollar value of OM&S in need of repair is material to the financial
statements and requires a separate reporting category. Many high dollar items, such as aircraft engines, are categorized as
OM&S rather than military equipment.
   The Army GF recognizes excess, obsolete, and unserviceable OM&S at a net realizable value of $0 pending development of an
   effective means of valuing such materiel.


   1.N. Investments in U.S. Treasury Securities
   The Army GF reports investments in U.S. Treasury securities at cost, net of amortized premiums or discounts. Premiums or
   discounts are amortized over the term of the investments using the effective interest rate method or another method obtaining
   similar results. The Army GF’s intent is to hold investments to maturity, unless they are needed to finance claims or otherwise
   sustain operations. Consequently, a provision is not made for unrealized gains or losses on these securities.

   The Army GF invests in nonmarketable market-based U.S. Treasury securities, which are issued to federal agencies by the U.S.
   Treasury’s Bureau of the Public Debt. They are not traded on any securities exchange but mirror the prices of particular U.S.
   Treasury securities traded in the government securities market.


   1.O. General Property, Plant and Equipment
   The Army GF uses the estimated historical cost for valuing military equipment. The DoD identified the universe of military
   equipment by accumulating information relating to program funding and associated military equipment, equipment useful
   life, program acquisitions, and disposals to establish a baseline. The military equipment baseline is updated using expenditure,
   acquisition and disposals information.

   The DoD’s general PP&E capitalization threshold is $100,000 except for real property, which is $20,000. The Army GF is in
   process of fully implementing the $20,000 threshold for real property

   With the exception of the USACE Civil Works and Working Capital Fund, general PP&E assets are capitalized at historical
   acquisition cost when an asset has a useful life of two or more years and when the acquisition cost equals or exceeds DoD’s
   capitalization threshold. The DoD also requires the capitalization of improvements to existing general PP&E assets if the
   improvements equal or exceed the capitalization threshold and extend the useful life or increase the size, efficiency, or capacity
   of the asset. The DoD depreciates all general PP&E, other than land, on a straight-line basis.

   When it is in the best interest of the government, the Army GF provides government property to contractors to complete
   contract work. The Army GF either owns or leases such property, or it is purchased directly by the contractor for the
   government based on contract terms. When the value of contractor-procured general PP&E meets or exceeds DoD’s
   capitalization threshold, federal accounting standards require that it be reported on the Army GF’s Balance Sheet.

   The DoD developed policy and a reporting process for contractors with government-furnished equipment that provides
   appropriate general PP&E information for financial statement reporting. The DoD requires the Army GF to maintain, in its
   property systems, information on all property furnished to contractors. These actions are structured to capture and report the
   information necessary for compliance with federal accounting standards. The Army GF has not fully implemented this policy
   primarily due to system limitations.


   1.P. Advances and Prepayments
   When advances are permitted by law, legislative action, or presidential authorization, DoD’s policy is to record advances and
   prepayments in accordance with USGAAP. As such, payments made in advance of the receipt of goods and services should be
   reported as an asset on the Balance Sheet. The DoD’s policy is to expense and/or properly classify assets when the related goods
   and services are received. The Army GF has implemented this policy for advances identified in contract feeder systems, but has
   not fully implemented the policy primarily due to system limitations.


40	 Fiscal Year 2010 United States Army Annual Financial Report
1.Q. Leases                                                                                                                           41


Lease payments for the rental of equipment and operating facilities are classified as either capital or operating leases. When




                                                                                                                                      Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
a lease is essentially equivalent to an installment purchase of property (a capital lease), and the value equals or exceeds the
current capitalization threshold, the Army GF records the applicable asset as though purchased, with an offsetting liability,
and depreciates it. The Army GF records the asset and liability at the lesser of the present value of the rental and other lease
payments during the lease term (excluding portions representing executory costs paid to the lessor) or the asset’s fair market
value. The discount rate for the present value calculation is either the lessor’s implicit interest rate or the government’s
incremental borrowing rate at the inception of the lease. The Army GF, as the lessee, receives the use and possession of
leased property (e.g., real estate or equipment) from a lessor in exchange for a payment of funds. An operating lease does not
substantially transfer all the benefits and risk of ownership. Payments for operating leases are expensed over the lease term as
they become payable.

Office space and leases entered into by the Army GF are the largest component of operating leases and are based on costs
gathered from existing leases, General Services Administration bills, and interservice support agreements. Future-year
projections use the Consumer Price Index.


1.R. Other Assets
Other assets include those assets, such as military and civil service employee pay advances, travel advances, and certain contract
financing payments that are not reported elsewhere on the Army GF’s Balance Sheet.

The Army GF conducts business with commercial contractors under two primary types of contracts: fixed price and cost
reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can cause, the Army GF
may provide financing payments. Contract financing payments are defined in the Federal Acquisition Regulations, Part 32, as
authorized disbursements to a contractor prior to acceptance of supplies or services by the government. Contract financing
payments clauses are incorporated in the contract terms and conditions and may include advance payments, performance-
based payments, commercial advances and interim payments, progress payments based on cost, and interim payments under
certain cost-reimbursement contracts. It is DoD’s policy to record certain contract financing payments as other assets. The
Army GF has not fully implemented this policy primarily due to system limitations.

Contract financing payments do not include invoice payments, payments for partial deliveries, lease and rental payments,
or progress payments based on a percentage- or stage-of-completion. The Defense Federal Acquisition Regulation Supplement
authorizes progress payments based on a percentage- or stage-of-completion only for construction of real property,
shipbuilding and ship conversion, alteration, or repair. Progress payments based on percentage- or stage-of-completion are
reported as construction-in-progress.


1.S. Contingencies and Other Liabilities
Statement of Federal Financial Accounting Standards (SFFAS) No. 5, “Accounting for Liabilities of the Federal Government,”
as amended by SFFAS No. 12, “Recognition of Contingent Liabilities Arising from Litigation,” defines a contingency as an
existing condition, situation, or set of circumstances that involves an uncertainty as to possible gain or loss. The uncertainty
will be resolved when one or more future events occur or fail to occur. The Army GF recognizes contingent liabilities when
past events or exchange transactions occur, a future loss is probable, and the loss amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is at least
a reasonable possibility of incurring a loss or additional losses. The Army GF’s risk of loss and resultant contingent liabilities
arise from pending or threatened litigation or claims and assessments due to events such as aircraft, ship, and vehicle accidents;
medical malpractice; property or environmental damages; and contract disputes.
   Other liabilities also arise as a result of anticipated disposal costs for Army GF’s assets. Consistent with SFFAS No. 6,
   “Accounting for Property, Plant and Equipment,” recognition of an anticipated environmental disposal liability begins when
   the asset is placed into service. Based on DoD’s policy, which is consistent with SFFAS No. 5, nonenvironmental disposal
   liabilities are recognized when management decides to dispose of an asset. The DoD recognizes nonenvironmental disposal
   liabilities for military equipment nuclear-powered assets when placed into service. These amounts are not easily distinguishable
   and are developed in conjunction with environmental disposal costs.


   1.T. Accrued Leave
   The Army GF reports liabilities for military leave and accrued compensatory and annual leave for civilians. Sick leave for
   civilians is expensed as taken. The liabilities are based on current pay rates.


   1.U. Net Position
   Net Position consists of unexpended appropriations and cumulative results of operations.

   Unexpended Appropriations represent the amounts of budget authority that are unobligated and have not been rescinded or
   withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for payments have not been
   incurred.

   Cumulative Results of Operations represent the net difference between expenses and losses, and financing sources (including
   appropriations, revenue, and gains), since inception. The cumulative results of operations also include donations and transfers
   in and out of assets that were not reimbursed.


   1.V. Treaties for Use of Foreign Bases
   The DoD has the use of the land, buildings, and other overseas facilities that are obtained through various international treaties
   and agreements negotiated by the Department of State. The Army GF purchases capital assets overseas with appropriated
   funds; however, the host country retains title to the land and capital improvements. Treaty terms generally allow the Army GF
   continued use of these properties until the treaties expire. In the event treaties or other agreements are terminated, use of
   the foreign bases is prohibited and losses are recorded for the value of any nonretrievable capital assets. The settlement due
   to the U.S. or host nation is negotiated, takes into account the value of capital investments, and may be offset by the cost of
   environmental cleanup.


   1.W. Undistributed Disbursements and Collections
   Undistributed disbursements and collections represent the difference between disbursements and collections matched at the
   transaction level to specific obligations, payables, or receivables in the source systems and those reported by the U.S. Treasury.

   Supported disbursements and collections are evidenced by corroborating documentation. Unsupported disbursements and
   collections do not have supporting documentation for the transaction and most likely would not meet audit scrutiny.

   The DoD policy is to allocate supported undistributed disbursements and collections between federal and nonfederal
   categories based on the percentage of distributed federal and nonfederal accounts payable and accounts receivable. Supported
   undistributed disbursements and collections are then applied to reduce accounts payable and receivable accordingly.
   Unsupported undistributed disbursements are recorded as disbursements intransit and reduce nonfederal accounts payable.
   Unsupported undistributed collections are recorded in nonfederal other liabilities.



42	 Fiscal Year 2010 United States Army Annual Financial Report
1.X. Significant Events                                                                                                            43


There are no significant events as of September 30, 2010.




                                                                                                                                   Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
1.Y. Fiduciary Activities
Fiduciary cash and other assets are not assets of the Army GF and are not recognized on the balance sheet. Fiduciary activities
are reported on the financial statement note schedules.


Note 2.	 Nonentity Assets
 As of September 30                                                                 2010                  Restated 2009
 (Amounts in thousands)
 1. Intragovernmental Assets
     A. Fund Balance with Treasury                                        $                123,946 $                   205,496
     B. Accounts Receivable                                                                      0                           0
     C. Other Assets                                                                             0                           0
     D. Total Intragovernmental Assets                                    $                123,946 $                   205,496
 2. Nonfederal Assets
     A. Cash and Other Monetary Assets                                    $             1,776,209     $             1,965,004
     B. Accounts Receivable                                                                63,530                      21,049
     C. Other Assets                                                                            0                           0
     D. Total Nonfederal Assets                                           $             1,839,739     $             1,986,053
 3. Total Nonentity Assets                                                $             1,963,685     $             2,191,549
 4. Total Entity Assets                                                   $           377,366,260     $           336,654,375
 5. Total Assets                                                          $           379,329,945     $           338,845,924


The Army identified errors of $0.5 million, which impacted the FY 2009 ending balance of Entity Assets. The errors were
identified while migrating from a manual to an automated interface between budget execution and financial statement
reporting systems. To correct the errors, the Army restated Entity and Nonentity Assets on Note 2. Refer to Note 26,
Restatements, for additional details.

Nonentity assets are assets for which the Army GF maintains stewardship accountability and reporting responsibility, but are
not available for the Army GF’s normal operations.

Nonentity Fund Balance with Treasury consists of deposit funds for humanitarian relief and reconstruction, seized Iraqi cash,
and Development Fund Iraq (DFI). Deposit funds are generally used to record amounts held temporarily until paid to the
appropriate government or public entity. Humanitarian relief and reconstruction deposit funds are funds held for expenditures
on behalf of the Iraqi people. Seized Iraqi cash is former Iraqi regime monies confiscated by coalition forces. The DFI consists
of proceeds from Iraqi oil sales, repatriated assets from the U.S. and other nations, and deposits from unencumbered oil-for-
food program funds. The deposit funds for seized Iraqi cash and DFI consist of residual amounts only.

Nonentity Cash and Other Monetary Assets consist of cash held by disbursing officers to carry out their paying and collecting
missions, and foreign currency accommodation exchange primarily consisting of the burden sharing for the Republic of Korea.
Foreign currency is valued using the U.S. Treasury prevailing rate of exchange.

Nonentity Nonfederal Accounts Receivable are primarily from canceled year appropriations. These receivables will be returned
to the U.S. Treasury as miscellaneous receipts once collected.
   Note 3.	 Fund Balance with Treasury
    As of September 30                                                                  2010                  Restated 2009
    (Amounts in thousands)
    1. Fund Balances
        A. Appropriated Funds                                                $            166,799,025 $               163,159,254
        B. Revolving Funds                                                                      7,644                       4,292
        C. Trust Funds                                                                          1,469                       1,405
        D. Special Funds                                                                       55,420                      54,968
        E. Other Fund Types                                                                   123,946                     205,497
        F. Total Fund Balances                                               $            166,987,504 $               163,425,416
    2. Fund Balances Per Treasury Versus Agency
        A. Fund Balance per Treasury                                         $            168,960,972 $               165,844,086
        B. Fund Balance per Army                                                          166,987,504                 163,425,416
    3. Reconciling Amount                                                    $              1,973,468 $                 2,418,670


   The Army identified errors which impacted ending FY 2009 Fund Balance with Treasury (FBWT) Budgetary Accounts.
   The errors were identified while migrating from a manual to an automated interface between budget execution and financial
   statement reporting systems. The errors did not impact the FBWT Budgetary Accounts total balance; however, to correct the
   errors, the Army restated Unobligated Balance, Obligated and Non FBWT Budgetary Accounts on Note 3. Refer to Note 26,
   Restatements, for additional details.

   Other Fund Types

   Other Fund Types consist of deposit funds, clearing accounts, unavailable receipt accounts, seized Iraqi cash, and the
   Development Fund Iraq (DFI). Deposit funds are generally used to record amounts held temporarily until paid to the
   appropriate government or public entity. Clearing accounts are used as a temporary suspense account until later paid by or
   refunded into another account or when the government acts as a banker or agent for others. Unavailable receipt accounts are
   credited with all collections not earmarked by law for a specific purpose. These collections include taxes, customs duties, and
   miscellaneous receipts. Seized Iraqi cash is former Iraqi regime monies confiscated by coalition forces. The DFI consists of
   proceeds from Iraqi oil sales, repatriated assets from the U.S. and other nations, and deposits from unencumbered oil-for-food
   program funds.

   Reconciling Amount

   The U.S. Treasury reported $2.0 billion more in FBWT than reported by the Army GF. This variance includes a decrease
   of $24.9 million in net differences due to the U.S. Treasury treatment of allocation transfers, an increase of $16.9 million
   in fiduciary activity, an increase of $1.8 billion in canceling year authority and an increase of $205.4 million in unavailable
   receipts. The allocation transfers reconciling difference results from instances in which Army allocates to or is allocated funds
   from various governmental entities. In cases in which Army is allocated funds, the amount is excluded from the Fund Balance
   per Army, but included in Fund Balance per Treasury. In cases in which Army allocates funds, the amount is included in the
   Fund Balance per Army, but it is excluded from the Fund Balance per Treasury.




44	 Fiscal Year 2010 United States Army Annual Financial Report
Status of Fund Balance with Treasury                                                                                                          45

 As of September 30                                                                        2010                     Restated 2009




                                                                                                                                              Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
 (Amounts in thousands)
 1. Unobligated Balance
     A. Available                                                             $                 42,211,520 $                38,086,991
     B. Unavailable                                                                              6,102,930                   4,749,393
 2. Obligated Balance not yet Disbursed                                                        143,921,217                 143,712,640
 3. Nonbudgetary FBWT                                                                              327,829                     481,037
 4. NonFBWT Budgetary Accounts                                                                 (25,575,992)                (23,604,645)
 5. Total                                                                     $                166,987,504 $               163,425,416


Status of Fund Balance with Treasury Definitions

The status of FBWT reflects the budgetary resources to support the FBWT and is a reconciliation between budgetary and
proprietary accounts. It primarily consists of unobligated and obligated balances. The balances reflect the budgetary authority
remaining for disbursement against current and future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary authority that
has not been set aside to cover outstanding obligations. The unavailable balance consists primarily of funds invested in U.S.
Treasury securities that are temporarily precluded from obligation by law. Certain unobligated balances are restricted for future
use and are not apportioned for current use. Unobligated balances for trust fund accounts are restricted for use by the public
law that established the funds.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods and services not received and those
received but not paid.

Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as deposit funds, unavailable receipt
accounts, clearing accounts, nonentity FBWT and Iraqi custodial accounts.

NonFBWT Budgetary Accounts reduce the status of FBWT, such as contract authority, borrowing authority and investment
accounts, accounts receivable, as well as unfilled orders without advance from customers.


Note 4.	 Investments and Related Interest
 As of September 30                                                                                  2010
                                                                                                   Amortized
                                                                                  Amortization    (Premium) /   Investments,   Market Value
 (Amounts in thousands)                                           Cost              Method         Discount         Net         Disclosure

 1. Intragovernmental Securities
    A. Nonmarketable, Market-Based
          1. Military Retirement Fund                         $          0                       $          0   $         0    $         0
          2. Medicare-Eligible Retiree Health Care Fund                  0                                  0             0              0
          3. US Army Corps of Engineers                                   0                                 0              0             0
                                                                                   Effective
          4. Other Funds                                           3,259           interest             (78)         3,181          3,185
          5. Total Nonmarketable, Market-Based                $    3,259                         $      (78)    $    3,181     $    3,185
    B. Accrued Interest                                                  37                                              37             37
    C. Total Intragovernmental Securities                     $    3,296                         $      (78)    $    3,218     $    3,222
 2. Other Investments
    A. Total Other Investments                                $           0                      $          0   $          0          N/A
    As of September 30                                                                               2009
                                                                                                  Amortized
                                                                                  Amortization   (Premium) /    Investments,   Market Value
    (Amounts in thousands)                                            Cost          Method        Discount          Net         Disclosure

    3. Intragovernmental Securities
        A. Nonmarketable, Market-Based
             1. Military Retirement Fund                          $          0                   $          0   $         0    $         0
             2. Medicare-Eligible Retiree Health Care Fund                   0                              0             0              0
             3. US Army Corps of Engineers                                    0                             0              0             0
                                                                                   Effective
             4. Other Funds                                            3,259       interest            (50)          3,209          3,215
             5. Total Nonmarketable, Market-Based                 $    3,259                     $     (50)     $    3,209     $    3,215
        B. Accrued Interest                                                  32                                          32             32
        C. Total Intragovernmental Securities                     $    3,291                     $     (50)     $    3,241     $    3,247
    4. Other Investments
        A. Total Other Investments                                $           0                  $          0   $          0          N/A


   Other Funds include the Army Gift Fund. The Army Gift Fund was established to control and account for the disbursement
   and use of monies donated to the Army GF along with the interest received from the investment of such donations. The
   related earnings are allocated to the appropriate Army GF activities to be used in accordance with the directions of the donor.
   These funds are recorded as Nonmarketable Market-Based U.S. Treasury Securities, which are not traded on any securities
   exchange, but mirror the prices of marketable securities with similar terms.

   The U.S. Treasury securities are issued to the earmarked funds as evidence of its receipts and are an asset to the Army GF and
   a liability to the U.S. Treasury. The federal government does not set aside assets to pay future benefits or other expenditures
   associated with earmarked funds. The cash generated from earmarked funds is deposited in the U.S. Treasury, which uses
   the cash for general federal government purposes. Since the Army GF and the U.S. Treasury are both part of the federal
   government, these assets and liabilities offset each other from the standpoint of the federal government as a whole. For this
   reason, they do not represent an asset or a liability in the U.S. governmentwide financial statements.

   The U.S. Treasury securities provide the Army GF with authority to draw upon the U.S. Treasury to make future benefit
   payments or other expenditures. When the Army GF requires redemption of these securities to make expenditures, the
   government finances the securities out of accumulated cash balances, by raising taxes or other receipts, borrowing from the
   public or repaying less debt, or curtailing other expenditures. The federal government uses the same method to finance all
   other expenditures.




46	 Fiscal Year 2010 United States Army Annual Financial Report
Note 5.	 Accounts Receivable                                                                                                           47

 As of September 30                                                                           2010




                                                                                                                                       Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
                                                                                     Allowance For Estimated    Accounts Receivable,
 (Amounts in thousands)                                           Gross Amount Due        Uncollectibles                Net
 1. Intragovernmental Receivables                             $          1,006,385                    N/A $              1,006,385
 2. Nonfederal Receivables (From the Public)                               986,361 $             (166,758)                 819,603
 3. Total Accounts Receivable                                 $          1,992,746 $             (166,758) $             1,825,988


 As of September 30                                                                     Restated 2009
                                                                                      Allowance For Estimated   Accounts Receivable,
 (Amounts in thousands)                                           Gross Amount Due         Uncollectibles               Net
 1. Intragovernmental Receivables                             $            530,847                    N/A $                530,847
 2. Nonfederal Receivables (From the Public)                               802,324 $             (166,355)                 635,969
 3. Total Accounts Receivable                                 $          1,333,171 $             (166,355) $             1,166,816


The Army identified errors of $0.5 million, which impacted the FY 2009 ending balances of both Intragovernmental
and Nonfederal Receivables. The errors were identified while migrating from a manual to an automated interface between
budget execution and financial statement reporting systems. To correct the errors, the Army restated Intragovernmental and
Nonfederal Receivables on Note 5. Refer to Note 26, Restatements, for additional details.

The accounts receivable represent the Army GF's claim for payment from other entities. The Army GF only recognizes an
allowance for uncollectible amounts from the public. Claims with other federal agencies are resolved in accordance with the
Intragovernmental Business Rules.


Note 6.	 Other Assets
 As of September 30                                                                   2010                          2009
 (Amounts in thousands)
 1. Intragovernmental Other Assets
     A. Advances and Prepayments                                             $             1,033,623 $                   1,401,723
     B. Other Assets                                                                               0                             0
     C. Total Intragovernmental Other Assets                                 $             1,033,623 $                   1,401,723
 2. Nonfederal Other Assets
     A. Outstanding Contract Financing Payments                              $             7,898,060 $                   7,352,077
     B. Advances and Prepayments on behalf of Foreign
        Governments                                                                          671,998                        87,260
     C. Advances and Prepayments                                                                   0                             0
     D. Total Nonfederal Other Assets                                        $             8,570,058 $                   7,439,337
 3. Total Other Assets                                                       $             9,603,681 $                   8,841,060


Other Assets Definition

Contract terms and conditions for certain types of contract financing payments convey certain rights to the Army GF that
protect the contract work from state or local taxation, liens or attachment by the contractor's creditors, transfer of property, or
disposition in bankruptcy; however, these rights should not be misconstrued to mean that ownership of the contractor’s work
has transferred to the government. The government does not have the right to take the work, except as provided in contract
clauses related to termination or acceptance, and the Army GF is not obligated to make payment to the contractor until
delivery and acceptance.
   Outstanding Contract Financing Payment

   The Outstanding Contract Financing Payment balance of $8.0 billion is comprised of $7.6 billion in contract financing
   payments and an additional $0.4 billion in estimated future payments that will be paid to the contractor upon future delivery
   and government acceptance of a satisfactory product. See additional discussion in Note 15, Other Liabilities.


   Note 7.	 Cash and Other Monetary Assets
    As of September 30                                                                 2010                        2009
    (Amounts in thousands)
    1. Cash                                                                  $                402,605 $                   573,906
    2. Foreign Currency                                                                     1,373,604                   1,391,098
    3. Other Monetary Assets                                                                        0                           0
    4. Total Cash, Foreign Currency, & Other Monetary Assets                 $              1,776,209 $                 1,965,004


   Cash consists primarily of cash held by disbursing officers to carry out their paying and collecting mission. Foreign currency
   consists primarily of burden-sharing funds from the Republic of Korea.

   Foreign currency is valued using the U.S. Treasury prevailing rate of exchange. This rate is the most favorable rate that would
   legally be available to the federal government for foreign currency exchange transactions. The Army GF cash and foreign
   currency are nonentity and are restricted.


   Note 8.	 Direct Loan and Loan Guarantees
   Direct Loan and/or Loan Guarantee Program

   The Army GF operates a loan guarantee program, the Armament Retooling and Manufacturing Support (ARMS) Initiative
   Loan Guarantee Program, designed to encourage commercial use of inactive government facilities. The revenue generated from
   property rental offsets the cost of maintaining these facilities.

   The Federal Credit Reform Act of 1990 governs all new and amended direct loan obligations and loan guarantee commitments
   made after FY 1991. The Army GF does not operate a direct loan program.

   Loan guarantee liabilities are reported at the net present value. The cost of the loan guarantee is the net present value of the
   following estimated projected cash flows: Payments by the Army GF to cover defaults and delinquencies, interest subsidies, or
   other payments offset by payments to the Army GF including origination and other fees, penalties, and recoveries.

   Armament Retooling and Manufacturing Support Initiative

   The ARMS, which is authorized by Title 10, United States Code 4551-4555, is a loan guarantee program. It is designed to
   encourage commercial use of the Army’s inactive ammunition plants through incentives for businesses willing to locate to
   a government ammunition production facility. The production capacity of these facilities is greater than current military
   requirements; however, this capacity may be needed by the military in the future. Revenues from property rentals are used to
   help offset the overhead costs for the operation, maintenance and environmental cleanup at the facilities.

   The Army GF, by means of ARMS initiative legislation, established a loan guarantee program to facilitate commercial
   firms’ use of specified ammunition manufacturing facilities. The Army and U.S. Department of Agriculture Rural Business-
   Cooperative Service (RBS) established a memorandum of understanding for the RBS to administer the ARMS initiative loan
   guarantee program.


48	 Fiscal Year 2010 United States Army Annual Financial Report
Loan Guarantees                                                                                                                    49




                                                                                                                                   Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
In an effort to preclude additional Army GF loan liability, the Assistant Secretary of the Army (Acquisition, Logistics and
Technology) instituted an ARMS loan guarantee moratorium in 2004. The Army GF continues to operate under the
moratorium and does not anticipate initiating new loan guarantees.


Summary of Direct Loans and Loan Guarantees
 As of September 30                                                                 2010                        2009
 (Amounts in thousands)
 Loans Receivable
 Direct Loans
 1. Foreign Military Loan Liquidating Account                             $                       0 $                         0
 2. Military Housing Privatization Initiative                                                     0                           0
 3. Foreign Military Financing Account                                                            0                           0
 4. Military Debt Reduction Financing Account                                                     0                           0
 5. Total Direct Loans                                                    $                       0 $                         0
 Defaulted Loan Guarantees
 6. A. Foreign Military Financing Account                                 $                       0 $                          0
    B. Military Housing Privatization Initiative                                                  0                            0
    C. Armament Retooling & Manufacturing Support Initiative                                      0                           93
 7. Total Default Loan Guarantees                                         $                       0 $                         93
 8. Total Loans Receivable                                                $                       0 $                         93
 Loan Guarantee Liability
 1. Foreign Military Liquidating Account                                  $                      0 $                         0
 2. Military Housing Privatization Initiative                                                    0                           0
 3. Armament Retooling & Manufacturing Support Initiative                                    3,640                       2,436
 4. Total Loan Guarantee Liability                                        $                  3,640 $                     2,436



The Loan Guarantee Liability represents the present value of the estimated cash inflows less cash outflows of nonacquired
loan guarantees. The $3.6 million in loan guarantee liability represents the estimated long-term cost of the one remaining
performing loan to the U.S. Government for the ARMS Initiative Loan Guarantee Program.

Direct Loans Obligated
The Army GF does not operate direct loan programs; therefore, this schedule is not applicable.


Total Amount of Direct Loans Disbursed
The Army GF does not operate direct loan programs; therefore, this schedule is not applicable.


Subsidy Expense for Direct Loan by Program
The Army GF does not operate direct loan programs; therefore, this schedule is not applicable.


Subsidy Rate for Direct Loans by Program
The Army GF does not operate direct loan programs; therefore, this schedule is not applicable.
   Schedule for Reconciling Subsidy Cost Allowance Balances for Post
   FY1991 Direct Loans
   The Army GF does not operate direct loan programs; therefore, this schedule is not applicable.


   Defaulted Guaranteed Loans
    As of September 30                                                                                        2010                     2009
    (Amounts in thousands)
    Defaulted Guaranteed Loans from Pre-FY 1992 Guarantees
    (Allowance for Loss Method):
    1. Foreign Military Loan Liquidating Account
        A. Defaulted Guaranteed Loans Receivable, Gross                                                 $                  0     $               0
        B. Interest Receivable                                                                                             0                     0
        C. Foreclosed Property                                                                                             0                     0
        D. Allowance for Loan Losses                                                                                       0                     0
        E. Value of Assets Related to Defaulted Guaranteed Loans Receivable, Net                        $                  0     $               0
    Defaulted Guaranteed Loans from Post-FY 1991 Guarantees
    (Present Value Method):
    2. Military Housing Privatization Initiative
        A. Defaulted Guaranteed Loans Receivable, Gross                                                 $                  0     $               0
        B. Interest Receivable                                                                                             0                     0
        C. Foreclosed Property                                                                                             0                     0
        D. Allowance for Subsidy Cost (Present Value)                                                                      0                     0
        E. Value of Assets Related to Defaulted Guaranteed Loans Receivable, Net                        $                  0     $               0
    3. Armament Retooling & Manufacturing Support Initiative
        A. Defaulted Guaranteed Loans Receivable, Gross                                                 $            735 $                    735
        B. Interest Receivable                                                                                         0                        0
        C. Foreclosed Property                                                                                         0                        0
        D. Allowance for Subsidy Cost (Present Value)                                                               (735)                    (642)
        E. Value of Assets Related to Defaulted Guaranteed Loans Receivable, Net                        $              0 $                     93
    4. Total Value of Assets Related to Defaulted Guaranteed Loans Receivable                           $              0 $                     93



   Guaranteed Loans Outstanding
    As of September 30                                                2010                                            2009
                                                   Outstanding Principal        Amount of          Outstanding Principal            Amount of
                                                   of Guaranteed Loans,    Outstanding Principal   of Guaranteed Loans,        Outstanding Principal
    (Amounts in thousands)                              Face Value             Guaranteed               Face Value                 Guaranteed
    Guaranteed Loans Outstanding
    1. Military Housing Privatization Initiative   $                  0 $                     0 $                     0 $                         0
    2. Armament Retooling & Manufacturing
       Support Initiative                                         2,716                  2,308                   2,988                       2,429
    3. Foreign Military Liquidating Account                           0                      0                       0                           0
    4. Total                                       $              2,716 $                2,308 $                 2,988 $                     2,429
    New Guaranteed Loans Disbursed
    1. Military Housing Privatization Initiative   $                  0 $                     0 $                     0 $                         0
    2. Armament Retooling & Manufacturing
       Support Initiative                                             0                       0                       0                           0
    3. Total                                       $                  0 $                     0 $                     0 $                         0




50	 Fiscal Year 2010 United States Army Annual Financial Report
Guaranteed Loans Outstanding Definition                                                                                           51




                                                                                                                                 Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
The Outstanding Principal of Guaranteed Loans, Face Value is the principal amount of loans disbursed by third parties and
guaranteed by the Army GF. The face value does not include any interest that is due to be paid on the debt instruments.

The Amount of Outstanding Principal Guaranteed is the principal amount of loans disbursed by third parties and guaranteed
by the Army GF less borrower collateral. The net amount represents the loan amount guaranteed by the Army GF. One
performing loan remains.


Liabilities for Loan Guarantees
 As of September 30                                                                2010                       2009
 (Amounts in thousands)
 Liabilities for Losses on Loan Guarantee from Pre 1992
 (Allowance for Loss):
 1. Foreign Military Liquidating Account                                 $                       0 $                        0
 2. Total Loan Guarantee Liability (Pre-FY 1992)                         $                       0 $                        0
 Liabilities for Loan Guarantee from Post 1991 (Present
    Value):
 3. Military Housing Privatization Initiative                            $                      0 $                         0
 4. Armament Retooling & Manufacturing Support Initiative                                   3,640                       2,436
 5. Total Loan Guarantee Liability (Post-FY 1991)                        $                  3,640 $                     2,436
 6. Total Loan Guarantee Liability                                       $                  3,640 $                     2,436

Liabilities for Loan Guarantee Programs Post-FY 1991 represent the present value of the estimated cash inflows less cash
outflows of non-acquired loan guarantees. The $3.6 million in loan guarantee liability represents the estimated long-term cost
of the currently performing loan to the U. S. Government for the ARMS Initiative Loan Guarantee Program.
   Subsidy Expense for Loan Guarantees by Program
    As of September 30
    (Amounts in thousands)
                                                               Interest
                             2010                             Differential         Defaults           Fees             Other            Total
    1. New Loan Guarantees Disbursed:
    Military Housing Privatization Initiative             $                  0 $              0 $             0 $                 0 $           0
    Armament Retooling & Manufacturing Support
       Initiative                                                            0                0               0                   0             0
    Totals                                                $                  0 $              0 $             0 $                 0 $           0
                                                               Interest
                             2009                             Differential         Defaults           Fees             Other            Total
    2. New Loan Guarantees Disbursed:
    Military Housing Privatization Initiative             $                  0 $              0 $             0 $                 0 $           0
    Armament Retooling & Manufacturing Support
       Initiative                                                            0                0               0                   0             0
    Totals                                                $                  0 $              0 $             0 $                 0 $           0
                                                               Interest
                             2010                             Differential         Defaults           Fees             Other            Total
    3. Modifications and Reestimates:
    Military Housing Privatization Initiative             $                  0 $              0 $             0 $                 0 $           0
    Armament Retooling & Manufacturing Support
       Initiative                                                            0                0               0                   0             0
    Totals                                                $                  0 $              0 $             0 $                 0 $           0
                                                                               Interest Rate        Technical          Total
                             2009                          Modifications       Reestimates         Reestimates      Reestimates         Total
    4. Modifications and Reestimates:
    Military Housing Privatization Initiative             $                  0 $              0 $             0 $                 0 $           0
    Armament Retooling & Manufacturing Support
       Initiative                                                            0                93              0                93               93
    Totals                                                $                  0 $              93 $            0 $              93 $             93


                                                                2010               2009
    5. Total Loan Guarantee:
    Military Housing Privatization Initiative             $                  0 $               0
    Armament Retooling & Manufacturing Support
       Initiative                                                            0                93
    Totals                                                $                  0 $              93


   In an effort to preclude additional Army GF loan liability, the Assistant Secretary of the Army (Acquisition, Logistics,
   and Technology) instituted an ARMS loan guarantee moratorium in 2004. The Army GF continues to operate under the
   moratorium and does not anticipate initiating new loan guarantees.


   Subsidy Rates for Loan Guarantees by Program
    As of September 30
                                                                                                      Fees and
                                                                  Interest                              other
    (Amounts in thousands)                                      Supplements          Defaults        Collections       Other            Total
    Budget Subsidy Rates for Loan Guarantees:
    1. Military Housing Privatization Initiative                       0.00%             0.00%           0.00%           0.00%           0.00%
    2 Armament Retooling & Manufacturing Support
       Initiative                                                      0.00%             0.00%           0.00%           0.00%           0.00%



52	 Fiscal Year 2010 United States Army Annual Financial Report
The Subsidy Rates for Loan Guarantees table displays subsidy rates applied to new guaranteed loans. Since there have been no   53
new loan guarantees originated since 2004 for the ARMS Initiative Program, the table properly presents zero percent subsidy
rates.




                                                                                                                               Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
Schedule for Reconciling Loan Guarantee Liability Balances for Post-
FY 1991 Loan Guarantees
 As of September 30                                                                     2010                  2009
 (Amounts in thousands)
 Beginning Balance, Changes, and Ending Balance:
 1. Beginning Balance of the Loan Guarantee Liability                            $             2,436 $               2,337
 2. Add: Subsidy Expense for Guaranteed Loans Disbursed during
    the Reporting Years by Component
     A. Interest Supplement Costs                                                $                 0 $                   0
     B. Default Costs (Net of Recoveries)                                                          0                     0
     C. Fees and Other Collections                                                                 0                     0
     D. Other Subsidy Costs                                                                        0                     0
     E. Total of the above Subsidy Expense Components                            $                 0 $                   0
 3. Adjustments
     A. Loan Guarantee Modifications                                             $                 0 $                   0
     B. Fees Received                                                                              0                     0
     C. Interest Supplements Paid                                                                  0                     0
     D. Foreclosed Property and Loans Acquired                                                     0                     0
     E. Claim Payments to Lenders                                                                  0                     0
     F. Interest Accumulation on the Liability Balance                                           127                     8
     G. Other                                                                                  1,077                    (2)
     H. Total of the above Adjustments                                           $             1,204 $                   6
 4. Ending Balance of the Loan Guarantee Liability before
    Reestimates                                                                  $             3,640 $               2,343
 5. Add or Subtract Subsidy Reestimates by Component
     A. Interest Rate Reestimate                                                 $                 0 $                  93
     B. Technical/default Reestimate                                                               0                     0
     C. Total of the above Reestimate Components                                 $                 0 $                  93
 6. Ending Balance of the Loan Guarantee Liability                               $             3,640 $               2,436



Administrative Expenses
Administrative expense of $4,000 is an annual amount for salary and expense which normally occurs during the last quarter of
the fiscal year.


Note 9.	 Inventory and Related Property
 As of September 30                                                              2010                       2009
 (Amounts in thousands)
 1. Inventory, Net                                                     $                      0 $                        0
 2. Operating Materiels & Supplies, Net                                              34,113,653                 34,497,598
 3. Stockpile Materiel, Net                                                                   0                          0
 4. Total                                                              $             34,113,653 $               34,497,598
   Inventory, Net
   Not Applicable.


   Operating Materiel and Supplies, Net
    As of September 30                                                                2010
                                                                    OM&S            Revaluation
    (Amounts in thousands)                                        Gross Value        Allowance      OM&S, Net       Valuation Method
    1. OM&S Categories
       A. Held for Use                                       $ 34,113,653 $                   0 $ 34,113,653         SP, LAC, MAC
       B. Held for Repair                                               0                     0             0        SP, LAC, MAC
       C. Excess, Obsolete, and Unserviceable                     674,458              (674,458)            0            NRV
       D. Totals                                             $ 34,788,111 $            (674,458) $ 34,113,653



    As of September 30                                                                2009
                                                                    OM&S            Revaluation
    (Amounts in thousands)                                        Gross Value        Allowance      OM&S, Net       Valuation Method
    1. OM&S Categories
       A. Held for Use                                       $ 34,497,598 $                   0 $ 34,497,598         SP, LAC, MAC
       B. Held for Repair                                               0                     0             0        SP, LAC, MAC
       C. Excess, Obsolete, and Unserviceable                     509,531              (509,531)            0            NRV
       D. Totals                                             $ 35,007,129 $            (509,531) $ 34,497,598

    Legend for Valuation Methods:
    LAC = Latest Acquisition Cost                            NRV = Net Realizable Value
    SP = Standard Price                                      LCM = Lower of Cost or Market
    AC = Actual Cost                                         O = Other
    MAC = Moving Average Cost


   Operating Materiel and Supplies (OM&S) include ammunition, tactical missiles, and their related spare and repair parts. The
   category, Held for Use, includes all materiel available to be issued. Economically repairable materiel is categorized as held for
   repair.

   Managers determine which items are more costly to repair than to replace. The net value of these items is zero and is shown as
   Excess, Obsolete, and Unserviceable.

   The Army GF establishes an allowance for excess, obsolete, and unserviceable OM&S at 100 percent of the carrying amount
   in accordance with DoD policy.

   The values of the Army’s government-furnished materiel and contractor-acquired materiel in the hands of contractors are
   normally not included in the OM&S values reported above. The DoD is presently reviewing its process for reporting these
   amounts in an effort to determine the appropriate accounting treatment and the best method to annually collect and report
   required information without duplicating information in other existing logistics systems. Currently, there are no restrictions on
   OM&S.


   Stockpile Materiel, Net
   Not Applicable.



54	 Fiscal Year 2010 United States Army Annual Financial Report
Note 10.	 General PP&E, Net                                                                                                                               55

 As of September 30                                                                         2010




                                                                                                                                                          Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
                                           Depreciation/                                                   (Accumulated
                                           Amortization                                                    Depreciation/
 (Amounts in thousands)                      Method         Service Life       Acquisition Value           Amortization)             Net Book Value
 1. Major Asset Classes
     A. Land                                   N/A              N/A            $       461,150                             N/A   $         461,150
     B. Buildings, Structures, and
        Facilities                              S/L          20 or 40             61,998,707           $     (33,539,328)           28,459,379
     C. Leasehold Improvements                  S/L         lease term                26,318                     (19,732)                6,586
     D. Software                                S/L          2-5 or 10               501,718                    (207,742)              293,976
     E. General Equipment                       S/L           5 or 10             13,955,404                  (4,292,652)            9,662,752
     F. Military Equipment                      S/L           various            164,280,693                 (49,152,182)          115,128,511
     G. Shipbuilding                           N/A              N/A                        0                           0                     0
     H. Assets Under Capital Lease              S/L         lease term               166,617                    (162,635)                3,982
     I. Construction-in-Progress               N/A              N/A               11,003,356                         N/A            11,003,356
     J. Other                                                                              0                           0                     0
     K.	Total General PP&E                                                     $ 252,393,963           $     (87,374,271)        $ 165,019,692


 As of September 30                                                                        2009
                                          Depreciation/                                                    (Accumulated
                                          Amortization                                                     Depreciation/
 (Amounts in thousands)                     Method         Service Life    Acquisition Value               Amortization)             Net Book Value
 1. Major Asset Classes
     A. Land                                  N/A             N/A          $          519,153                              N/A   $          519,153
     B. Buildings, Structures, and
        Facilities                            S/L           20 or 40                53,909,702     $          (32,113,494)               21,796,208
     C. Leasehold Improvements                S/L          lease term                   23,896                     (19,418)                    4,478
     D. Software                              S/L          2-5 or 10                  501,718                     (207,025)                 294,693
     E. General Equipment                     S/L           5 or 10                  3,984,679                  (1,834,810)               2,149,869
     F. Military Equipment                    S/L           various                141,160,620                (45,266,083)               95,894,537
     G. Shipbuilding                          N/A             N/A                              0                            0                         0
     H. Assets Under Capital Lease            S/L          lease term                 166,617                     (160,238)                    6,379
     I. Construction-in-Progress              N/A             N/A                    8,281,379                         N/A                8,281,379
     J. Other                                                                                  0                            0                         0
     K.	Total General PP&E                                                 $       208,547,764     $          (79,601,068)       $      128,946,696


 Legend for Valuation Methods:
 S/L = Straight Line                     N/A = Not Applicable


General Property, Plant and Equipment

The Army GF uses the estimated historical cost for valuing military equipment. The DoD identified the universe of military
equipment by accumulating information relating to program funding and associated military equipment, equipment useful
life, program acquisitions, and program disposals to establish a baseline. The military equipment baseline is updated using
expenditure, acquisition, and disposals information.

Heritage Assets and Stewardship Land

The Federal Accounting Standards Advisory Board’s Statement of Federal Financial Accounting Standard No. 29, “Heritage
Assets and Stewardship Land,” requires note disclosures for these types of assets. The Army GF’s policy is to preserve its
heritage assets, which are items of historical, cultural, educational, or artistic importance.
   Heritage assets within the Army GF consist of buildings and structures, archeological sites, and museum collections. The
   Army GF defines these as follows:

   Buildings and Structures. Buildings and structures that are listed on, or eligible for listing on, the National Register of
   Historic Places, including multi-use heritage assets.

   Archeological Sites. Sites that have been identified, evaluated, and determined to be eligible for or are listed on the National
   Historical Places in accordance with Section 110, National Historical Preservation Act.

   Museum Collection Items. Items which are unique for one or more of the following reasons: historical or natural
   significance; cultural, educational, or artistic importance; or significant technical or architectural characteristics.

   The following is a description of the methods of acquisitions and withdrawals of heritage assets and stewardship land:
        n	 Acquiring additional land through donation or withdrawals from public domain
        n	 Identifying missing land records
        n	 Disposing of Base Realignment and Closure (BRAC) sites or transferring land to another DoD agency
        n	 Identifying cemeteries and historical facilities
        n	 Disposing of BRAC property or excess installations
        n	 Privatizing residential community initiatives programs



                                                               Measure            Beginning                                              Ending
    Categories                                                 Quantity            Balance          Additions         Deletions          Balance
    Buildings and Structures                                      Each               28,031            14,116               1,814          40,333
    Archeological Sites                                           Each                8,201               269               2,130           6,340
    Museum Collection Items (Objects, Not
      Including Fine Art)                                         Each             564,818              9,344               1,293         572,869
    Museum Collection Items (Objects, Fine Art)                   Each                   0                  0                   0               0

   The schedule above reflects the beginning and ending number of heritage assets as of October 1, 2009, and September 30,
   2010, respectively.

   The Army GF held 7 million acres of stewardship land at September 30, 2010.

    (Acres in thousands)
    Facility Code                    Facility Title           Beginning Balance         Additions               Deletions           Ending Balance
          9110             Government-Owned Land                          4,983                3,445               426                      8,002
          9111             State-Owned Land                                  12                   12                12                         12
          9120             Withdrawn Public Land                          6,505                   54                55                      6,504
          9130             Licensed and Permitted Land                    1,871                  428               203                      2,096
          9140             Public Land                                       11                   11                11                         11
          9210             Land Easement                                    215                   27                27                        215
          9220             In-leased Land                                   178                  106               106                        178
          9230             Foreign Land                                     158                    1                 1                        158
                                                                                                           Grand Total                     17,176
                                                                                                 Total All Other Lands                     10,649
                                                                                              Total Stewardship Lands                       6,527




56	 Fiscal Year 2010 United States Army Annual Financial Report
The schedule above reflects the beginning and ending balance of stewardship land as of October 1, 2009, and September 30,             57
2010, respectively.




                                                                                                                                      Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
The mission of the Army is to provide the military forces needed to deter war and protect the security of the U.S. by
organizing, training, supplying, equipping, and mobilizing forces for assignment in support of that mission. Executing this
mission requires efficient and effective use of resources in a manner that ensures operational and environmental sustainability,
while respecting the history and heritage that reflect and support the military mission. The Army has stewardship
responsibilities for heritage assets that date not only from the military history of the land, but from prior historic occupations.
The Army relies upon heritage assets, such as historic buildings and stewardship land for daily use in administering, housing,
and training soldiers. Heritage assets not currently employed as multi-use, such as archeological collections or museum
collections, are items that embody the multi-faceted history of the land, the military, the local communities, and the nation. In
that mission, the Army GF, with minor exceptions, uses most of the buildings and stewardship land in its daily activities and
includes the buildings on the Balance Sheet as multi-use heritage assets (capitalized and depreciated).


Assets Under Capital Lease
 As of September 30                                                                   2010                        2009
 (Amounts in thousands)
 1. Entity as Lessee, Assets Under Capital Lease
    A. Land and Buildings                                                  $                 166,071 $                  166,071
    B. Equipment                                                                                 546                        546
    C. Accumulated Amortization                                                             (162,635)                  (160,238)
    D. Total Capital Leases                                                $                   3,982 $                    6,379



Note 11.	 Liabilities Not Covered by Budgetary Resources
 As of September 30                                                                  2010                   Restated 2009
 (Amounts in thousands)
 1. Intragovernmental Liabilities
     A. Accounts Payable                                                   $                       0 $                         0
     B. Debt                                                                                       0                           0
     C. Other                                                                                602,734                     450,792
     D. Total Intragovernmental Liabilities                                $                 602,734 $                   450,792
 2. Nonfederal Liabilities
     A. Accounts Payable                                                   $                211,211    $                194,560
     B. Military Retirement and Other Federal Employment Benefits                         1,350,560                   1,325,169
     C. Environmental Liabilities                                                        30,095,842                  34,679,660
     D. Other Liabilities                                                                 7,818,996                   6,256,400
     E. Total Nonfederal Liabilities                                       $             39,476,609    $             42,455,789
 3. Total Liabilities Not Covered by Budgetary Resources                   $             40,079,343    $             42,906,581
 4. Total Liabilities Covered by Budgetary Resources                                     23,729,018                  27,158,853
 5. Total Liabilities                                                      $             63,808,361    $             70,065,434

The Army identified errors of $10.9 million, which impacted ending FY 2009 Total Liabilities Covered by Budgetary
Resources. The errors were identified while migrating from a manual to an automated interface between budget execution
and financial statement reporting systems. To correct the errors, the Army restated Total Liabilities Covered by Budgetary
Resources on Note 11. Refer to Note 26, Restatements, for additional details.

Liabilities not covered by budgetary resources are liabilities for which congressional action is needed before budgetary resources
can be provided.
   Intragovernmental Liabilities, Other, consist of employment-related liabilities such as Federal Employees’ Compensation Act
   (FECA) and other unfunded employment-related liabilities.

   Nonfederal Other Liabilities, Other consist of unfunded annual leave and conventional munitions disposals.

   Military Retirement and Other Federal Employment Benefits not covered by budgetary resources are comprised of various
   employee actuarial liabilities. These liabilities are comprised of FECA benefits liability of $1.4 billion. Refer to Note 17,
   Military Retirement and Other Federal Employment Benefits, for additional details and disclosures.

   Liabilities such as Environmental Liabilities and Military Retirement and Other Federal Employment Benefits are not covered
   by budgetary resources because there are no current or immediate appropriations available for liquidation. These liabilities will
   require resources funded from future-year appropriations.


   Note 12.	Accounts Payable
    As of September 30                                                                                 2010
                                                                                               Interest, Penalties, and
    (Amounts in thousands)                                             Accounts Payable          Administrative Fees                  Total
    1. Intragovernmental Payables                                  $           1,890,428                            N/A $              1,890,428
    2. Nonfederal Payables (to the Public)                                    10,747,638 $                        6,332               10,753,970
    3. Totals                                                      $          12,638,066 $                        6,332 $             12,644,398


    As of September 30                                                                          Restated 2009
                                                                                               Interest, Penalties, and
    (Amounts in thousands)                                             Accounts Payable          Administrative Fees                  Total
    1. Intragovernmental Payables                                  $           1,717,108                            N/A $              1,717,108
    2. Nonfederal Payables (to the Public)                                    14,101,651 $                        6,188               14,107,839
    3. Totals                                                      $          15,818,759 $                        6,188 $             15,824,947


   The Army identified errors of $9.0 million, which impacted ending FY 2009 Nonfederal Payables. The errors were identified
   while migrating from a manual to an automated interface between budget execution and financial statement reporting systems.
   To correct the errors, the Army restated Nonfederal Payables on Note 12. Refer to Note 26, Restatements, for additional details.

   Accounts Payable include amounts owed to federal and nonfederal entities for goods and services received by the Army GF.
   The Army GF systems do not track intragovernmental transactions by customer at the transaction level. Buyer-side accounts
   payable are adjusted to agree with intraagency seller-side accounts receivable. Accounts payable were adjusted by reclassifying
   amounts between federal and nonfederal accounts payable.


   Note 13.	 Debt
    As of September 30                                                 2010                                               2009
                                                       Beginning                     Ending           Beginning                               Ending
    (Amounts in thousands)                              Balance    Net Borrowing     Balance           Balance        Net Borrowing           Balance

    1. Agency Debt (Intragovernmental)
        A. Debt to the Treasury                    $       1,060 $      (1,059) $              1 $           833 $               227 $          1,060
        B. Debt to the Federal Financing
           Bank                                                0             0                 0               0                   0                0
        C. Total Agency Debt                       $       1,060 $      (1,059) $              1 $           833 $               227 $          1,060
    2. Total Debt                                  $       1,060 $      (1,059) $              1 $           833 $               227 $          1,060




58	 Fiscal Year 2010 United States Army Annual Financial Report
The Army GF, by means of the Armament Retooling and Manufacturing Support (ARMS) initiative legislation, established a               59
loan guarantee program to facilitate commercial firms’ use of specified ammunition manufacturing facilities. When a borrower




                                                                                                                                     Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
defaults on a guaranteed loan, the Army GF executes borrowing authority with the U.S. Treasury to pay the lender the
guaranteed outstanding principal resulting in a debt with the U.S. Treasury. The total debt of $1,000 consists of interest and
principal payments due to the U.S. Treasury for ARMS loan defaults.


Note 14.	Environmental Liabilities and Disposal Liabilities
 As of September 30                                                                        2010                    2009
 (Amounts in thousands)
 1. Environmental Liabilities - Nonfederal
     A. Accrued Environmental Restoration Liabilities
         1. Active Installations—Installation Restoration Program (IRP) and
             Building Demolition and Debris Removal (BD/DR)                         $         2,339,511 $            2,181,086
         2. Active Installations—Military Munitions Response Program
             (MMRP)                                                                          1,930,687               2,653,805
         3. Formerly Used Defense Sites—IRP and BD/DR                                        3,426,263               3,452,907
         4. Formerly Used Defense Sites—MMRP                                                11,811,902              13,545,816
     B. Other Accrued Environmental Liabilities—Non-BRAC
         1. Environmental Corrective Action                                                     274,591                356,897
         2. Environmental Closure Requirements                                                  343,655                353,625
         3. Environmental Response at Operational Ranges                                        107,287                144,469
         4. Asbestos                                                                            240,559                247,537
         5. Non-Military Equipment                                                                    0                      0
         6. Other                                                                                66,168                 96,456
     C. Base Realignment and Closure Installations
         1. Installation Restoration Program                                                    871,671                690,977
         2. Military Munitions Response Program                                                 861,312                951,853
         3. Environmental Corrective Action / Closure Requirements                              289,094                295,327
         4. Asbestos                                                                                  0                      0
         5. Non-Military Equipment                                                                    0                      0
         6. Other                                                                                     0                      0
     D. Environmental Disposal for Military Equipment / Weapons Programs
         1. Nuclear Powered Military Equipment / Spent Nuclear Fuel                                    0                         0
         2. Non-Nuclear Powered Military Equipment                                                     0                         0
         3. Other Weapons Systems                                                                      0                         0
     E. Chemical Weapons Disposal Program
         1. Chemical Demilitarization - Chemical Materials Agency (CMA)                       5,286,908              6,955,981
         2. Chemical Demilitarization - Assembled Chemical Weapons
            Alternatives (ACWA)                                                              5,503,123               5,447,847
         3. Other                                                                                    0                       0
 2. Total Environmental Liabilities                                                 $       33,352,731 $            37,374,583


Applicable Laws and Regulations

The Army GF is required to clean up contamination resulting from past waste disposal practices, leaks, spills, and other
past activity. This cleanup requirement applies to releases of hazardous substances and wastes that created a public health or
environmental risk and from unexploded ordnance, discarded military munitions, and munitions constituents at other than
operational ranges. The Defense Environmental Restoration Program (DERP), established by Section 211 of the Superfund
Amendments and Reauthorization Act of 1986 codified in Title 10, U.S.C., 2700 et.seq., establishes requirements. The
   Army GF is also required to clean up contamination resulting from waste disposal practices, leaks, spills, and other activity at
   overseas locations in accordance with DoD policy as prescribed in DoD Instruction 4715.8, “Environmental Remediation for
   DoD Activities Overseas,” under the Army Compliance Cleanup Program.

   The Federal Accounting Standards Advisory Board published Technical Bulletin 2006-1 (FASAB TB 2006-1), “Recognition
   and Measurement of Asbestos-Related Cleanup Cost” and Technical Release 10, “Implementation Guidance on Asbestos
   Cleanup Costs Associated with Facilities and Installed Equipment,” which clarifies reporting of liabilities arising from asbestos-
   related cleanup.

   The Army GF is required to destroy the chemical stockpile and nonstockpile items as part of the Chemical Demilitarization
   Program. The 1986 Defense Authorization Act (Public Law (PL) 99-145, as amended by subsequent acts) directed the DoD
   to destroy the unitary chemical stockpile while providing for maximum protection of the environment, public, and personnel
   involved in the destruction effort. The 1993 Defense Authorization Act (PL 102-484) required the establishment of the
   Nonstockpile Chemical Material Project to safely dispose of all nonstockpile chemical material. The destruction operations
   being carried out using the facilities and equipment developed and fielded as part of the program are also subject to numerous
   federal and state environmental regulations.

   For the environmental liability associated with the destruction of chemical weapons, the schedules and cost estimates in the
   approved baseline are based on the best information available and have been through the formal acquisition program baseline
   approval process at the time of report submission. It should be noted that they are subject to modifications and impacts from
   program risks and uncertainties inherent to the task of chemical demilitarization and the political sensitivity of the program.
   These risks may include processing changes required to meet the operational schedules due to the deteriorating condition of
   the stockpile and additional schedule time and/or cost to address changes in environmental laws or congressional requirements.

   Applicable laws are as follows for the DERP, NonDERP, low-level radioactive waste, and the Base Realignment and Closure
   (BRAC) programs:

        n	 Comprehensive Environmental Response, Compensation, and Liability Act
        n	 Superfund Amendments and Reauthorization Act
        n	 Clean Water Act
        n	 Safe Drinking Water Act
        n	 Clean Air Act
        n	 Resource Conversation and Recovery Act
        n	 Toxic Substances Control Act
        n	 Medical Waste Tracking Act
        n	 Atomic Energy Act
        n	 Nuclear Waste Policy Act
        n	 National Defense Authorization Acts

   Types of Environmental Liabilities and Disposal Liabilities Identified

   The Army GF has cleanup requirements for DERP sites at active installations, BRAC installations, Formerly Used Defense
   Sites at active installations that are not covered by DERP, weapon systems programs, and chemical weapons disposal programs.
   Environmental disposal for weapons systems programs consists of chemical weapons disposal, including the destruction of the
   entire United States’ stockpile of chemical agents and munitions and disposal of nonstockpile chemical material. This includes
   binary chemical weapons, old chemical weapons recovered as part of remediation and recovery operations, and miscellaneous


60	 Fiscal Year 2010 United States Army Annual Financial Report
materiel associated with chemical weapon production, storage, testing, maintenance, and disposal. All cleanup is done in             61
coordination with regulatory agencies, other responsible parties, and current property owners.




                                                                                                                                     Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
Methods for Assigning Estimated Total Cleanup Costs to Current Operating Periods

The Army GF uses engineering estimates and independently validated models to estimate environmental cleanup liabilities.
The Remedial Action Cost Engineering and Requirements (RACER) system is the Army’s preferred model. The Army GF
relies upon the Air Force, the RACER executive agent, to validate the model in accordance with DoD Instruction 5000.61
and primarily uses the model to estimate the liabilities based on data received during a preliminary assessment and initial site
investigation. The Army primarily uses engineering estimates after obtaining extensive data during the remedial investigation/
feasibility phase of an environmental cleanup project.

The Army GF uses the real property inventory and engineering estimates of costs for environmental closure liabilities. Most
liabilities for individual facilities are below the Army’s $42,000 materiality threshold for a single environmental site, but
environmental closure liabilities are reported in aggregate. Asbestos disposal costs are not estimable due to the ubiquitous
nature of non-friable asbestos, but facility surveys to determine the presence of asbestos are reported, based upon a cost of
$0.35/square foot multiplied by the gross square feet of the Army-owned buildings.

The Army GF is unable to systematically gather and report environmental disposal liabilities for military equipment or
general property, plant, and equipment. Most liabilities for individual items of equipment are expected to be below the Army’s
$42,000 materiality threshold for a single environmental site. The Army GF will continue coordination with the Office of the
Under Secretary of Defense (Comptroller) to address this deficiency.

Nature of Estimates and the Disclosure of Information Regarding Possible Changes due to Inflation, Deflation,
Technology, or Applicable Laws and Regulations

The Army GF had changes in estimates resulting from previously unknown contamination, better site characterization with
sampling information, reestimation based on different assumptions, and lessons learned. Environmental liabilities may
change in the future due to changes in laws and regulations, changes in agreements with regulatory agencies, and advances in
technology.

Uncertainty Regarding the Accounting Estimates Used to Calculate the Reported Environmental Liabilities

The environmental liabilities for the Army GF are based on accounting estimates, which require certain judgments and
assumptions that are believed to be reasonable based upon information available at the time the estimates are calculated. The
actual results may vary materially from the accounting estimates if agreements with regulatory agencies require remediation
to a different degree than anticipated when calculating the estimates. Liabilities can be further impacted if investigation of the
environmental sites discloses contamination levels different than known at the time of the estimates.

The Army GF has reported asbestos survey costs but estimating the amount of non-friable asbestos removal/disposal at the
time of building renovation or demolition, per FASAB TB 2006-1, presents too much uncertainty to recognize on the Balance
Sheet.

The Army GF is also uncertain regarding the costs for remediation activities in conjunction with returning overseas military
facilities to host nations. The Army GF is currently unable to provide a reasonable estimate because the extent of remediation
required is not known.

Other Accrued Environmental Liabilities – Non-BRAC, Other consists of low-level radioactive waste.
   Note 15.	 Other Liabilities
    As of September 30                                                                  2010                           Restated 2009
    (Amounts in thousands)                                    Current Liability   Noncurrent Liability     Total           Total

    1. Intragovernmental
        A. Advances from Others                           $            86,346 $                     0 $       86,346 $         88,608
        B. Deposit Funds and Suspense Account
            Liabilities                                              251,088                        0        251,088         339,861
        C. Disbursing Officer Cash                                 1,779,631                        0      1,779,631       1,968,492
        D. Judgment Fund Liabilities                                       0                        0              0               0
        E. FECA Reimbursement to the
            Department of Labor                                      121,364               153,532          274,896          277,536
        F. Custodial Liabilities                                      50,916                 9,192           60,108           17,561
        G. Employer Contribution and Payroll
            Taxes Payable                                            135,973                     0           135,973         122,643
        H. Other Liabilities                                         336,621                     0           336,621         174,173
        I. Total Intragovernmental Other Liabilities      $        2,761,939 $             162,724 $       2,924,663 $     2,988,874
    2. Nonfederal
        A. Accrued Funded Payroll and Benefits            $        2,857,487 $                      0 $    2,857,487 $     3,156,983
        B. Advances from Others                                    1,760,221                        0      1,760,221       1,773,464
        C. Deferred Credits                                                0                        0              0               0
        D. Deposit Funds and Suspense Accounts                        76,841                        0         76,841         141,176
        E. Temporary Early Retirement Authority                            0                        0              0               0
        F. Nonenvironmental Disposal Liabilities
              (1) Military Equipment (Nonnuclear)                          0                    0                  0               0
              (2) Excess/Obsolete Structures                               0                    0                  0               0
              (3) Conventional Munitions Disposal                          0            2,072,316          2,072,316       2,072,316
        G. Accrued Unfunded Annual Leave                           4,520,402                    0          4,520,402       3,673,059
        H. Capital Lease Liability                                     3,587                3,453              7,040          11,061
        I. Contract Holdbacks                                        421,941                    0            421,941         332,204
        J. Employer Contribution and Payroll Taxes
            Payable                                                 150,546                     0            150,546         390,499
        K. Contingent Liabilities                                    61,882             1,603,304          1,665,186         997,448
        L. Other Liabilities                                            389                     0                389             154
        M. Total Nonfederal Other Liabilities             $       9,853,296 $           3,679,073 $       13,532,369 $    12,548,364
    3. Total Other Liabilities                            $      12,615,235 $           3,841,797 $       16,457,032 $    15,537,238




62	 Fiscal Year 2010 United States Army Annual Financial Report
Capital Lease Liability                                                                                                           63

                                                                                                                   Restated




                                                                                                                                  Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
 As of September 30                                                                 2010                             2009
                                                                 Land and
 (Amounts in thousands)                                          Buildings   Equipment     Other         Total         Total

 1. Future Payments Due
     A. 2011                                                 $       4,509 $         0 $           0 $     4,509 $       5,376
     B. 2012                                                         2,413           0             0       2,413         4,510
     C. 2013                                                         1,612           0             0       1,612         2,413
     D. 2014                                                           148           0             0         148         1,612
     E. 2015                                                             0           0             0           0           148
     F. After 5 Years                                                    0           0             0           0             0
     G. Total Future Lease Payments Due                      $       8,682 $         0 $           0 $     8,682 $      14,059
     H. Less: Imputed Interest Executory Costs                       1,642           0             0       1,642         2,996
     I. Net Capital Lease Liability                          $       7,040 $         0 $           0 $     7,040 $      11,063
 2. Capital Lease Liabilities Covered by Budgetary
    Resources                                                                                        $     7,040 $       9,500
 3. Capital Lease Liabilities Not Covered by
    Budgetary Resources                                                                              $           0 $     1,562



The Army identified errors of $2.0 million, which impacted ending FY 2009 Total Nonfederal Other Liabilities. The errors
were identified while migrating from a manual to an automated interface between budget execution and financial statement
reporting systems. To correct the errors, the Army restated Total Nonfederal Other Liabilities on Note 15. Refer to Note 26,
Restatements, for additional details.

Intragovernmental Other Liabilities Composition

Intragovernmental Other Liabilities consist of unemployment compensation liability.

Nonfederal Other Liabilities Composition

Nonfederal Other Liabilities consist of miscellaneous liabilities incurred by the U.S. Army Corps of Engineers.

Estimated Future Contract Financing Payments

Contingent liabilities include $371.1million related to contracts authorizing progress payments based on cost as defined in
the Federal Acquisition Regulation (FAR). In accordance with contract terms, specific rights to the contractors’ work vest with
the federal government when a specific type of contract financing payment is made. This action protects taxpayer funds in the
event of contract nonperformance. These rights should not be misconstrued as rights of ownership. The Army GF is under
no obligation to pay contractors for amounts greater than the amounts authorized in contracts until delivery and government
acceptance. Due to the probability of contractors completing their efforts and delivering satisfactory products, the Army GF
has recognized a contingent liability for estimated future payments which are conditional pending delivery and government
acceptance.

Total contingent liabilities for progress payments based on cost represent the difference between the estimated costs incurred
to date by contractors and amounts authorized to be paid under progress payments based on cost provisions within the FAR.
Estimated contractor-incurred costs are calculated by dividing the cumulative unliquidated progress payments based on cost by
the contract-authorized progress payment rate. The balance of unliquidated progress payments based on cost is deducted from
the estimated total contractor-incurred costs to determine the contingency amount.
   Note 16.	Commitments and Contingencies
   The Army GF is a party in various administrative proceedings and legal actions related to claims for environmental damage,
   equal opportunity matters, and contractual bid protests.

   The Army GF has accrued contingent liabilities for legal actions when the Office of General Counsel (OGC) considers an
   adverse decision is probable and the amount of loss is measurable. In the event of an adverse judgment against the federal
   government, some of the liabilities may be payable from the U.S. Treasury Judgment Fund. The Army GF reports Judgment
   Fund liabilities in Note 12, Accounts Payable, and Note 15, Other Liabilities.

   Nature of Contingency

   The FY 2010 Army Legal Representation Letter outlines claims against the Army GF totaling $366.0 million for which
   the Army OGC is unable to express an opinion. The historical payout percentage for these cases is less than 1 percent. To
   determine the historical payout, the Army OGC divides the total amount reported as a payout in the fiscal year by the total
   amount claimed in the Army Legal Representation Letter.

   The Army GF has other contingent liabilities for which the possibility of loss is considered reasonable. These liabilities are
   not accrued in the Army GF’s financial statements. As of September 30, 2010, the Army GF had $996.4 million in claims
   considered reasonably possible. These contingent liabilities and estimates are presented in the following table. Estimates for
   litigations, claims, and assessments are required to be fully supported. Additionally, the Army GF has coordinated with the
   Army OGC to ensure that estimates agree with the legal representation letters and management summary schedule.

                                      (Amounts in thousands)

                                          Type of Contingent Liabilities              Estimate
                                     Army Environmental Law Division                    $512,700
                                     Army Contract Appeals                                  7,584
                                     U.S. Army Claims Service                              50,122
                                     Litigation Division                                  425,973
                                     Total                                              $996,379

   Other Information Pertaining to Commitments

   The Army GF has entered into contractual commitments that require future use of financial resources. It has significant
   amounts of long-term lease obligations, undelivered orders, and cancelled accounts payable. The amount of contractual
   commitments for 4th Quarter, FY 2010 is presented in the following schedule:

                                     (Amounts in thousands)

                                               Type of Contractual Commitments
                                     Long-term lease obligations                 $7,040
                                     Undelivered orders                    $135,339,652
                                     Cancelled accounts payable                 $23,548



   The Army GF is a party in numerous individual contracts that contain clauses, such as price escalation, award fee payments, or
   dispute resolution, that may result in a future outflow of expenditures. Currently, the Army GF has limited automated system
   processes by which it captures or assesses these potential contingent liabilities; therefore, the amounts reported may not fairly
   present the Army GF’s contingent liabilities.

   Contingencies that are considered both measurable and probable have been recognized as liabilities. Refer to Note 15, Other
   Liabilities, for further details.


64	 Fiscal Year 2010 United States Army Annual Financial Report
Note 17.	 Military Retirement and Other Federal Employment Benefits                                                                                    65

 As of September 30                                                                       2010                                        2009




                                                                                                                                                       Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
                                                                                       (Less: Assets
                                                                                      Available to Pay
 (Amounts in thousands)                                               Liabilities        Benefits)       Unfunded Liabilities   Unfunded Liabilities

 1. Pension and Health Actuarial Benefits
     A. Military Retirement Pensions                             $                  0 $              0 $                   0 $                    0
     B. Military Pre Medicare-Eligible Retiree Health
        Benefits                                                                    0                0                     0                      0
     C. Military Medicare-Eligible Retiree Health Benefits                          0                0                     0                      0
     D. Total Pension and Health Benefits                        $                  0 $              0 $                   0 $                    0
 2. Other Actuarial Benefits
     A. FECA                                                     $    1,350,559 $                    0 $      1,350,559 $            1,325,170
     B. Voluntary Separation Incentive Programs                               0                      0                0                      0
     C. DoD Education Benefits Fund                                           0                      0                0                      0
     D. Other                                                    $            0 $                    0 $              0 $            1,325,170
     E. Total Other Actuarial Benefits                                1,350,559                      0        1,350,559                      0
 3. Total Military Retirement and Other Federal
    Employment Benefits:                                         $    1,350,559 $                    0 $      1,350,559 $            1,325,170


Federal Employees’ Compensation Act

The Army’s actuarial liability for workers’ compensation benefits is developed by the Department of Labor and provided to the
Army at the end of each fiscal year. The liability includes the expected liability for death, disability, medical, and miscellaneous
costs for approved compensation cases, plus a component for incurred-but-not-reported claims. The actuarial liability for the
Federal Employees’ Compensation Act increased $25.4 million between FY 2009 and FY 2010.

Actuarial Cost Method

The liability is determined using a method that utilizes historical benefit payment patterns related to a specific incurred period
to predict the ultimate payments.

Assumptions

The projected annual benefit payments are discounted to the present value using the Office of Management and Budget’s
economic assumptions for 10-year U.S. Treasury notes and bonds. Cost-of-living adjustments and medical inflation factors
provided by the Department of Labor are also applied to the calculation of projected future benefits. The estimated actuarial
liability is updated only at the end of each fiscal year.

Interest rate assumptions utilized for discounting were as follows:

2009 - 4.223%
2010 - 4.715% and thereafter

To provide more specifically for the effects of inflation on the liability for future workers’ compensation benefits, wage inflation
factors (COLAs) and medical inflation factors (CPIMs) were applied to the calculation of projected future benefits. The actual
rates for these factors for the charge-back year (CBY) 2009 were used to adjust the methodology’s historical payments to
current year constant dollars.
   The compensation COLAs and CPIMs used in the projections for various CBYs were as follows:

                                                  CBY             COLA             CPIM
                                                  2010            0.47%            3.42%
                                                  2011            1.40%            3.29%
                                                  2012            1.50%            3.48%
                                                  2013            1.80%            3.71%
                                                  2014            2.00%            3.71%

   The model’s resulting projections were analyzed to ensure that the estimates were reliable. The analysis was based on four tests:
   (1) a sensitivity analysis of the model to economic assumptions, (2) a comparison of the percentage change in the liability
   amount by agency to the percentage change in the actual incremental payments, (3) a comparison of the incremental paid
   losses per case (a measure of case-severity) in CBY 2009 to the average pattern observed during the most current three CBYs,
   and (4) a comparison of the estimated liability per case in the 2009 projection to the average pattern for the projections of the
   most recent three years.


   Note 18.	General Disclosures Related to the Statement of Net Cost
    Intragovernmental Costs and Exchange Revenue
    As of September 30                                                                  2010                  Restated 2009
    (Amounts in thousands)
    1. Intragovernmental Costs                                               $            62,623,714      $           55,453,482
    2. Public Costs                                                                      147,095,610                 162,507,331
    3. Total Costs                                                           $           209,719,324      $          217,960,813
    4. Intragovernmental Earned Revenue                                      $            (9,717,784)     $          (10,252,879)
    5. Public Earned Revenue                                                              (2,243,002)                 (2,144,850)
    6. Total Earned Revenue                                                  $           (11,960,786)     $          (12,397,729)
    7. Net Cost of Operations                                                $           197,758,538      $          205,563,084

   Definitions

   Intragovernmental costs and revenue are related to transactions made between two reporting entities within the federal
   government.

   Public costs and revenue are exchange transactions made between the reporting entity and a nonfederal entity.

   Other Information Regarding Costs

   The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the federal government supported
   by appropriations or other means. The intent of the SNC is to provide gross and net cost information related to the amount
   of output or outcome for a given program or organization administered by a responsible reporting entity. The DoD’s current
   processes and systems do not capture and report accumulated costs for major programs based upon the performance measures
   as required by the Government Performance and Results Act. The DoD is in the process of reviewing available data and
   developing a cost reporting methodology as required by the Statement of Federal Financial Accounting Standards (SFFAS)
   No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal Government,” as amended by SFFAS No. 30,
   “Inter-entity Cost Implementation.”

   The amounts presented in the Consolidated SNC are based on funding, obligation, accrual, and disbursing transactions,
   which are not always recorded using accrual accounting. The Army GF’s systems do not always record the transactions on an
   accrual basis as is required by the generally accepted accounting principles. The information presented also includes data from
   nonfinancial feeder systems to capture all cost and financing sources for the Army GF.

66	 Fiscal Year 2010 United States Army Annual Financial Report
Additional Disclosures                                                                                                               67




                                                                                                                                     Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
The Army identified errors of $822.0 million, which impacted ending FY 2009 Public Costs. The errors were identified while
migrating from a manual to an automated interface between budget execution and financial statement reporting systems. To
correct the errors, the Army restated Public Costs on Note18. Refer to Note 26, Restatements, for additional details.

The Army GF systems do not track intragovernmental transactions by customer at the transaction level. Buyer-side expenses
are adjusted to agree with internal seller-side revenues. Expenses are generally adjusted by reclassifying amounts between federal
and nonfederal expenses.

The Army GF accounting system does not capture information relative to heritage assets separately and distinctly from normal
operations. The Army GF is not able to separately identify the costs of acquiring, constructing, improving, reconstructing,
or renovating heritage assets. The Army Financial Improvement Plan outlines tasks to separately identify and report costs
associated with heritage assets by 1st Quarter, FY 2013.


Note 19.	 Disclosures Related to the Statement of Changes in Net Position
Restatements

Adjustment #1: During 3rd Quarter, FY 2010, Army implemented an automated interface from the monthly reporting system
to the quarterly reporting system. Previously amounts were manually cross walked to accounts for quarterly reporting. During
the implementation it was discovered that the crosswalk logic for many accounts was flawed, resulting in incorrect ending
balances from FY 2009. A prior-period adjustment was recognized to correct the beginning 2010 balances. The adjustment
impacted cumulative results of operations, unexpended appropriations, and net position.

Adjustment #2: Separately, during 4th Quarter FY 2010, restatements related to the Chief Financial Officer Load
Reconciliation System – Audited Financial Statements initiative revealed adjustment irregularities associated with the trading
partner process. The Army GF determined that the trading partner adjustments originally should have established advances
instead of reclassifying advances as performed in 4th Quarter, FY 2009. As a result, prior-period adjustments were made
to correct these trading elimination adjustments. The adjustment impacted total budgetary financing sources, net cost of
operations, and net position.

        (Amounts in thousands)
                               FY 2009 4th Quarter Statement of Changes in Net Position
        Cumulative Results of Operations                                                                         Rounded
        Prior Period Adjustments:
           Corrections of Errors – Adjustment #1                                      $                        381,865.7
        Budgetary Financing Sources: – Adjustment #2
           Appropriations Used – Adjustment #2                                        $                       (822,313.2)
        Other Financing Sources:
           Other (+/-) – Adjustment #1                                                                              19.3
        Total Financing Sources                                                       $                       (822,293.9)
        Net Cost of Operations (+/-)                                                  $                       (822,293.9)
        Cumulative Results of Operations                                              $                        381,865.7
        Unexpended Appropriations
        Prior Period Adjustments:
           Corrections of Errors – Adjustment #1                                      $                     (1,192,798.4)
        Beginning Balances, as adjusted – Adjustment #1                               $                     (1,192,798.4)
        Budgetary Financing Sources:
           Appropriations Used – Adjustment #2                                                                 822,313.2
        Total Budgetary Financing Sources                                             $                        822,313.2
        Unexpended Appropriations                                                     $                       (370,485.3)
        Net Position                                                                  $                         11,380.5
        Amounts may not sum due to rounding

See Note 26 for additional details.
   Other Financing Sources, Other

   Other Financing Sources, Other primarily consists of gains and losses that resulted from adjustments necessary to balance the
   Army GF’s feeder systems with DoD’s financial reporting system and to correct inherent limitations of the current financial
   systems.

   Appropriations Received

   Appropriations Received on the Statement of Changes in Net Position (SCNP) do not agree with the Appropriations Received
   on the Statement of Budgetary Resources (SBR). The total difference is $12.5 million and is due to additional resources
   included in the Appropriation Received on the SBR. Refer to Note 20, Disclosures Related to the SBR, for additional details.

   Eliminations

   In the SCNP, all offsetting balances (i.e., transfers-in and transfers-out, revenues, and expenses) for intradepartment activity
   between earmarked and other (nonearmarked) funds are reported on the same lines. The eliminations column contains all
   appropriate elimination entries, which net to zero within each respective line, except for intraentity imputed financing costs.

   Earmarked

   Earmarked Cumulative Results of Operations ending balance on the SCNP do not agree with the Earmarked Cumulative
   Results reported on the Balance Sheet because the cumulative results on the Balance Sheet are presented net of eliminations.


   Note 20.	Disclosures Related to the Statement of Budgetary Resources
    As of September 30                                                                             2010            Restated 2009
    (Amounts in thousands)
    1. Net Amount of Budgetary Resources Obligated for Undelivered Orders at the
       End of the Period                                                                     $    136,696,725 $        130,875,021
    2. Available Borrowing and Contract Authority at the End of the Period                   $              0 $                  0


   The Army identified errors of $425.2 million, which impacted ending FY 2009 Net Amount of Budgetary Resources
   Obligated for Undelivered Orders at the End of the Period. The errors were identified while migrating from a manual to an
   automated interface between budget execution and financial statement reporting systems. To correct the errors, the Army
   restated Net Amount of Budgetary Resources Obligated for Undelivered Orders at the End of the Period on Note 20. Refer to
   Note 26, Restatements, for additional details.

   Undelivered Orders

   Undelivered Orders presented in the Statement of Budgetary Resources (SBR) include Undelivered Orders-Unpaid for both
   direct and reimbursable funds.

   Reporting of Appropriations Received

   Appropriations received as reported on the SBR do not agree with appropriations received as reported on the Statement
   of Changes in Net Position because of differences between proprietary and budgetary accounting concepts and reporting
   requirements. These differences, totaling $12.5 million, consist of the receipts for special and trust funds.




68	 Fiscal Year 2010 United States Army Annual Financial Report
Presentation of Statement of Budgetary Resources                                                                                    69




                                                                                                                                    Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
The SBR includes intraentity transactions because the statements are presented as combined.

Breakdown of Apportionment Categories

The amount of direct and reimbursable obligations incurred against amounts apportioned under Category A (apportioned by
fiscal quarter), Category B (apportioned by project or activity), and Exempt from Apportionment is as follows:

                           (Amounts in billions)
                           Budgetary                                  Direct        Reimbursable
                           Category A                                    $186.65            $0.00
                           Category B                                      66.68            30.10
                           Exempt from Apportionment                         0.01            0.00
                              Total                                      $253.34          $30.10

                           (Amount in thousands)
                           Non-Budgetary                              Direct        Reimbursable
                           Category A                                    $136.70            $0.00

The above disclosure agrees with the aggregate of the related information as reported on the Budgetary Execution Report and
Obligations Incurred as reported on the SBR.

The use of unobligated balances of the expired funding is restricted by time limit, purpose, and obligation limitations

Terms of Borrow Authority

Borrowing authority is used for guaranteed loan defaults relating to the Armament Retooling and Manufacturing Support
(ARMS) Initiative. This initiative is designed to encourage commercial use of inactive Army GF ammunition plants through
many incentives for businesses willing to locate to a government ammunition production facility. The Army GF, by means of
ARMS Initiative legislation, established a loan guarantee program to facilitate commercial firms’ use of specified ammunition
manufacturing facilities. The Army GF and Department of Agriculture Rural Business-Cooperative Service (RBS) established a
memorandum of understanding for the RBS to administer the ARMS Initiative Loan Guarantee Program.

Borrowings are repaid on Standard Form 1151, Nonexpenditure Transfer Authorization, as maturity dates become due. For
liquidating accounts, maturity dates are one working day prior to the anniversary date of the note. For financing accounts,
maturity dates are based on the period of time used in the subsidy calculation, not the contractual term of the agency's loans to
borrowers.

There is no borrowing authority available as of September 30, 2010.
   Note 21.	Reconciliation of Net Cost of Operations to Budget
    As of September 30                                                                      2010          Restated 2009
    (Amounts in thousands)
    Resources Used to Finance Activities:
    Budgetary Resources Obligated:
    1. Obligations incurred                                                            $   283,446,916 $      276,367,128
    2. Less: Spending authority from offsetting collections and recoveries (-)             (51,224,173)       (51,532,366)
    3. Obligations net of offsetting collections and recoveries                        $   232,222,743 $      224,834,762
    4. Less: Offsetting receipts (-)                                                          (142,173)          (416,926)
    5. Net obligations                                                                 $   232,080,570 $      224,417,836
    Other Resources:
    6. Donations and forfeitures of property                                           $             0    $             0
    7. Transfers in/out without reimbursement (+/-)                                          2,292,891         (2,462,951)
    8. Imputed financing from costs absorbed by others                                       1,240,470          1,067,410
    9. Other (+/-)                                                                           3,587,834         (3,264,674)
    10. Net other resources used to finance activities                                 $     7,121,195    $    (4,660,215)
    11. Total resources used to finance activities                                     $   239,201,765    $   219,757,621
    Resources Used to Finance Items not Part of the Net Cost of Operations:
    12. Change in budgetary resources obligated for goods, services and benefits
        ordered but not yet provided:
         12a. Undelivered Orders (-)                                                   $    (5,821,728) $       2,174,477
         12b. Unfilled Customer Orders                                                       2,658,704            364,842
    13. Resources that fund expenses recognized in prior Periods (-)                        (4,030,203)        (5,251,214)
    14. Budgetary offsetting collections and receipts that do not affect Net Cost of
        Operations                                                                             146,719            416,944
    15. Resources that finance the acquisition of assets (-)                               (35,780,900)       (26,767,400)
    16. Other resources or adjustments to net obligated resources that do not
        affect Net Cost of Operations:
         16a. Less: Trust or Special Fund Receipts Related to exchange in the
            Entity’s Budget (-)                                                                      0                  0
         16b. Other (+/-)                                                                   (5,870,104)         4,672,908
    17. Total resources used to finance items not part of the Net Cost of Operations   $   (48,697,512) $     (24,389,443)
    18. Total resources used to finance the Net Cost of Operations                     $   190,504,253 $      195,368,178




70	 Fiscal Year 2010 United States Army Annual Financial Report
                                                                                                                                  71




                                                                                                                                 Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
 As of September 30                                                                           2010          Restated 2009
 (Amounts in thousands)
 Components of the Net Cost of Operations that will not Require or Generate Resources in the Current Period:
 Components Requiring or Generating Resources in Future Period:
 19. Increase in annual leave liability                                       $    764,838 $         328,097
 20. Increase in environmental and disposal liability                                     0                0
 21. Upward/Downward reestimates of credit subsidy expense (+/-)                          0                0
 22. Increase in exchange revenue receivable from the public (-)                    16,035                 0
 23. Other (+/-)                                                                 1,001,654           185,903
 24. Total components of Net Cost of Operations that will Require or Generate
    Resources in future periods                                               $  1,782,527 $         514,000
 Components not Requiring or Generating Resources:
 25. Depreciation and amortization                                            $ 10,400,454 $       9,637,151
 26. Revaluation of assets or liabilities (+/-)                                           0               19
 27. Other (+/-)
     27a. Trust Fund Exchange Revenue                                                     0                0
     27b. Cost of Goods Sold                                                              0                0
     27c. Operating Material and Supplies Used                                            0                0
      27d. Other                                                                (4,928,696)           43,736
 28. Total Components of Net Cost of Operations that will not Require or
    Generate Resources                                                        $  5,471,758 $       9,680,906

 29. Total components of Net Cost of Operations that will not Require or
    Generate Resources in the current period                                            $     7,254,285     $ 10,194,906
 30. Net Cost of Operations                                                             $   197,758,538     $ 205,563,084


The Army identified errors of $822.3 million, which impacted ending FY 2009 Net Cost of Operations. The errors were
identified while migrating from a manual to an automated interface between budget execution and financial statement
reporting systems. To correct the errors, the Army restated Net Cost of Operations on Note 21. Refer to Note 26, Restatements,
for additional details.

Required Disclosures

Due to the Army GF’s financial system limitations, budgetary data do not agree with proprietary expenses and capitalized
assets. The difference between budgetary and proprietary data is a previously identified deficiency.

The amount of the adjustment to the note schedule to bring it into balance with the Statement of Net Cost totaled
$762.5 million and was reported in the category of Other Components Not Requiring or Generating Resources.

The Reconciliation of Net Cost of Operations to Budget is intended to explain and define the relationship between net
obligations from budgetary accounting and net cost of operations from proprietary accounting. The following Reconciliation
of Net Cost of Operations to Budget lines is presented as combined instead of consolidated due to intraagency budgetary
transactions not being eliminated:

     n	 Obligations incurred
     n	 Less: Spending authority from offsetting collections and recoveries
     n	 Obligations net of offsetting collections and recoveries
        n	 Less: Offsetting receipts
        n	 Net obligations
        n	 Undelivered Orders
        n	 Unfilled Customer Orders

   Budgetary Resources Obligated, Other include (1) other gains and losses and (2) gains and losses on disposition of assets.
   These other gains and losses resulted from adjustments necessary to balance the Army GF’s feeder systems with DoD’s financial
   reporting system and to correct inherent limitations of the current financial systems.

   Other resources or adjustments to net obligated resources that do not affect Net Cost of Operations, Other include financing
   sources transferred in and out without reimbursement, other gains and losses, and gains and losses on disposition of assets.

   Components Requiring or Generating Resources in Future Period, Other represent increases in future-funded expenses for
   conventional disposal costs and contingent liabilities for contract appeals and tort claims.

   Components not Requiring or Generating Resources, Other are comprised of other expenses not requiring budgetary
   resources for the Iraqi Relief and Reconstruction Fund. The Iraqi Relief and Reconstruction Fund is a transfer fund in which
   the Army GF executes the funding on behalf of the Executive Office of the President. The U.S. Treasury requires that the
   execution for this type of transfer is presented on the Army GF financial statements.


   Note 22.	Disclosures Related to Incidental Custodial Collections
   The Army GF does not collect incidental custodial revenues.




72	 Fiscal Year 2010 United States Army Annual Financial Report
Note 23.	 Earmarked Funds                                                                                                    73

                                                                                       2010




                                                                                                                             Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
                                                                     Medicare-
BALANCE SHEET                                         Military         Eligible         Other
As of September 30                                   Retirement     Retiree Health    Earmarked
(Amounts in thousands)                                 Fund          Care Fund          Funds     Eliminations     Total
ASSETS
Fund balance with Treasury                       $                0 $           0 $     60,530    $          0 $   60,530
Investments                                                       0             0        3,218               0      3,218
Accounts and Interest Receivable                                  0             0            0               0          0
Other Assets                                                      0             0            0               0          0
Total Assets                                     $                0 $           0 $     63,748    $          0 $   63,748
LIABILITIES and NET POSITION
Military Retirement Benefits and Other Federal
  Employment Benefits                            $                0 $           0 $          0    $          0 $        0
Other Liabilities                                                 0             0        5,062               0      5,062
Total Liabilities                                $                0 $           0 $      5,062    $          0 $    5,062
Unexpended Appropriations                                         0             0            0               0          0
Cumulative Results of Operations                                  0             0       58,686               0     58,686
Total Liabilities and Net Position               $                0 $           0 $     63,748    $          0 $   63,748

STATEMENT OF NET COST
For the period ended September 30
Program Costs                                    $                0 $           0 $     11,552 $             0 $   11,552
Less: Earned Revenue                                              0             0         (160)              0       (160)
Net Program Costs                                $                0 $           0 $     11,392 $             0 $   11,392
Less: Earned Revenue Not Attributable to
  Programs                                                        0             0            0               0          0
Net Cost of Operations                           $                0 $           0 $     11,392    $          0 $   11,392

STATEMENT OF CHANGES IN NET POSITION
For the period ended September 30
Net Position Beginning of the Period             $                0 $           0 $     57,671 $             0 $   57,671
Net Cost of Operations                                            0             0       11,392               0     11,392
Budgetary Financing Sources                                       0             0       12,552               0     12,552
Other Financing Sources                                           0             0         (145)              0       (145)
Change in Net Position                           $                0 $           0 $      1,015 $             0 $    1,015
Net Position End of Period                       $                0 $           0 $     58,686 $             0 $   58,686
                                                                                                    2009
                                                                                  Medicare-
    BALANCE SHEET                                                  Military         Eligible         Other
    As of September 30                                            Retirement     Retiree Health    Earmarked
    (Amounts in thousands)                                          Fund          Care Fund          Funds     Eliminations       Total
    ASSETS
    Fund balance with Treasury                               $                 0 $           0 $     56,662    $        0 $        56,662
    Investments                                                                0             0        3,241             0           3,241
    Accounts and Interest Receivable                                           0             0        2,849        (2,756)             93
    Other Assets                                                               0             0            0             0               0
    Total Assets                                             $                 0 $           0 $     62,752    $   (2,756) $       59,996
    LIABILITIES and NET POSITION
    Military Retirement Benefits and Other Federal
      Employment Benefits                                    $                 0 $           0 $          0    $        0 $             0
    Other Liabilities                                                          0             0        5,081          (211)          4,870
    Total Liabilities                                        $                 0 $           0 $      5,081    $    ( 211) $        4,870
    Unexpended Appropriations                                                  0             0            0             0               0
    Cumulative Results of Operations                                           0             0       57,671             0          57,671
    Total Liabilities and Net Position                       $                 0 $           0 $     62,752    $    ( 211) $       62,541

    STATEMENT OF NET COST
    For the period ended September 30
    Program Costs                                            $                 0 $           0 $     12,293    $         0    $    12,293
    Less: Earned Revenue                                                       0             0          602              0            602
    Net Program Costs                                        $                 0 $           0 $     12,895    $         0    $    12,895
    Less: Earned Revenue Not Attributable to
      Programs                                                                 0             0            0              0              0
    Net Cost of Operations                                   $                 0 $           0 $     12,895    $         0    $    12,895

    STATEMENT OF CHANGES IN NET POSITION
    For the period ended September 30
    Net Position Beginning of the Period                     $                 0 $           0 $     52,946 $            0    $   52,946
    Net Cost of Operations (+/-)                                               0             0       12,895              0        12,895
    Budgetary Financing Sources                                                0             0       18,734              0        18,734
    Other Financing Sources                                                    0             0       (1,114)             0        (1,114)
    Change in Net Position                                   $                 0 $           0 $      4,725 $            0    $     4,725
    Net Position End of Period                               $                 0 $           0 $     57,671 $            0    $   57,671


   Earmarked Funds

   Earmarked Funds represent funds received from outside sources for specific purposes. The Army GF receives earmarked funds
   for the following appropriations:

        n	 Sale of Hunting and Fishing Permits. Fees are received from individuals for the issuance of special hunting and
             fishing permits. The funds for this account are used for wildlife, fish, and game conservation and rehabilitation on
             military reservations. Title 10, United States Code (USC) 670b gives the authority to collect funds for this purpose
             and distribute the funds for the intended purposes.

        n	 Restoration of Rocky Mountain Arsenal. Funds are received from private industry for the cleanup of
             contamination areas of Rocky Mountain Arsenal. Public Law (PL) 99-661, Section 1367 provides the authority for
             this explicit use.



74	 Fiscal Year 2010 United States Army Annual Financial Report
     n	 Royalties for Use of DoD-Military Insignia and Trademarks. Funds are received from the sale of commemorative                75
          memorabilia, trademarks, and licensing activities. The funds are used to replenish inventory stock for such items and




                                                                                                                                    Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
          other related commemorative program expenses. The authority to create expenditures originates from PL 102-484,
          Section 378.

     n	 Forest and Wildlife Conservation, Military Reservations. These funds are produced from the sale of forest
          products that are in excess of operation and maintenance expenses at fiscal year-end for the payment of entitlements
          to states. The authority and directive for this fund originates from Title 10, USC 2665.

     n	 National Science Center. Funds received from the collection of fees for the use of the National Science Center and
          use for the operation and maintenance of the National Science Center as authorized under PL 99-145, Defense
          Authorization Act, 1986, Section 1459.

     n	 Bequest of Major General Fred C. Ainsworth to Walter Reed Army Medical Center. Funds received from interest
          on investments for the use of purchasing supplies and equipment for the library at Walter Reed Army Medical
          Center. The Army cannot currently identify the statutory citation that provides authority for the use of this fund. The
          appropriation for this earmark is 21X8063.

     n	 Department of the Army General Gift Fund. Funds are received from private parties and estates and used for
          various purposes. Title 10, USC 2601 establishes the authority governing the use of this fund.

The Total Earmarked Funds column is shown as consolidated and relates only to Earmarked Funds. The elimination column
on this note includes only eliminations associated with Earmarked Funds and excludes the offsetting eliminations from All
Other Funds. This exclusion causes assets to not equal liabilities and net position in the note. However, the amounts in the
total column equal the amounts reported for Earmarked Funds on the Balance Sheet.


Note 24.	Fiduciary Activities
Schedule of Fiduciary Activity
 As of September 30                                                                 2010                        2009
 (Amounts in thousands)
 1. Fiduciary net assets, beginning of year                               $                 135,244    $                128,313
 2. Fiduciary revenues                                                    $                       0    $                      0
 3. Contributions                                                                           171,329                     188,004
 4. Investment earnings                                                                      12,169                      12,615
 5. Gain (Loss) on disposition of investments, net                                                0                           0
 6. Administrative and other expenses                                                             0                           0
 7. Distributions to and on behalf of beneficiaries                                        (198,857)                   (193,688)
 8. Increase/(Decrease) in fiduciary net assets                           $                 (15,359)   $                  6,931
 9. Fiduciary net assets, end of period                                   $                 119,885    $                135,244

Schedule of Fiduciary Net Assets
 As of September 30                                                                 2010                        2009
 (Amounts in thousands)
 Fiduciary Assets
 1. Cash and cash equivalents                                             $                119,885     $               135,244
 2. Investments                                                                                  0                           0
 3. Other Assets                                                                                 0                           0
 Fiduciary Liabilities
 4. Less: Liabilities                                                                            0                           0
 5. Total Fiduciary Net Assets                                            $                119,885     $               135,244
   Fiduciary activities are those federal government activities that relate to the collection or receipt, and the subsequent
   management, protection, accounting, investment and disposition of cash or other assets in which nonfederal individuals or
   entities have an ownership interest that the federal government must uphold. The DoD has a fiduciary duty to the Savings
   Deposit Program in which the Army GF participates. Public Law 89-538 authorizes DoD, through the Savings Deposit
   Program, to collect a voluntary allotment from the current pay of members of the Armed Forces deployed outside the U.S.
   or its possessions in designated areas. The Army GF collects the savings and allotments of soldiers, and the collections and
   accrued earned interest are transferred to the program’s executive agent, the Navy GF. These fiduciary assets are not assets of the
   Army GF and are not recognized on the Army GF’s balance sheet.


   Note 25.	Other Disclosures
    As of September 30                                                                              2010
                                                                          Land and
    (Amounts in thousands)                                                Buildings     Equipment          Other           Total
    1. ENTITY AS LESSEE-Operating Leases
       Future Payments Due
       Fiscal Year
            2010                                                      $           0 $               0 $            0 $            0
            2011                                                                 67                 0              0             67
            2012                                                                 67                 0              0             67
            2013                                                                 67                 0              0             67
            2014                                                                 67                 0              0             67
            2015                                                                 67                 0              0             67
            After 5 Years                                                    15,284                 0              0         15,284
    Total Future Lease Payments Due                                   $      15,619 $               0 $            0 $       15,619



   Note 26.	Restatements
   Adjustment #1: During 3rd Quarter, FY 2010, the Army GF implemented an automated interface from the monthly
   reporting system to the quarterly reporting system, also known as the Chief Financial Officer Load Reconciliation System –
   Audited Financial Statements (CLRS-AFS) initiative. Previously, amounts were manually crosswalked to accounts for quarterly
   reporting. During the implementation, it was discovered that the crosswalk logic for many accounts was flawed, resulting
   in incorrect ending balances from FY 2009. A prior-period adjustment was recognized to correct the beginning FY 2010
   balances. The adjustment impacted assets, liabilities, unexpended appropriations, and cumulative results of operations. It
   impacted the Balance Sheet, the Statement of Net Cost, the Statement of Changes in Net Position (SCNP), and the Statement
   of Budgetary Resources.

   Adjustment #2: Separately, during 4th Quarter FY 2010, restatements related to the CLRS-AFS initiative revealed adjustment
   irregularities associated with the trading partner process. The Army GF determined that the trading partner adjustments
   originally should have established advances instead of reclassifying advances as performed in 4th Quarter, FY 2009. As a
   result, prior-period adjustments were made to correct these trading elimination adjustments. These adjustments affected assets,
   unexpended appropriations, and program costs, which, in turn, affected the Balance Sheet, the SCNP, and the Statement of
   Net Cost.




76	 Fiscal Year 2010 United States Army Annual Financial Report
The following chart reflects the cumulative effect on the Army GF’s balances reported in the comparative period:           77




                                                                                                                           Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
      (Amounts in thousands)
                                            FY 2009 4th Quarter Balance Sheet
                                                                                                             Rounded
      Accounts Receivable – Adjustment #1                                                     $                 460.5
      Other Assets – Adjustment #1                                                                         (822,313.2)
      Other Assets – Adjustment #2                                                                          822,313.2
      Total Assets                                                                            $                 460.5

      Accounts Payable – Adjustment #1                                                        $               (8,964.0)
      Other Liabilities – Adjustment #1                                                                       (1,955.9)
      Total Liabilities                                                                       $              (10,920.0)

      Unexpended Appropriations - Other Funds – Adjustment #1                                 $          (1,192,798.4)
      Unexpended Appropriations - Other Funds – Adjustment #2                                               822,313.2
      Cumulative Results of Operations - Earmarked Funds – Adjustment #1                                        460.5
      Cumulative Results of Operations - Other Funds – Adjustment #1                                        381,405.2
      Total Net Position                                                                      $              11,380.5

      Total Liabilities and Net Position                                                      $                    460.5

                             FY 2009 4th Quarter Statement of Changes in Net Position
      Cumulative Results of Operations                                                                        Rounded
      Prior Period Adjustments:
         Corrections of Errors – Adjustment #1                                      $                       381,865.7
      Budgetary Financing Sources: – Adjustment #2
         Appropriations Used – Adjustment #2                                        $                      (822,313.2)
      Other Financing Sources:
         Other (+/-) – Adjustment #1                                                                             19.3
      Total Financing Sources                                                                              (822,293.9)
      Net Cost of Operations (+/-)                                                                         (822,293.9)
      Cumulative Results of Operations                                              $                       381,865.7
      Unexpended Appropriations
      Prior Period Adjustments:
         Corrections of Errors – Adjustment #1                                      $                    (1,192,798.4)
      Beginning Balances, as adjusted – Adjustment #1                               $                    (1,192,798.4)
      Budgetary Financing Sources:
         Appropriations Used – Adjustment #2                                                                822,313.2
      Total Budgetary Financing Sources                                             $                       822,313.2
      Unexpended Appropriations                                                     $                      (370,485.3)
      Net Position                                                                  $                        11,380.5
      Amounts may not sum due to rounding
          (Amounts in thousands)
                                  FY 2009 4th Quarter Statement of Budgetary Resources
          Budgetary Resources                                                                       Rounded
          Unobligated Balance, brought forward, October 1 – Adjustment #1              $        (1,287,931.3)
          Budget Authority:
          Earned:
             Change in receivables from Federal sources – Adjustment #1                               460.5
          Change in unfilled customer orders:
             Advance received – Adjustment #1                                                         (230.2)
          Subtotal – Adjustment #1                                                                     230.4
          Total Budgetary Resources                                                    $        (1,287,700.9)

          Status of Budgetary Resources
          Obligations Incurred:
             Direct – Adjustment #1                                                         $   (1,682,403.3)
             Reimbursable – Adjustment #1                                                          424,186.0
             Subtotal – Adjustment #1                                                           (1,258,217.3)
          Unobligated Balance:
             Exempt from apportionment – Adjustment #1                                                 460.5
             Subtotal – Adjustment #1                                                                  460.5
          Unobligated Balance not Available – Adjustment #1                                        (29,944.1)
          Total Status of Budgetary Resources                                               $   (1,287,700.9)

          Change in Obligated Balance
          Obligations Incurred Net (+/-)– Adjustment #1                                     $   (1,258,217.3)
          Less: Gross Outlays – Adjustment #1                                                    1,288,161.4
          Change in uncollected customer payments from Federal sources (-)– Adjustment
            #1                                                                                        (460.5)
          Obligated balance, net, end of period:
             Unpaid obligations – Adjustment #1                                                    29,944.1
             Less: Uncollected customer payments from Federal sources (-)– Adjustment
                #1                                                                                   (460.5)
             Total, unpaid obligated balance, net, end of period – Adjustment #1            $      29,483.6

          Net Outlays
             Gross Outlays – Adjustment #1                                                  $   (1,288,161.4)
             Less: Offsetting Collections – Adjustment #1                                              230.1
          Net Outlays                                                                       $   (1,287,931.3)

                                                FY 2009 4th Quarter Statement of Net Cost
          Program Costs                                                                            Rounded
             Gross Costs – Adjustment #1                                                    $          19.3
             Gross Costs – Adjustment #2                                                         (822,313.2)
             Net Program Costs – Adjustment #1                                                         19.3
             Net Program Costs – Adjustment #2                                                   (822,313.2)
          Net Cost of Operations                                                            $    (822,293.9)
          Amounts may not sum due to rounding




78	 Fiscal Year 2010 United States Army Annual Financial Report
FY 2010 Required Supplementary Stewardship Information                                                                                79




                                                                                                                                      Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
The following summarizes nonfederal physical property. Investments in non-federal physical property refers to those expenses
incurred by the Army for the purchase, construction, or major renovation of physical property owned by state and local
governments, including major additions, alterations, and replacements; the purchase of major equipment; and the purchase of
improvement to other physical assets. A schedule of estimated investments value of state-owned properties that are used by the
federal government is shown below.




                    Nonfederal Physical Property Yearly Investment in State and Local Governments
                                          for Fiscal Years 2006 through 2010
                                                    (Amounts in millions)
                             (a)                       (b)            (c)           (d)          (e)            (f)
           Categories                                FY 2010        FY 2009       FY 2008      FY 2007        FY 2006
           Transferred Assets:
           1. National Defense Mission Related          $ 22.2          $26.7         $34.2        $23.0          $66.5
           Funded Assets:
           2. National Defense Mission Related               0              0             0            0              0
           Totals                                       $ 22.2          $26.7         $34.2        $23.0          $66.5



The Army GF incurs investments in nonfederal physical property for the purchase, construction, or major renovation of
physical property owned by state and local governments, including major additions, alterations, and replacements, the
purchase of major equipment, and the purchase or improvement of other nonfederal assets. In addition, nonfederal physical
property investments include federally-owned physical property transferred to state and local governments.

Investment values included in this report are based on nonfederal physical property outlays (expenditures). Outlays are
used because current department accounting systems are unable to capture and summarize costs in accordance with federal
accounting standards.

The following summarizes basic research, applied research, and development investments and provides examples of each.

              Investments in Research and Development Yearly Investment in Research and Development
                                         for Fiscal Years 2006 through 2010
                                                    (Amounts in millions)
                           (a)                                   (b)            (c)           (d)            (e)            (f)
 Categories                                                    FY 2010        FY 2009       FY 2008        FY 2007        FY 2006
 Basic Research                                                   $405.5         $392.7        $345.9         $348.9        $355.4
 Applied Research                                                  728.3        1,191.1       1,147.4        1,115.2        1,006.8
 Development
 Advanced Technology Development                                    941.0       1,341.8       1,336.5        1,576.2        1,369.3
      Advanced Component Development and Prototypes                 781.3       1,023.8         719.8          585.3          659.7
      Systems Development and Demonstration                       1,913.7       4,883.9       4,981.4        5,026.1        4,963.5
      Research, Development, Test and Evaluation
      Management Support                                            726.3       1,387.1       1,317.1        1,336.7        1,287.5
 Operational Systems Development                                    690.2       1,700.9       1,459.2        1,380.5        1,218.7
 Totals                                                          $6,186.3     $11,921.4     $11,307.3      $11,368.9      $10,860.9
   Narrative Statement:
   Investment values included in this report are based on research and development (R&D) outlays (expenditures). Outlays are
   used because current department accounting systems are unable to capture and summarize costs in accordance with federal
   accounting standards. Research and development programs are classified in the following categories: basic research, applied
   research, and development. The definition for each type of R&D category and subcategories is explained below.

   Basic Research is the systematic study to gain knowledge or understanding of the fundamental aspects of phenomena and
   observable facts without specific applications, processes, or products in mind. Basic research involves the gathering of a fuller
   knowledge or understanding of the subject under study. Major outputs are scientific studies and research papers.

   The following are two representative program examples for each of the major categories:

   Defense Research Sciences (PE 0601102A): This program fosters fundamental scientific knowledge and contributes to
   the sustainment of Army scientific and technological superiority in land warfighting capability; provides new concepts and
   technologies for the Army’s future force; and provides the means to exploit scientific breakthroughs and avoid technological
   surprises. It fosters innovation in Army niche areas (such as lightweight armor, energetic materials, night vision) and when the
   commercial incentive to invest is lacking due to limited markets, e.g., vaccines for tropical diseases. It also focuses universal
   single investigators on research areas of Army interest, such as high-density compact power and novel sensor phenomenologies.
   The in-house portion of the program capitalizes on the Army’s scientific talent and specialized facilities to expeditiously
   transition knowledge and technology into the appropriate developmental activities. The extramural program leverages the
   research efforts of other government agencies, academia, and industry. This translates to a coherent, well-integrated program
   which is executed by four primary contributors: (1) the Army Research, Development, and Engineering Command; (2) the
   U.S. Army Engineer Research and Development Center; (3) the Army Medical Research and Materiel Command laboratories;
   and,(4) the Army Research Institute for Behavioral and Social Sciences. The basic research program is coordinated with the
   other services via Defense Science and Technology Reliance (Defense Basic Research Advisory Group) and other inter-service
   working groups. This program responds to the scientific and technological requirements of the DoD Basic Research Plan by
   enabling technologies that can significantly improve joint warfighting capabilities. The projects in this program involve basic
   research efforts directed toward providing fundamental knowledge that will contribute to the solution of military problems
   related to long-term national security needs.

   University and Industry Research Centers (PE 0601104A): A significant portion of the work performed within this
   program directly supports future force requirements by providing research that supports enabling technologies for future
   force capabilities. Broadly, the work in this project falls into three categories: collaborative technology alliances (CTAs),
   university COEs, and paradigm-shifting centers, university-affiliated research centers (UARCs). The Army has formed CTAs
   to leverage large investments by the commercial sector in basic research areas that are of great interest to the Army. The CTAs
   involve partnerships among industry, academia, and the Army Research Laboratory (ARL) to incorporate the practicality of
   industry; the expansion of the boundaries of knowledge from universities; and the ability of Army scientists to shape, mature
   and transition technology. The CTAs have been competitively established in the areas of advanced sensors, advanced decision
   architecture, communications and networks, power and energy, and robotics. This program element includes the Army’s
   COE, which focus on expanding the frontiers of knowledge in research areas where the Army has enduring needs, such as
   rotorcraft, automotive, microelectronics, materials, and information sciences. The COEs couple state-of-the-art research
   programs at academic institutions with broad-based graduate education programs to increase the supply of scientists and
   engineers in information sciences, materials science, electronics, automotive, and rotary-wing technology. Also included is
   eCYBERMISSION, the Army’s national, web-based competition to stimulate interest in science, math, and technology among
   middle and high school students. This program also includes the four Army UARCs, which have been created to exploit
   opportunities to advance new capabilities through a sustained long-term, multi-disciplinary effort. The Institute of Advanced
   Technology funds basic research in electromagnetics and hypervelocity physics. The Institute for Soldier Nanotechnologies
   (ISN) focuses on Soldier protection by emphasizing revolutionary materials research for advanced Soldier protection and


80	 Fiscal Year 2010 United States Army Annual Financial Report
survivability. The Institute for Collaborative Biotechnologies, focusing on enabling network-centrictechnologies, will broaden     81
the Army’s use of biotechnology for the development of bio-inspired materials, sensors, and information processing. The




                                                                                                                                   Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
Institute for Creative Technologies is a partnership with academia and the entertainment and gaming industries to leverage
innovative research and concepts for training and simulation.

Applied Research is the systematic study to gain knowledge or understanding necessary for determining the means by which
a recognized and specific need may be met. It is the practical application of such knowledge or understanding for the purpose
of meeting a recognized need. This research points toward specific military needs with a view toward developing and evaluating
the feasibility and practicability of proposed solutions and determining their parameters. Major outputs are scientific studies,
investigations, research papers, hardware components, software codes, and limited construction of, or part of, a weapon system
to include non-system specific development efforts.

The following are two representative program examples for this category:

Materials Technology (PE 0602105A): This program funds research and evaluation of materials technologies for armor
and armaments that will significantly enhance the survivability and lethality of future force systems and, when feasible, can
be exploited to enhance the current force. This program builds on materials research transitioned from the Defense Research
Sciences Materials and Mechanics project and applies it to specific Army platforms and the individual Soldier. This program is
directed toward developing materials technology that contributes to making heavy forces lighter and more deployable and light
forces more lethal and survivable. The program provides the technology base required for solving materials-related problems
in individual Soldier support equipment, armor, armaments, aircraft, ground and combat vehicles, and combat support. This
program also funds collaborative research efforts in nanomaterials technology among the ARL, the ISN at the Massachusetts
Institute of Technology, and the ISN industry partners. The effort is focused specifically on the improvement in individual
Soldier protection.

Combat Vehicle and Automotive Technology (PE 0602601A): This program researches, investigates, and applies combat
vehicle and automotive component technologies that enhance survivability, mobility, sustainability, and maintainability of
Army ground combat and tactical vehicles. As combat vehicle systems become smaller and lighter, and tactical vehicles are
more often exposed to combat conditions, one of the greatest technological and operational challenges is providing adequate
crew protection without reliance on heavy, passive armor. This challenge will be met using a layered approach, including long-
range situational awareness, advanced lightweight opaque and transparent armors, active protection systems, and multi-spectral
signature reduction. Another focus of the program is on designing, fabricating, and evaluating performance of integrated and
add-on lightweight armor packages needed to provide lightweight combat vehicles protection against chemical energy and
kinetic energy threats with less than one-fourth the weight of conventional heavy armor. The program also designs, fabricates,
and evaluates structural and add-on armors for tactical vehicles. This program funds the National Automotive Center (NAC).
The goal of the NAC is to leverage large, commercial investments in automotive technology, research, and development by
pursuing automotive-oriented technology programs that have potential benefit to military ground vehicles. The research and
investigation of a variety of enabling technologies in the areas of hybrid electric propulsion, mobility, thermal management,
intelligent systems, vehicle diagnostics, fuels/lubricants, and water purification is also part of the program function. Future
force vehicles and new tactical vehicles are being designed with hybrid electric architectures, advanced high-power density
engines, and auxiliary power units that provide power for propulsion, control systems, communications, life support systems,
electromagnetic armor, Soldier battery charging, and export to other systems.

Development takes what has been discovered or learned from basic and applied research and uses it to establish technological
feasibility, assessment of operability, and production capability. Development is comprised of the five stages defined below.

     1.	 Advanced Technology Development is the systematic use of the knowledge or understanding gained from research
         directed toward proof of technological feasibility and assessment of operations and productibility rather than the
             development of hardware for service use. It employs demonstration activities intended to prove or test a technology
             or method.

        2.	 Advanced Component Development and Prototypes (ACD&P) evaluates integrated technologies in as realistic
            an operating environment as possible to assess the performance or cost reduction potential of advanced technology.
            Programs in this phase are generally system specific. Major outputs of ACD&P are hardware and software
            components, or complete weapon systems ready for operational and developmental testing and field use.

        3.	 System Development and Demonstration concludes the program or project and prepares it for production. It
            consists primarily of pre-production efforts, such as logistics and repair studies. Major outputs are weapons systems
            finalized for complete operational and developmental testing.

        4.	 Research, Development, Test & Evaluation Management Support is support for installations and operations for
            general R&D use. This category includes costs associated with test ranges, military construction maintenance support
            for laboratories, operation and maintenance of test aircraft and ships, and studies and analyses in support of the
            R&D program.

        5.	 Operational Systems Development is concerned with development projects in support of programs or upgrades
            still in engineering and manufacturing development, which have received approval for production, and for which
            production funds have been budgeted in subsequent fiscal years.

   The following are five representative program examples of development:

   Electronic Warfare Advanced Technology (PE 0603008A): The goal of this program is to provide the Army’s future force
   enabling technologies for a secure, mobile, wireless network that will operate reliably in diverse and complex terrain, in all
   environments, and, when feasible, to exploit opportunities to enhance current force capabilities. Technologies will be matured
   and demonstrated to address this challenge with distributed, mobile, secure, self-organizing communications networks. A
   key objective is to demonstrate seamlessly integrated communications technologies across all network tiers, ranging from
   unattended networks and sensors through maneuver elements and airborne/space assets. To accomplish the goal, this program
   will investigate and leverage external communication technologies and combine technology options in a series of command,
   control, communications, and computers intelligence, surveillance, and reconnaissance on-the-move experiments to measure
   the battlefield effectiveness for the future force. This program also provides protection technologies for tactical wireless
   networks against modern network attacks; smart communication technologies to network and control unmanned systems
   anywhere on the battlefield, enabling timely sensor-decider-engagement linkage to defeat critical targets; advanced antenna
   technologies for greater communications mobility, range, and throughput; and automated network management aids.

   Aviation - Advanced Development (PE 0603801A): This program provides advanced development aviation support of
   tactical programs associated with air mobility, advanced maintenance concepts and equipment, and Aircrew Integrated
   Systems. This program demonstrates the feasibility and maturity of new technology and gains understanding in order to
   evaluate utility of this technology to expedite delivery of new capabilities for Army aviation rotary-wing assets. Additionally,
   the aviation ground support equipment assets enhance the functionality of current and future aircraft by improving the
   effectiveness of maintenance and servicing operations through validating new maintenance concepts to improve man
   and machine interfaces; improving aircraft maintenance processes; reducing operation and support costs; , and inserting
   diagnostics technologies to replace obsolete and unsupportable equipment.

   Patriot/Medium Extended Air Defense System Combined Aggregate Program (CAP) (PE 0604869A): The Medium
   Extended Air Defense System (MEADS) program is a tri-national, co-development program among the U.S., Germany, and
   Italy to replace the U.S. Patriot air defense systems, Patriot and Hawk systems in Germany, and NikeHercules systems in Italy.
   The North Atlantic Treaty Organization (NATO) MEADS Management Agency (NAMEADSMA) is the NATO contracting
   authority managing the system acquisition, and providing management of the MEADS program on behalf of its participating
   nations. Within the Patriot/MEADS CAP, there are two synergistic efforts: (1) an international MEADS development effort

82	 Fiscal Year 2010 United States Army Annual Financial Report
managed by NAMEADSMA; and, (2) a U.S. effort to inject U.S.-specific capability requirements into the MEADS major end               83
items. The MEADS will provide joint and coalition forces with critical asset and defended area protection against multiple and




                                                                                                                                    Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
simultaneous attacks by short- to medium-range ballistic missiles, cruise missiles, unmanned aerial vehicles and tactical air-to-
surface missiles. The Missile Segment Enhancement (MSE) missile has been accepted as the baseline missile for MEADS. It is
being developed for the Patriot system to meet U.S. operational requirements. The MSE will provide a more agile and lethal
interceptor that increases the engagement envelope/defended area of the Patriot and the MEADS systems. The PAC-3 MSE
improves upon the current PAC-3 missile capability by providing a higher performance solid rocket motor, modified lethality
enhancer, more responsive control surfaces, upgraded guidance software, and insensitive munitions improvements.

Army Test Ranges and Facilities (0605601A): This program funds the indirect test costs associated with rapidly-testing field
systems and equipment needed in support of the Global War on Terrorism, such as individual Soldier protection equipment
and countermeasures for IEDs and up-armoring the Army’s wheeled vehicle fleet. This project sustains the developmental test
and evaluation capability required to support Army as well as joint service or other service systems’ hardware and technologies.
Unclassified systems scheduled for developmental testing encompass the entire spectrum of weapons systems. Capabilities are
also required to support system-of-systems and network-centric systems to include future combat system testing.

This project provides the institutional funding required to operate the developmental test activities required by DoD
program executive officers, program and product managers, and research, development, and engineering centers. This project
resources four DoD major range and test facility bases: White Sands Missile Range, New Mexico; Aberdeen Test Center,
Maryland; Electronic Proving Ground, Arizona; and Yuma Proving Ground, Arizona, which includes management of natural
environmental testing at Cold Regions Test Center, Fort Greely and Fort Wainwright, Alaska, and the Tropic Regions Test
Center at various locations. This project also funds the Army’s developmental test capability at Aviation Technical Test Center
and Redstone Technical Test Center, both in Alabama. Test planning and safety verification at Headquarters, U.S. Army
Developmental Test Command, Maryland, is also supported by this program.

Information Systems Security Program (0303140A): The Communications Security Equipment Program develops
information systems security (ISS) equipment and techniques required to combat threat signal intelligence capabilities and to
ensure the integrity of data networks. The Army’s Research, Development, Test, and Evaluation ISS program objective is to
implement National Security Agency-developed security technology in Army information systems. Communications security
equipment technology ensures total signal and data security for all Army information systems to include any operational
enhancement and specialized configurations.

National Defense Property, Plant, and Equipment: The Federal Accounting Standards Advisory Board revised the Statement
of Federal Financial Accounting Standards No. 6 to require the capitalization and depreciation of military equipment
(formerly National Defense Property, Plant and Equipment/ND PP&E) for FY 2003 and beyond, and encouraged early
implementation.
   FY 2010 Required Supplementary Information (RSI)

                     General Property, Plant, and Equipment Real Property Deferred Maintenance Amounts
                                           for Fiscal Year Ended September 30, 2010
                                                          (Amounts in millions)

                                                                           Current Fiscal Year
                                                           Plant               Required Work
                                                        Replacement              (Deferred
                    Property Type                          Value                Maintenance)         Percentage
                    Category 1                                $213,135                   $29,192        14%
                    Category 2                                 $36,664                    $9,823        27%
                    Category 3                                   $1,138                       $0         0%




   Narrative Statement:
   In accordance with DoD Financial Management Regulation 7000.14-R (September 2009), Volume 6B, chapter 12; paragraph
   120303.B.1., the Army’s deferred maintenance estimates for FY 2010 include all facilities in which DoD has ownership
   interest under the control of the Army. Previous deferred maintenance estimates did not include non-Army assets.

   The deferred maintenance estimates are based on the facility Q-ratings found in the Army’s real property inventory. For
   FY 2010, the Q-rating values range from 0 to 100. Deferred maintenance is calculated as follows:

   Deferred Maintenance = (100 – Q-rating) x 0.01 x plant replacement value.

   Q-ratings are determined by the Installation Status Report (ISR) for the majority of facilities and by business rule for the
   remaining facilities. During ISR data collection, facility occupants evaluate the condition of each facility against published
   standards. The inspection generates a quality improvement cost estimate for each facility based on the condition rating of each
   component of the facility and the component improvement cost factor. Improvement cost factors are developed using industry
   standards for each facility component within each facility type. Acceptable operating condition represents facilities with no
   deferred maintenance.

   The business rule Q-rating assignment of 85 for facilities between 5 and 15 years old and the business rules for nonfunctional
   facilities are new for the FY 2010 report.

   Property Categories are as follows:

        -Category 1: Buildings, structures, and utilities that are enduring and required to support an ongoing mission, including
            multi-use heritage assets

        -Category 2: Buildings, structures, and utilities that are excess to requirements or planned for replacement or disposal
            including multi-use heritage assets

        -Category 3: Buildings, structures, and utilities that are heritage assets




84	 Fiscal Year 2010 United States Army Annual Financial Report
                   Military Equipment Deferred Maintenance for Fiscal Year Ended September 30, 2010                                 85

                                                    (Amounts in thousands)




                                                                                                                                    Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
                              Major Categories
                              Aircraft                                                  $ 738,539
                              Automotive Equipment                                        173,434
                              Combat Vehicles                                             284,244
                              Construction Equipment                                       60,982
                              Electronics and Communications Systems                      824,855
                              General Purpose Equipment                                    84,188
                              Missiles                                                    126,233
                              Ordnance Weapons and Munitions                               72,895
                              Other                                                        19,705
                              Ships                                                        61,645
                              Grand Total                                              $2,446,720


The OP-30 from the FY 2010 president’s budget was used to compile the deferred depot level maintenance.

Depot Maintenance Operations and Planning System is the automated system for capturing depot-level deferred maintenance
data. The data is for SAG 123, all active components.

For the POM10-15 requirements build, the Army aligned depot maintenance requirements and priorities in support of the
ARFORGEN process. One of the planning assumptions used for the POM10-15 requirements build was to assume that
drawdown in Iraq would begin by FY 2012. Consequently, the Army adjusted programs to reflect continuance of the war and
sustainment efforts.

Additionally, the Army’s depot maintenance program requirements for FY 2010 were calculated based on input from
stakeholders through forums such as weapons systems reviews to support fleet management strategies and the OP-29
requirements submission process. The OP-29 reviews further refined requirements and program evaluation groups validated
and approved critical requirements to be funded. Funding decisions were made in accordance with the Army’s priorities
in support of ARFORGEN and the ongoing war effort. This resulted in depot maintenance base requirement funded at
23 percent. The Army was able to assume this risk due to a robust OCO-funded reset program which maintained readiness
for equipment that was either in use in support of Operation Iraqi Freedom and Operation Enduring Freedom or redeploying
back to home station.

Heritage Assets and Stewardship Land Condition Information for Fiscal Year Ended September 30, 2010

The conditions of archeological sites across the Army remain varied from poor to excellent based on a number of factors
including the environmental setting, the type of site, and the impact of Army activities from Army activities. If an Army
activity has the potential to adversely impact an archeological site eligible for the National Register of Historic Places, the
installation’s Installation Cultural Resource Management Plan (ICRMP) contains provisions for how the installation would
proceed to mitigate those impacts. The ICRMP is the plan that installations use to manage their cultural resources including
archeological sites in compliance with federal requirements. These plans provide for site protection, site conditions monitoring,
and mitigation procedures for adverse impacts to sites. Overall, the conditions of sites on Army installations are fair, based on
the Army’s cultural resource management procedures.
86	 Fiscal Year 2010 United States Army Annual Financial Report
                                                                                                              87
                                      INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE




                                                                                                              Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
                                       400 ARMY NAVY DRIVE
                                  ARLINGTON, VIRGINIA 22202-4704



                                                                                       November 9, 2010

MEMORANDUM FOR ASSISTANT SECRETARY OF THE ARMY (FINANCIAL
	                 MANAGEMENT AND COMPTROLLER)

SUBJECT: Independent Auditor’s Report on the Army General Fund FY 2010 and FY 2009
	        Basic Financial Statements (Report No. D-2011-003)

The Chief Financial Officers Act of 1990, as amended, requires the Department of Defense Inspector
General to audit the accompanying Army General Fund Consolidated Balance Sheet as of September
30, 2010 and 2009, and the Consolidated Statement of Net Cost, Consolidated Statement of Changes
in Net Position, Combined Statement of Budgetary Resources, and related notes for the fiscal years
then ended. The financial statements are the responsibility of Army management. Army management
is also responsible for implementing effective internal control and for complying with laws and
regulations.

We are unable to express an opinion on the Army General Fund FY 2010 and FY 2009 Basic Financial
Statements because of limitations on the scope of our work. Thus, the financial statements may be
unreliable. In addition to our disclaimer of opinion on the financial statements, we are including
the required Report on Internal Control and Compliance With Laws and Regulations (Report). The
Report is an integral part of our disclaimer of opinion on the financial statements and should be
considered in assessing the results of our work.

Disclaimer of Opinion on the Financial Statements
The Deputy Assistant Secretary of the Army (Financial Operations) acknowledged to us that the Army
General Fund FY 2010 and FY 2009 Basic Financial Statements would not substantially conform to
accounting principles generally accepted in the United States of America (U.S. GAAP) and that Army
financial management and feeder systems were unable to adequately support material amounts on the
financial statements as of September 30, 2010. Section 1008(d) of the FY 2002 National Defense
Authorization Act limits the Department of Defense Inspector General to performing only those
audit procedures required by generally accepted government auditing standards that are consistent
with the representations made by management. Accordingly, we did not perform auditing procedures
required by U.S. Government Accountability Office, “Government Auditing Standards,” and Office
of Management and Budget (OMB) Bulletin No. 07-04, “Audit Requirements for Federal Financial
Statements,” as amended,* to determine whether material amounts on the financial statements were
presented fairly.



*	OMB Memorandum No. 09-33, Technical Amendments to OMB Bulletin No. 07-04, “Audit Requirements for Federal
  Financial Statements,” September 23, 2009.
   Prior audits have identified, and Army General Fund management has acknowledged, the long-
   standing material internal control weaknesses identified in the Summary of Internal Control. These
   pervasive material weaknesses may affect the reliability of certain information contained in the Basic
   Financial Statements. Therefore, we are unable to express, and we do not express, an opinion on the
   Basic Financial Statements. Additionally, the purpose of the audit was not to express an opinion on
   Management’s Discussion and Analysis, Required Supplementary Stewardship Information, Required
   Supplementary Information, or Other Accompanying Information presented with the Basic Financial
   Statements. Accordingly, we express no opinion on that information.

   OMB Circular No. A-136, “Financial Reporting Requirements,” states that prior-period financial
   statements should be restated if the financial statements would be materially misstated absent
   correction of the errors. During FY 2010, the Defense Finance and Accounting Service (DFAS)
   adjusted the Army General Fund Basic Financial Statements’ beginning balances for prior-year errors.

   DFAS personnel explained that the transition from the manual Chief Financial Officer Load
   and Reconciliation System–Audited Financial Statements compilation process to the Defense
   Departmental Reporting System–Budgetary compilation process resulted in U.S. Government
   Standard General Ledger account variances. These variances made it necessary to adjust the prior-
   period beginning balances.

   Summary of Internal Control

   In planning our work, we considered the Army internal control over financial reporting and
   compliance with applicable laws and regulations. We did this to determine our procedures for auditing
   the financial statements and to comply with OMB guidance, but our purpose was not to express an
   opinion on internal control.

   Accordingly, we do not express an opinion on internal control over financial reporting and compliance
   with applicable laws and regulations. However, previously identified material weaknesses continue to
   exist in the following areas.

            n	 Financial Management Systems

            n	 Fund Balance with Treasury

            n	 Accounts Receivable

            n	 Inventory

            n	 General Property, Plant, and Equipment

            n	 Accounts Payable

            n	 Environmental Liabilities

            n	 Statement of Net Cost

            n	 Statement of Budgetary Resources

88	 Fiscal Year 2010 United States Army Annual Financial Report
       n	 Intragovernmental Eliminations                                                                     89




                                                                                                             Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
       n	 Accounting Adjustments

       n	 Abnormal Account Balances

       n	 Reconciliation of Net Cost of Operations to Budget

       n	 Contingency Payment Audit Trails

A material weakness is a deficiency, or a combination of deficiencies, in internal control such that there
is a reasonable possibility that a material misstatement of the entity’s financial statements will not be
prevented, or detected and corrected on a timely basis.

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that
is less severe than a material weakness, yet important enough to merit attention by those charged
with governance. One previously identified significant deficiency, the legal representation process,
continued to exist.

Internal control work that we conducted as part of our prior audits would not necessarily disclose all
significant deficiencies. The Attachment offers additional details on significant deficiencies, most of
which we consider to be material internal control weaknesses.

The Army reported the above weaknesses in its FY 2010 Statement of Assurance.

Summary of Compliance With Laws and Regulations
We limited our work in determining compliance with selected provisions of applicable laws and
regulations related to financial reporting because management acknowledged that instances of
noncompliance identified in prior audits continued to exist. The Deputy Assistant Secretary of the
Army (Financial Operations) acknowledged to us that the Army General Fund financial management
systems do not substantially comply with Federal financial management system requirements, U.S.
GAAP, and the U.S. Government Standard General Ledger at the transaction level. Therefore, we
did not determine whether Army General Fund management complied with all applicable laws and
regulations related to financial reporting. Providing an opinion on compliance with certain provisions
of laws and regulations was not an objective of our audit, and accordingly, we do not express such an
opinion. See the Attachment for additional details on compliance with laws and regulations.

Management’s Responsibilities
Management is responsible for:

       n	 preparing the financial statements in conformity with U.S. GAAP;

       n	 establishing, maintaining, and assessing internal control to provide reasonable assurance
           that the broad control objectives of the Federal Managers’ Financial Integrity Act are
           met; and
            n	 complying with applicable laws and regulations.

   We provided a draft of this report to the Deputy Assistant Secretary of the Army (Financial
   Operations), who provided technical comments that we have incorporated as appropriate.




                                                                  Patricia A. Marsh, CPA
                                                                  Assistant Inspector General
                                                                  Defense Business Operations



   Attachment:
   As stated




90	 Fiscal Year 2010 United States Army Annual Financial Report
                 Report on Internal Control and                                                              91


              Compliance With Laws and Regulations




                                                                                                            Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
Internal Control
Management is responsible for implementing and maintaining effective internal control and for
providing reasonable assurance that accounting data are accumulated, recorded, and reported properly;
that the requirements of applicable laws and regulations are met; and that assets are safeguarded against
misappropriation and abuse. Our purpose was not to, and we do not, express an opinion on internal
control over financial reporting. However, we have identified the following material weaknesses and
significant deficiency, which could adversely affect the Army General Fund financial management
operations.

Previously Identified Material Weaknesses
Management acknowledged that previously identified material weaknesses continue to exist in the
following areas.

Financial Management Systems
Army accounting systems lacked a single, standard transaction-driven general ledger. The Army
also needed to upgrade or replace many of its nonfinancial feeder systems so it could meet financial
statement reporting requirements. The lack of a single, standard transaction-driven general ledger will
continue to prevent the Army from preparing auditable financial statements.

Fund Balance With Treasury
DOD and its Components, including the Army, have had long-standing problems in reconciling
transaction activity in their Fund Balance with Treasury accounts. The appropriation balances recorded
in the accounting records do not agree with the balances held at Treasury.

Accounts Receivable
The Army has acknowledged weaknesses in its management of accounts receivable. The weaknesses are
considered to be DOD-wide and apply to both public and intragovernmental receivables at the Army
General Fund level. The Army’s accounts receivable has weaknesses that include:

       n	 noncompliance with policies and procedures on referrals to the Department of the
           Treasury’s Debt Management Office and on write-offs of 2-year-old debt;

       n	 a lack of controls to ensure that all entitlement system receivables (vendor pay, civilian pay,
           and interest) are recorded in the accounting systems; and

       n	 a lack of controls to ensure that accounts receivable balances are supportable at the
           transaction level.
   Inventory
   Inventories are valued and reported at approximate historical cost using the latest acquisition cost,
   adjusted for holding gains and losses. The systems do not maintain the historical cost data necessary to
   comply with Statement of Federal Financial Accounting Standards No. 3, “Accounting for Inventory
   and Related Property.” The systems also are unable to produce financial transactions using the U.S.
   Government Standard General Ledger. Statement No. 3 states that Operating Materials and Supplies
   must be expensed when the items are consumed. However, significant amounts of Operating Materials
   and Supplies were expensed when they were purchased instead of when they were consumed.

   General Property, Plant, and Equipment
   Statement of Federal Financial Accounting Standards No. 6, “Accounting for Property, Plant, and
   Equipment,” requires that all General Property, Plant, and Equipment be recorded at cost and that
   depreciation expense be recognized on all General Property, Plant, and Equipment. The Army has
   acknowledged that real property and military equipment were not recorded at acquisition or historical
   cost and did not include all the costs needed to bring these assets to a form and location suitable
   for their intended use. The Army could not support the reported cost of Military Equipment in
   accordance with Statement No. 6. Also, the Army lacks financial accountability systems for all its
   Military Table of Equipment unit property books that comply with the Federal Financial Management
   Improvement Act of 1996 (FFMIA).

   Accounts Payable
   The Army is unable to account for and report Accounts Payable properly. In addition, the Army
   accounting systems do not capture trading partner data at the transaction level in a manner that
   facilitates trading partner aggregations for intra-agency sales. Therefore, the Army has acknowledged
   that it was unable to reconcile Intragovernmental accounts payable to the related Intragovernrnental
   accounts receivable that generated the payable.

   Environmental Liabilities
   The Army has not properly estimated and reported its environmental liabilities. For example, the
   processes used to report environmental liabilities for the Defense Environmental Restoration Program,
   Base Realignment and Closure, and the non-Defense Environmental Restoration Program on the
   financial statements were not adequate to establish or maintain sufficient documentation and audit
   trails. Although estimators were properly qualified to perform estimates, the Army did not document
   supervisory reviews of estimates and did not have adequate quality control programs in place to ensure
   the reliability of data.

   Statement of Net Cost
   The financial information contained in the Statement of Net Cost is not presented by programs that
   align with major goals and outputs described in the DOD strategic and performance plans required
   by the Government Performance and Results Act of 1993 (GPRA). Because financial processes and
   systems do not correlate costs with performance measures, revenues and expenses are reported by
   appropriation categories. The amounts presented in the Statement of Net Cost are based on funding,
   obligation, and disbursing transactions, which are not always recorded using accrual accounting. Also,
   the Army systems do not always record the transactions on an accrual basis as required by U.S. GAAP.
   To capture all cost and financing sources for the Army, the information presented also includes data


92	 Fiscal Year 2010 United States Army Annual Financial Report
from the nonfinancial feeder systems. In addition, the Army General Fund budgetary and proprietary        93
information does not correlate.




                                                                                                          Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
Statement of Budgetary Resources
The Army accounting systems do not provide or capture the data needed for obligations incurred
or prior-year obligations recovered in accordance with OMB Circular No. A-11, “Preparation,
Submission and Execution of the Budget Requirements.” Although the Army developed an alternative
methodology to calculate these items, the amount of distortion cannot be reliably determined. The
information presented in the Army General Fund’s Statement of Budgetary Resources does not
completely agree with the information submitted in the year-end “Reports on Budget Execution and
Budgetary Resources” (SFs-133).

Intragovernmental Eliminations
DOD is unable to collect, exchange, and reconcile buyer and seller Intragovernmental transactions,
resulting in adjustments that cannot be verified. This is primarily because the majority of the systems
within DOD do not allow the capture of buyer-side information for use in reconciliations and
eliminations. The DOD and Army accounting systems were unable to capture trading partner data
at the transaction level to facilitate required trading partner eliminations, and DOD guidance did
not require adequate support for eliminations. In addition, DOD procedures required that buyer-
side transaction data be forced to agree with seller-side transaction data without performing proper
reconciliations.

Accounting Adjustments
Because of inadequate financial management systems and processes, journal voucher adjustments and
data calls were used to prepare the Army General Fund financial statements. For the FY 2010 year-
end, DFAS did not adequately support $27.9 billion in journal voucher adjustments used to prepare
the Army General Fund financial statements.

Abnormal Account Balances
DFAS did not detect, report, or take action to eliminate the abnormal balances included in the Army
General Fund accounting records. Abnormal balances not only distort the Army General Fund
financial statements, but also indicate internal control and operational deficiencies and may conceal
instances of fraud.

Reconciliation of Net Cost of Operations to Budget
The Statement of Federal Financial Accounting Standards No. 7, “Accounting for Revenue and
Other Financing Sources and Concepts for Reconciling Budgetary and Financial Accounting,”
“requires a reconciliation of proprietary and budgetary information to assist users in understanding
the relationship of the data.” During FY 2007, OMB rescinded the requirement to report this
reconciliation as a Statement of Financing and now requires the disclosure of the information as a note
to the financial statements. The Army is unable to represent accurately the relationship between its
budgetary obligations incurred and its Statement of Net Costs.
   Contingency Payment Audit Trails
   The Army reported contingency payment audit trails as an uncorrected material weakness in its
   FY 2010 Statement of Assurance. The Army first reported the matter as a material weakness in
   FY 2008. The Army acknowledged that the maintenance of substantiating documents by certifying
   and entitlement activities creates significant challenges in tracing audit trails for support of financial
   statements. DOD Office of Inspector General Report No. D-2008-098, “Internal Controls Over
   Payments Made in Iraq, Kuwait and Egypt,” May 22, 2008, determined that the Army made
   $1.4 billion in commercial payments that lacked the minimum supporting documentation and
   information for a valid payment (minimum support would include such documents as certified
   vouchers, proper receiving reports and invoices). In addition, the Army estimated that $6.3 billion of
   commercial payments contained the minimum supporting documentation but did not comply with
   other statutory and regulatory requirements. Payments that are not properly supported do not provide
   the necessary assurance that funds were used as intended.

   Previously Identified Significant Deficiency
   We noted the following significant deficiency that continued to exist.

   Legal Representation Process
   The Army legal representation process did not provide meaningful assessments of potential liabilities
   and was not linked to the Army process for reporting and disclosing contingent legal liabilities on
   the financial statements. This financial management deficiency may cause inaccurate management
   information. As a result, the Army General Fund management decisions based in whole or in part on
   this information may be adversely affected. Financial information reported by DOD may also contain
   misstatements resulting from this deficiency.

   These financial management deficiencies may cause inaccurate management information. As a result,
   Army management decisions based in whole or in part on this information may be adversely affected.
   Financial information reported by DOD may also contain misstatements resulting from these
   deficiencies.

   Compliance With Laws and Regulations
   Management is responsible for compliance with existing laws and regulations related to financial
   reporting. We limited our work to determining compliance with selected provisions of the applicable
   laws and regulations related to financial reporting because management acknowledged instances of
   noncompliance, and previously reported instances of noncompliance continued to exist. Therefore, we
   did not determine whether Army General Fund management complied with selected provisions of all
   applicable laws and regulations related to financial reporting. Our objective was not to, and we do not,
   express an opinion on overall compliance with applicable laws and regulations.

   Federal Financial Management Improvement Act of 1996
   FFMIA requires DOD to establish and maintain financial management systems that comply
   substantially with Federal financial management system requirements, applicable Federal accounting
   standards, and the U.S. Government Standard General Ledger at the transaction level. For
   FY 2010, Army management did not fully comply with FFMIA. Army General Fund management
   acknowledged that many of its critical financial management and feeder systems did not substantially

94	 Fiscal Year 2010 United States Army Annual Financial Report
comply with Federal financial management system requirements, Federal accounting standards, and            95
the U.S. Government Standard General Ledger at the transaction level as of September 30, 2010.




                                                                                                           Army General Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
Government Performance and Results Act of 1993
Congress enacted GPRA to establish strategic planning and performance measurement in the Federal
Government. Strategic plans, annual performance plans, and annual program performance reports
are the main elements of GPRA. The financial information contained in the Statement of Net Cost
is not presented by programs that align with major goals and outputs described in the DOD strategic
and performance plans required by GPRA. Because financial processes and systems do not correlate
costs with performance measures, revenues and expenses are reported by appropriation categories.
The Army did not comply with GPRA because it did not have cost accounting systems in place to
collect, process, and report operating costs. This resulted in the Army being unable to present cost-of-
operations data on the Army General Fund Statement of Net Cost that were consistent with the GPRA
goals and measures.

Antideficiency Act
Section 1341, title 31, United States Code (31 U.S.C. § 1341[1990]) limits the Army and its agents to
making or authorizing only expenditures or obligations that do not exceed the available appropriations
or funds. Additionally, the Army or its agents may not contract or obligate for the payment of money
before an appropriation is made available for that contract or obligation unless otherwise authorized by
law. According to 31 U.S.C. § 1351 (2004), if an officer or employee of an executive agency violates
the Antideficiency Act (ADA), the head of the agency must report immediately to the President and
Congress all relevant facts and a statement of actions taken. During FY 2010, the Army reported four
cases of violation of the ADA. Therefore, the Army did not comply with 31 U.S.C. § 1341(1990). In
addition, the Army did not report the four ADA violations within 12 months of being identified as
required by DOD internal guidance.

Audit Disclosures
The Deputy Assistant Secretary of the Army (Financial Operations) acknowledged to us on April 2,
2010, that the Army financial management and feeder systems could not provide adequate evidence
supporting various material amounts on the financial statements and that previously identified material
weaknesses continued to exist. Therefore, we did not perform detailed testing related to previously
identified material weaknesses. In addition, we did not perform audit testing related to the following
selected provisions of laws and regulations: Federal Credit Reform Act of 1990, Pay and Allowance
System for Civilian Employees, Prompt Payment Act, and Provisions Governing Claims of the United
States (including provisions of the Debt Collection Improvement Act of 1996).

This report does not include recommendations to correct the material internal control weaknesses
and instances of noncompliance with laws and regulations because previous audit reports contained
recommendations for corrective actions or because audit projects currently in progress will include
appropriate recommendations.
                                                   [This page left intentionally blank.]




96	 Fiscal Year 2010 United States Army Annual Financial Report
                                                                                                                                     97




                                                                                                                                     Army Working Capital Fund | Principal Financial Statements, Notes, and Auditor’s Report
                                                                                           Army Working Capital Fund
                                                                                           Principal Financial Statements,
                                                                                           Notes, and Auditor’s Report




Limitations
Limitations of the Financial Statements
The financial statements have been prepared to report the financial position and results of operations for the entity, pursuant to
the requirements of Title 31, United States Code, section 3515(b).

While the statements have been prepared from the books and records of the entity, in accordance with the formats prescribed
by the Office of Management and Budget, the statements are in addition to the financial reports used to monitor and control
budgetary resources which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the United States Government, a sovereign
entity.
    Department of Defense - Army Working Capital Fund

    CONSOLIDATED BALANCE SHEET
    As of September 30, 2010 and 2009 (Amounts in thousands)                                 2010 Consolidated              2009 Consolidated
    ASSETS (Note 2)
       Intragovernmental:
            Fund Balance with Treasury (Note 3)                                          $                 1,808,081    $              1,349,591
            Accounts Receivable (Note 5)                                                                     317,663                     343,430
            Other Assets (Note 6)                                                                              8,232                           0
            Total Intragovernmental Assets                                               $                 2,133,976    $              1,693,021

       Accounts Receivable, Net (Note 5)                                                                      39,193                      49,624
       Inventory and Related Property, Net (Note 9)                                                       22,309,805                  23,164,252
       General Property, Plant and Equipment, Net (Note 10)                                                1,397,840                   1,260,198
       Other Assets (Note 6)                                                                                 616,116                     885,062
    TOTAL ASSETS                                                                         $                26,496,930    $             27,052,157

    LIABILITIES (Note 11)
        Intragovernmental:
             Accounts Payable (Note 12)                                                  $                    103,071   $                 84,576
             Other Liabilities (Note 15 & 16)                                                                  63,418                     82,570
             Total Intragovernmental Liabilities                                         $                    166,489   $                167,146

       Accounts Payable (Note 12)                                                                             659,167                  1,606,340
       Military Retirement and Other Federal Employment Benefits (Note
       17)                                                                                                   219,913                     231,234
       Other Liabilities (Note 15 and Note 16)                                                               377,082                     342,716
    TOTAL LIABILITIES                                                                    $                 1,422,651    $              2,347,436

    COMMITMENTS AND CONTINGENCIES (NOTE 16)
    NET POSITION
        Unexpended Appropriations - Other Funds                                          $                         0    $                440,722
        Cumulative Results of Operations - Other Funds                                                    25,074,279                  24,263,999
    TOTAL NET POSITION                                                                   $                25,074,279    $             24,704,721

    TOTAL LIABILITIES AND NET POSITION                                                   $                26,496,930    $             27,052,157

    The accompanying notes are an integral part of these financial statements. Amounts may not sum due to rounding.




98	 Fiscal Year 2010 United States Army Annual Financial Report
Department of Defense - Army Working Capital Fund                                                                                              99

CONSOLIDATED STATEMENT OF NET COST




                                                                                                                                               Army Working Capital Fund | Principal Financial Statements, Notes, and Auditor’s Report
As of September 30, 2010 and 2009 (Amounts in thousands)                                 2010 Consolidated             2009 Consolidated
Program Costs
Gross Costs                                                                          $               29,068,710    $             30,247,547
     (Less: Earned Revenue)                                                                         (29,693,624)                (29,560,443)
     Net Program Costs                                                               $                 (624,914)   $                687,104
Net Cost of Operations                                                               $                 (624,914)   $                687,104

The accompanying notes are an integral part of these financial statements. Amounts may not sum due to rounding.
       Department of Defense - Army Working Capital Fund

       CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                                                               2010
                                                                            Earmarked         2010 All Other              2010            2010
       As of September 30, 2010 (Amounts in thousands)                        Funds              Funds                Eliminations     Consolidated
       CUMULATIVE RESULTS OF OPERATIONS
       Beginning Balances                                               $                0   $    24,263,999      $               0    $   24,263,999
       Prior Period Adjustments:
            Changes in accounting principles (+/-)                                       0                 0                      0                 0
       Beginning balances, as adjusted                                  $                0   $    24,263,999      $               0    $   24,263,999
       Budgetary Financing Sources:
            Appropriations used                                         $                0   $        490,613     $               0    $      490,613
            Transfers-in/out without reimbursement                                       0           (280,280)                    0          (280,280)
       Other Financing Sources:
            Transfers-in/out without reimbursement (+/-)                                 0        (1,398,190)                     0        (1,398,190)
            Imputed financing from costs absorbed by others                              0           209,352                      0           209,352
            Other (+/-)                                                                  0         1,163,871                      0         1,163,871
       Total Financing Sources                                          $                0   $       185,366      $               0    $      185,366
       Net Cost of Operations (+/-)                                                      0          (626,021)                (1,107)         (624,914)
       Net Change                                                       $                0   $       811,387      $           1,107    $      810,280
       Cumulative Results of Operations                                 $                0   $    25,075,386      $           1,107    $   25,074,279

       UNEXPENDED APPROPRIATIONS
       Beginning Balances                                               $                0   $        440,722     $               0    $     440,722
       Beginning balances, as adjusted                                  $                0   $        440,722     $               0    $     440,722
       Budgetary Financing Sources:
            Appropriations received                                     $                0   $        50,002      $              0     $       50,002
            Other adjustments (rescissions, etc)                                         0              (111)                    0               (111)
            Appropriations used                                                          0          (490,613)                    0           (490,613)
       Total Budgetary Financing Sources                                $                0   $      (440,722)     $              0     $     (440,722)
       Unexpended Appropriations                                                         0                 0                     0                  0
       Net Position                                                     $                0   $    25,075,386      $          1,107     $   25,074,279


       The accompanying notes are an integral part of these financial statements. Amounts may not sum due to rounding.




100	        Fiscal Year 2010 United States Army Annual Financial Report
Department of Defense - Army Working Capital Fund                                                                                                    101

CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION




                                                                                                                                                     Army Working Capital Fund | Principal Financial Statements, Notes, and Auditor’s Report
                                                                        2009
                                                                     Earmarked         2009 All Other               2009              2009
As of September 30, 2009 (Amounts in thousands)                        Funds              Funds                 Eliminations       Consolidated
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                               $                0   $    22,376,164       $                  0   $   22,376,164
Prior Period Adjustments:
     Changes in accounting principles (+/-)                                       0         1,689,600                          0        1,689,600
Beginning balances, as adjusted                                  $                0   $    24,065,764       $                  0   $   24,065,764
Budgetary Financing Sources:
     Appropriations used                                         $                0   $        824,578      $                  0   $      824,578
     Transfers-in/out without reimbursement                                       0         (1,023,000)                        0       (1,023,000)
Other Financing Sources:
     Transfers-in/out without reimbursement (+/-)                                 0          (119,665)                         0         (119,665)
     Imputed financing from costs absorbed by others                              0           174,567                          0          174,567
     Other (+/-)                                                                  0         1,028,859                          0        1,028,859
Total Financing Sources                                          $                0   $       885,339       $                  0   $      885,339
Net Cost of Operations (+/-)                                                      0           687,104                          0          687,104
Net Change                                                       $                0   $       198,235       $                  0   $      198,235
Cumulative Results of Operations                                 $                0   $    24,263,999       $                  0   $   24,263,999

UNEXPENDED APPROPRIATIONS
Beginning Balances                                               $                0   $        719,900      $                  0   $     719,900
Beginning balances, as adjusted                                  $                0   $        719,900      $                  0   $     719,900
Budgetary Financing Sources:
     Appropriations received                                     $                0   $       545,400       $                  0   $      545,400
     Other adjustments (rescissions, etc)                                         0                 0                          0                0
     Appropriations used                                                          0          (824,578)                         0         (824,578)
Total Budgetary Financing Sources                                $                0   $      (279,178)      $                  0   $     (279,178)
Unexpended Appropriations                                                         0           440,722                          0          440,722
Net Position                                                     $                0   $    24,704,721       $                  0   $   24,704,721

The accompanying notes are an integral part of these financial statements. Amounts may not sum due to rounding.
    Department of Defense - Army Working Capital Fund

    Combined Statement of Budgetary Resources
                                                                        Budgetary Financing Accounts            Non-Budgetary Financing Accounts
    As of September 30, 2010 and 2009 (Amounts in thousands)          2010 Combined      2009 Combined          2010 Combined     2009 Combined
    BUDGETARY RESOURCES
    Unobligated balance, brought forward, October 1                  $     1,822,851      $     3,359,578      $             0   $             0
    Recoveries of prior year unpaid obligations                            2,870,136              708,538                    0                 0
    Budget authority
        Appropriation                                                         50,002              545,400                    0                 0
        Contract authority                                                10,090,779            9,779,733                    0                 0
        Spending authority from offsetting collections
             Earned
                Collected                                                 16,305,692           16,681,563                    0                 0
                Change in receivables from Federal
                sources                                                     (128,638)               99,300                   0                 0
             Change in unfilled customer orders
                Advance received                                              10,184               (4,834)                   0                 0
                Without advance from Federal sources                        (375,042)            (158,236)                   0                 0
        Subtotal                                                     $    25,952,977      $    26,942,926      $             0   $             0
    Nonexpenditure transfers, net, anticipated and actual                   (280,280)          (1,023,000)                   0                 0

    Permanently not available                                            (13,082,174)         (11,269,622)                   0                 0
    Total Budgetary Resources                                        $    17,283,510      $    18,718,420      $             0   $             0

    Status of Budgetary Resources:
    Obligations incurred:
         Reimbursable                                                $    16,261,161      $    16,895,570      $             0   $             0
         Subtotal                                                    $    16,261,161      $    16,895,570      $             0   $             0
    Unobligated balance:
         Apportioned                                                       1,022,349            1,822,850                    0                 0
         Subtotal                                                    $     1,022,349      $     1,822,850      $             0   $             0
    Total status of budgetary resources                              $    17,283,510      $    18,718,420      $             0   $             0

    Change in Obligated Balance:
    Obligated balance, net
         Unpaid obligations, brought forward, October 1              $    11,704,936      $    12,938,885      $             0   $             0
         Less: Uncollected customer payments from
         Federal sources, brought forward, October 1                      (5,878,237)          (5,937,173)                   0                 0
         Total unpaid obligated balance                              $     5,826,699      $     7,001,712      $             0   $             0
    Obligations incurred net (+/-)                                        16,261,161           16,895,570                    0                 0

    Less: Gross outlays                                                  (15,626,999)         (17,420,981)                   0                 0
    Less: Recoveries of prior year unpaid obligations,
    actual                                                                (2,870,136)             (708,538)                  0                 0
    Change in uncollected customer payments from Federal
    sources (+/-)                                                    $       503,680      $         58,938     $             0   $             0
    Obligated balance, net, end of period
         Unpaid obligations                                          $     9,468,962      $    11,704,936      $             0   $             0
         Less: Uncollected customer payments from
         Federal
         sources (-)                                                      (5,374,557)           (5,878,237)                  0                 0
         Total, unpaid obligated balance, net, end of
         period                                                      $     4,094,405      $     5,826,699      $             0   $             0

    Net Outlays:
        Gross outlays                                                $    15,626,999      $    17,420,981      $             0   $             0

         Less: Offsetting collections                                    (16,315,876)         (16,676,731)                   0                 0
         Net Outlays                                                 $      (688,877)     $       744,250      $             0   $             0

    The accompanying notes are an integral part of these financial statements. Amounts may not sum due to rounding.




102	Fiscal Year 2010 United States Army Annual Financial Report
Note 1.	 Significant Accounting Policies                                                                                          103




                                                                                                                                  Army Working Capital Fund | Principal Financial Statements, Notes, and Auditor’s Report
1.A. Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the Army Working
Capital Fund (WCF), as required by the Chief Financial Officers Act of 1990, expanded by the Government Management
Reform Act of 1994, and other appropriate legislation. The financial statements have been prepared from the books and
records of the Army WCF in accordance with, and to the extent possible, U.S. generally accepted accounting principles
(USGAAP) promulgated by the Federal Accounting Standards Advisory Board; the Office of Management and Budget
(OMB) Circular No. A-136, Financial Reporting Requirements; and the Department of Defense (DoD) Financial Management
Regulation. The accompanying financial statements account for all resources for which the Army WCF is responsible unless
otherwise noted.

The Army WCF is unable to fully implement all elements of USGAAP and the OMB Circular No. A-136, due to limitations
of financial and nonfinancial management processes and systems that support the financial statements. The Army WCF derives
reported values and information for major asset and liability categories largely from nonfinancial systems, such as inventory
systems and logistic systems. These systems were designed to support reporting requirements for maintaining accountability
over assets and reporting the status of federal appropriations rather than preparing financial statements in accordance with
USGAAP. The Army WCF continues to implement process and system improvements addressing these limitations. The
Army WCF currently has ten auditor-identified financial statement material weaknesses : (1) Financial management systems;
(2) Inventory; (3) General Property, Plant and Equipment (PP&E); (4) Accounts payable; (5) Statement of Net Cost;
(6) Intragovernmental eliminations; (7) Accounting adjustments; (8) Reconciliation of net cost of operations to budget;
(9) Abnormal account balances; and (10) Statement of Budgetary Resources.


1.B. Mission of the Reporting Entity
The Army WCF is part of the Defense WCF and is divided into two separate business areas: Supply Management and
Industrial Operations. These business areas ensure delivery of critical items, such as petroleum products, repair parts,
consumable supplies, depot maintenance services, munitions, and weapons to support the deployment and projection of lethal
force as required by the nation.


1.C. Appropriations and Funds
Working capital funds (WCFs) receive funding to establish an initial corpus through an appropriation or a transfer of resources
from existing appropriations or funds. The corpus finances operations and transactions that flow through the fund. The WCF
resources the goods and services sold to customers on a reimbursable basis and maintains the corpus. Reimbursable receipts
fund future operations and generally are available in their entirety for use without further congressional action. At various
times, the Congress provides additional appropriations to supplement the WCF as an infusion of cash when revenues are
inadequate to cover costs within the corpus.

In fiscal year (FY) 2008, the Army WCF received, for the first time, a three-year appropriation for $719.9 million. The
primary purpose of this appropriation was the financing of war reserve materiel in support of operations in Afghanistan and
Iraq. These funds have been fully obligated and disbursed. The receipt of an expiring appropriation in the Army WCF was to
this point, a one-time event. The Army WCF does not anticipate that this will be a continuing practice.
   1.D. Basis of Accounting
   The Army WCF’s financial management systems are unable to meet all full accrual accounting requirements. Many of the
   Army WCF’s financial and nonfinancial feeder systems and processes were designed and implemented prior to the issuance of
   USGAAP. These systems were not designed to collect and record financial information on the full accrual accounting basis as
   required by USGAAP. Most of the Army WCF’s financial and nonfinancial legacy systems were designed to record information
   on a budgetary basis.

   The financial statements and supporting trial balances are compiled from the underlying financial data and trial balances of the
   Army WCF sub-entities. The underlying data is partially derived from budgetary transactions (obligations, disbursements, and
   collections), from nonfinancial feeder systems, and accruals made for major items such as payroll expenses, accounts payable
   and Federal Employees Compensation Act liabilities. Some of the sub-entity level trial balances may reflect known abnormal
   balances resulting largely from business and system processes. At the consolidated Army WCF level, these abnormal balances
   may not be evident. Disclosures of abnormal balances are made in the applicable footnotes, but only to the extent that the
   abnormal balances are evident at the consolidated level.

   The DoD is determining the actions required to bring its financial and nonfinancial feeder systems and processes into
   compliance with USGAAP. One such action is the current revision of accounting systems to record transactions based on the
   United States Standard General Ledger (USSGL). At this time, no Army WCF accounting systems are USSGL-compliant.
   The Army has implemented the Logistics Modernization Program (LMP) at Tobyhanna Army Depot, Communications
   Electronics Life Cycle Management Command, Corpus Christi Army Depot, Letterkenny Army Depot, Aviation and Missile
   Life Cycle Management Command, and other Army Materiel Command activities. Until LMP is fully implemented and all of
   the processes are updated to collect and report financial information as required by USGAAP, the Army WCF’s financial data
   will be derived from a combination of proprietary systems, cost systems, and feeder systems.


   1.E. Revenues and Other Financing Sources
   The Army WCF Industrial Operations activities recognize revenue according to the percentage-of-completion method. Supply
   Management activities recognize revenue when an inventory item is sold. Prices set for products and services offered through
   the Army WCF are intended to recover the full costs (cost plus administrative fees) incurred by these activities. Unearned
   revenue is recorded as deferred revenue until earned.


   1.F. Recognition of Expenses
   For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period incurred. Current
   financial and nonfinancial feeder systems were not designed to collect and record financial information on the full accrual
   accounting basis. Estimates are made for major items such as payroll expenses, accounts payable, and unbilled revenue. The
   Army WCF continues to implement process and system improvements to address these limitations.


   1.G. Accounting for Intragovernmental Activities
   Accounting standards require that an entity eliminates intraentity activity and balances from consolidated financial
   statements in order to prevent overstatement for business with itself. However, the Army WCF cannot accurately identify
   intragovernmental transactions by customer because the Army WCF’s systems do not track buyer and seller data at the
   transaction level.

   Generally, seller entities within the DoD provide summary seller-side balances for revenue, accounts receivable, and unearned
   revenue to the buyer-side internal DoD accounting offices. In most cases, the buyer-side records are adjusted to agree with


104	Fiscal Year 2010 United States Army Annual Financial Report
DoD seller-side balances and are then eliminated. The DoD is implementing replacement systems and a standard financial           105
information structure that will incorporate the necessary elements that will enable DoD to correctly report, reconcile, and




                                                                                                                                 Army Working Capital Fund | Principal Financial Statements, Notes, and Auditor’s Report
eliminate intragovernmental balances.

The U.S. Treasury’s “Federal Intragovernmental Transactions Accounting Policy Guide” and “Treasury Financial Manual”,
Part 2 – Chapter 4700, Agency Reporting Requirements for the Financial Report of the United States Government, provide
guidance for reporting and reconciling intragovernmental balances. While the Army WCF is unable to fully reconcile
intragovernmental transactions with all federal agencies, Army WCF is able to reconcile balances pertaining to Federal
Employees’ Compensation Act transactions with the Department of Labor and benefit program transactions with the Office of
Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the federal government is not included. The federal
government does not apportion debt and its related costs to federal agencies. The DoD’s financial statements do not report any
public debt, interest or source of public financing, whether from issuance of debt or tax revenues.

Generally, financing for the construction of DoD facilities is obtained through appropriations. To the extent this financing
ultimately may have been obtained through the issuance of public debt, interest costs have not been capitalized since the U.S.
Treasury does not allocate such costs to DoD.


1.H. Transactions with Foreign Governments and International Organizations
Each year, the Army WCF sells defense articles and services to foreign governments and international organizations under the
provisions of the Arms Export Control Act of 1976. Under the provisions of the Act, DoD has authority to sell defense articles
and services to foreign countries and international organizations generally at no profit or loss to the federal government.
Payment in U.S. dollars is required in advance.


1.I. Funds with the U.S. Treasury
The Army WCF’s monetary resources are maintained in U.S. Treasury accounts. The disbursing offices of the Defense Finance
and Accounting Service (DFAS), the Military Services, the U.S. Army Corps of Engineers (USACE), and the Department
of State’s financial service centers process the majority of the Army WCF’s cash collections, disbursements, and adjustments
worldwide. Each disbursing station prepares monthly reports to the U.S. Treasury on checks issued, electronic fund transfers,
interagency transfers, and deposits.

In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by appropriation on interagency
transfers, collections received, and disbursements issued. The U.S. Treasury records these transactions to the applicable Fund
Balance with Treasury (FBWT) account. On a monthly basis, the Army WCF’s FBWT is adjusted to agree with the U.S.
Treasury accounts.


1.J. Foreign Currency
Not Applicable.


1.K. Accounts Receivable
Accounts receivable from other federal entities or the public include accounts receivable, claims receivable, and refunds
receivable. Allowances for uncollectible accounts due from the public are based on the estimate of uncollectible accounts
receivable from the public on a percentage of aged receivables by category. The allowance is calculated by using 50 percent
   of aged receivables in the 181-day to 2-year category and 100 percent of aged receivables in the greater than 2-year category.
   The DoD does not recognize an allowance for estimated uncollectible amounts from other federal agencies. Claims against
   other federal agencies are to be resolved between the agencies in accordance with dispute resolution procedures defined in the
   Intragovernmental Business Rules published in the Treasury Financial Manual at http://www.fms.treas.gov/tfm/vol1/07-03.
   pdf.


   1.L. Direct Loans and Loan Guarantees
   Not Applicable.


   1.M. Inventories and Related Property
   The Army WCF has transitioned approximately 65 percent of its resale inventory to LMP which includes moving average
   cost (MAC) functionality. However, the on-hand, transitioned balances were not properly baselined to MAC. Accordingly,
   the Army WCF cannot confirm the actual historical cost of this inventory and recognizes that a significant portion may not
   be currently compliant with Statement of Federal Financial Accounting Standards (SFFAS) No. 3, “Accounting for Inventory
   and Related Property.” The Army WCF reports the remaining 35 percent of resale inventories at an approximation of historical
   cost using latest acquisition cost (LAC) adjusted for holding gains and losses. The LAC method is used because legacy
   inventory systems were designed for materiel management rather than accounting. Although these systems provide visibility
   and accountability over inventory items, they do not maintain historical cost data necessary to comply with SFFAS No. 3.
   Additionally, these systems cannot produce financial transactions using the USSGL, as required by the Federal Management
   Improvement Act of 1996 (Public Law 104-208). In order to address these long-standing problems with inventory valuation,
   the Army WCF is continuing to transition remaining inventory balances to MAC as LMP is proliferated to additional sites.

   The Army WCF manages only military- or government-specific materiel under normal conditions. Materiel is a unique term
   that relates to military force management and includes items such as ships, tanks, self-propelled weapons, aircraft, etc., and
   related spares, repair parts, and support equipment. Items commonly used in and available from the commercial sector are not
   managed in the Army WCF materiel management activities. Operational cycles are irregular and the military risks associated
   with stock-out positions have no commercial parallel. The Army WCF holds materiel based on military need and support for
   contingencies. The DoD is currently developing a methodology to be used to account for inventory held for sale and inventory
   held in reserve for future sale with a completion date of year-end FY 2011 reporting.

   The Army WCF is in agreement with SFFAS No 3, Interpretation 7, “Items Held for Remanufacture,” that inventory held
   for repair should be accounted for as inventory held for remanufacture. Inventory held for remanufacture capitalizes repair
   and rebuild costs, values unrepaired carcasses at cost, and provides for exchange pricing concepts for customer returns. The
   Army WCF is unable to comply with some of the accounting requirements for remanufacturing until such time as LMP is
   fully implemented and all inventory related tasks in the Army Financial Improvement Plan have been addressed, to include
   logistics interfaces.

   The Army WCF recognizes excess, obsolete, and unserviceable inventory at net realizable value of $0 pending development of
   an effective means of valuing such materiel.

   Inventory available and purchased for resale includes consumable spare and repair parts and repairable items owned and
   managed by the Army WCF. This inventory is retained to support military or national contingencies. Inventory held for repair
   is damaged inventory that requires repair to make it suitable for sale. Often, it is more economical to repair these items rather
   than to procure them. The Army WCF often relies on weapon systems and machinery no longer in production. As a result,
   the Army WCF supports a process that encourages the repair and rebuilding of certain items. This repair cycle is essential to
   maintaining a ready, mobile, and armed military force. Work-in-process balances include (1) costs related to the production or


106	     Fiscal Year 2010 United States Army Annual Financial Report
servicing of items, including direct materiel, labor, applied overhead; (2) the value of finished products or completed services   107
that are yet to be placed in service; and (3) munitions in production and depot maintenance work with its associated costs




                                                                                                                                   Army Working Capital Fund | Principal Financial Statements, Notes, and Auditor’s Report
incurred in the delivery of maintenance services.


1.N. Investments in U.S. Treasury Securities
Not Applicable.


1.O. General Property, Plant and Equipment
The DoD’s general PP&E capitalization threshold is $100,000 except for real property, which is $20,000. The Army WCF has
fully implemented the threshold for all property.

The Army WCF capitalizes all PP&E used in the performance of its mission. These assets are capitalized as general PP&E,
whether or not they meet the definition of any other PP&E category.

When it is in the best interest of the government, the Army WCF provides government property to contractors to complete
contract work. The Army WCF either owns or leases such property, or it is purchased directly by the contractor for the
government based on contract terms. When the value of contractor-procured general PP&E meets or exceeds the DoD
capitalization threshold, federal accounting standards require that it be reported on Army WCF’s Balance Sheet.

The DoD developed policy and a reporting process for contractors with government-furnished equipment that provides
appropriate general PP&E information for financial statement reporting. The DoD requires the Army WCF to maintain, in
its property systems, information on all property furnished to contractors. These actions are structured to capture and report
the information necessary for compliance with federal accounting standards. The Army WCF has not fully implemented this
policy primarily due to system limitations.


1.P. Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, DoD’s policy is to record advances and
prepayments in accordance with USGAAP. As such, payments made in advance of the receipt of goods and services should be
reported as an asset on the Balance Sheet. The DoD’s policy is to expense and/or properly classify assets when the related goods
and services are received. The Army WCF has implemented this policy for advances identified as military and civil service
employee pay advances, travel advances, and in contract feeder systems, but has not fully implemented the policy primarily
due to system limitations.


1.Q. Leases
Not Applicable.


1.R. Other Assets
Other assets include those assets, such as civil service employee pay advances, travel advances, and certain contract financing
payments that are not reported elsewhere on the Army WCF’s Balance Sheet.

The Army WCF conducts business with commercial contractors under two primary types of contracts: fixed price and cost
reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can cause, the Army WCF
   may provide financing payments. Contract financing payments are defined in the Federal Acquisition Regulations, Part 32, as
   authorized disbursements to a contractor prior to acceptance of supplies or services by the government. Contract financing
   payments clauses are incorporated in the contract terms and conditions and may include advance payments, performance-
   based payments, commercial advance and interim payments, progress payments based on cost, and interim payments under
   certain cost-reimbursement contracts. It is DoD policy to record certain contract financing payments as other assets. The
   Army WCF has fully implemented this policy for recording contract financing payments as Other Assets.

   Contract financing payments do not include invoice payments, payments for partial deliveries, lease and rental payments,
   or progress payments based on a percentage or stage of completion. The Defense Federal Acquisition Regulation Supplement
   authorizes progress payments based on a percentage or stage of completion only for construction of real property, shipbuilding,
   and ship conversion, alteration, or repair. Progress payments based on percentage- or stage-of-completion are reported as
   construction-in-progress.


   1.S. Contingencies and Other Liabilities
   The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS No. 12, “Recognition
   of Contingent Liabilities Arising from Litigation,” defines a contingency as an existing condition, situation, or set of
   circumstances that involves an uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more future
   events occur or fail to occur. The Army WCF recognizes contingent liabilities when past events or exchange transactions occur,
   a future loss is probable, and the loss amount can be reasonably estimated.

   Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is at least
   a reasonable possibility of incurring a loss or additional losses. The Army WCF’s risk of loss and resultant contingent liabilities
   arise from pending or threatened litigation or claims and assessments due to events such as aircraft, ship, and vehicle accidents;
   medical malpractice; property or environmental damages; and contract disputes.


   1.T. Accrued Leave
   The Army WCF reports liabilities for accrued compensatory and annual leave for civilians. Sick leave for civilians is expensed
   as taken. The liabilities are based on current pay rates.


   1.U. Net Position
   Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended appropriations
   represent the amounts of budget authority that are unobligated and have not been rescinded or withdrawn. Unexpended
   appropriations also represent amounts obligated for which legal liabilities for payments have not been incurred. The
   cumulative results of operations represents the net difference between expenses and losses, and financing sources (including
   appropriations, revenue, and gains) since inception. The cumulative results of operations also include donations and transfers
   in and out of assets that were not reimbursed.


   1.V. Treaties for Use of Foreign Bases
   Not Applicable.




108	Fiscal Year 2010 United States Army Annual Financial Report
1.W. Undistributed Disbursements and Collections                                                                                        109


Undistributed disbursements and collections represent the difference between disbursements and collections matched at the




                                                                                                                                        Army Working Capital Fund | Principal Financial Statements, Notes, and Auditor’s Report
transaction level to a specific obligation, payable, or receivable in the source systems and those reported by the U.S. Treasury.

Supported disbursements and collections are evidenced by corroborating documentation. Unsupported disbursements and
collections do not have supporting documentation for the transaction and most likely would not meet audit scrutiny.

The DoD policy is to allocate supported undistributed disbursements and collections between federal and nonfederal
categories based on the percentage of distributed federal and nonfederal accounts payable and accounts receivable. Supported
undistributed disbursements and collections are then applied to reduce accounts payable and receivable accordingly.

Unsupported undistributed disbursements are recorded as disbursements intransit and reduce nonfederal accounts payable.
Unsupported undistributed collections are recorded in nonfederal other liabilities.


1.X. Significant Events
Not Applicable.


1.Y. Fiduciary Activities
Not Applicable.


Note 2.	 Nonentity Assets
 As of September 30                                                                  2010                         2009
 (Amounts in thousands)
 1. Intragovernmental Assets
     A. Fund Balance with Treasury                                        $                         0 $                             0
     B. Accounts Receivable                                                                         0                               0
     C. Other Assets                                                                                0                               0
     D. Total Intragovernmental Assets                                    $                         0 $                             0
 2. Nonfederal Assets
     A. Cash and Other Monetary Assets                                    $                       0     $                      0
     B. Accounts Receivable                                                                       0                            0
     C. Other Assets                                                                              0                            0
     D. Total Nonfederal Assets                                           $                       0     $                      0
 3. Total Nonentity Assets                                                $                       0     $                      0
 4. Total Entity Assets                                                   $              26,496,930     $             27,052,157
 5. Total Assets                                                          $              26,496,930     $             27,052,157



Nonentity assets are assets for which the Army WCF maintains stewardship accountability and reporting responsibility but are
not available for the Army WCF's normal operation.
   Note 3.	 Fund Balance with Treasury
    As of September 30                                                                2010                       2009
    (Amounts in thousands)
    1. Fund Balances
        A. Appropriated Funds                                               $                     0 $                   232,023
        B. Revolving Funds                                                                1,808,081                   1,117,568
        C. Trust Funds                                                                            0                           0
        D. Special Funds                                                                          0                           0
        E. Other Fund Types                                                                       0                           0
        F. Total Fund Balances                                              $             1,808,081 $                 1,349,591
    2. Fund Balances Per Treasury Versus Agency
        A. Fund Balance per Treasury                                        $             1,808,081 $                 1,349,591
        B. Fund Balance per Army WCF                                                      1,808,081                   1,349,591
    3. Reconciling Amount                                                   $                     0 $                         0




   Status of Fund Balance with Treasury
    As of September 30                                                                2010                       2009
    (Amounts in thousands)
    1. Unobligated Balance
        A. Available                                                        $             1,022,349 $                1,822,850
        B. Unavailable                                                                            0                          0
    2. Obligated Balance not yet Disbursed                                                9,468,964                 11,704,936
    3. Nonbudgetary FBWT                                                                          0                          0
    4. Non-FBWT Budgetary Accounts                                                       (8,683,232)               (12,178,195)
    5. Total                                                                $             1,808,081 $                1,349,591



   The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support FBWT and is a reconciliation
   between budgetary and proprietary accounts. It primarily consists of unobligated and obligated balances. The balances reflect
   the budgetary authority remaining for disbursement against current and future obligations.

   Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary authority that
   has not been set aside to cover outstanding obligations. There are no restrictions on the Unobligated Balance.

   Obligated balance not yet disbursed represents funds that have been obligated for goods and services not received, and those
   received but not paid.

   Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as deposit funds, unavailable receipt
   accounts, clearing accounts and nonentity FBWT.

   NonFBWT Budgetary Accounts reduces the Status of FBWT. For the Army WCF, these include unfilled orders without
   advances, reimbursements earned receivable, and contract authority.


   Note 4.	 Investments and Related Interest
   Not Applicable.


110	Fiscal Year 2010 United States Army Annual Financial Report
Note 5.	 Accounts Receivable                                                                                                            111

 As of September 30                                                                        2010




                                                                                                                                        Army Working Capital Fund | Principal Financial Statements, Notes, and Auditor’s Report
                                                                                   Allowance For Estimated   Accounts Receivable,
 (Amounts in thousands)                                         Gross Amount Due        Uncollectibles               Net
 1. Intragovernmental Receivables                           $            317,663                    N/A $               317,663
 2. Nonfederal Receivables (From the Public)                              49,365 $              (10,172)                 39,193
 3. Total Accounts Receivable                               $            367,028 $              (10,172) $              356,856



 As of September 30                                                                        2009
                                                                                   Allowance For Estimated   Accounts Receivable,
 (Amounts in thousands)                                         Gross Amount Due        Uncollectibles               Net
 1. Intragovernmental Receivables                           $            343,430                     N/A $              343,430
 2. Nonfederal Receivables (From the Public)                              55,031 $                (5,407)                49,624
 3. Total Accounts Receivable                               $            398,461 $                (5,407) $             393,054



The accounts receivable represent the Army WCF's claim for payment from other entities. The Army WCF only recognizes an
allowance for uncollectible amounts from the public. Claims with other federal agencies are resolved in accordance with the
intragovernmental business rules.


Note 6.	 Other Assets
 As of September 30                                                                2010                          2009
 (Amounts in thousands)
 1. Intragovernmental Other Assets
     A. Advances and Prepayments                                           $                     0 $                                0
     B. Other Assets                                                                         8,232                                  0
     C. Total Intragovernmental Other Assets                               $                 8,232 $                                0
 2. Nonfederal Other Assets
     A. Outstanding Contract Financing Payments                            $              193,247 $                     483,135
     B. Advances and Prepayments                                                          422,869                       397,991
     C. Other Assets (With the Public)                                                          0                         3,936
     D. Total Nonfederal Other Assets                                      $              616,116 $                     885,062
 3. Total Other Assets                                                     $              624,348 $                     885,062



Other Assets (Intragovernmental) consist of the turn-in of unserviceable and obsolete inventory awaiting credit dispositions
from federal sources, e.g., Defense Logistics Agency.

Contract terms and conditions for certain types of contract financing payments convey certain rights to the government that
protect the contract work from state or local taxation, liens or attachment by the contractor’s creditors, transfer of property,
or disposition in bankruptcy. However, these rights should not be misconstrued to mean that ownership of the contractor’s
work has transferred to the federal government. The federal government does not have the right to take the work, except as
provided in contract clauses related to termination or acceptance, and the Army WCF is not obligated to make payment to the
contractor until delivery and acceptance.

The balance of Outstanding Contract Financing Payments includes $160.4 million in contract financing payments and
an additional $32.8 million in estimated future payments to contractors upon delivery and government acceptance of a
satisfactory product. (See additional discussion in Note 15, Other Liabilities.)
   Note 7.	 Cash and Other Monetary Assets
   Not Applicable.


   Note 8.	 Direct Loan and Loan Guarantees
   Not Applicable.


   Note 9.	 Inventory and Related Property
    As of September 30                                                                      2010                         2009
    (Amounts in thousands)
    1. Inventory, Net                                                           $                 22,309,805 $              23,164,252
    2. Operating Materiels & Supplies, Net                                                                 0                         0
    3. Stockpile Materiel, Net                                                                             0                         0
    4. Total                                                                    $                 22,309,805 $              23,164,252




   Inventory, Net
    As of September 30                                                                2010
                                                             Inventory, Gross       Revaluation
    (Amounts in thousands)                                        Value              Allowance          Inventory, Net   Valuation Method
    1. Inventory Categories
        A. Available and Purchased for Resale               $ 17,569,742 $           (2,385,249) $ 15,184,493               LAC, MAC
        B. Held for Repair                                     6,860,360               (496,588)    6,363,772               LAC, MAC
        C. Excess, Obsolete, and Unserviceable                   467,906               (467,906)            0                   NRV
        D. Raw Materiel                                          710,627                      0       710,627             MAC, SP, LAC
        E. Work in Process                                        50,913                      0        50,913                   AC
        F. Total                                            $ 25,659,548 $           (3,349,743) $ 22,309,805




    As of September 30                                                                2009
                                                             Inventory, Gross       Revaluation
    (Amounts in thousands)                                        Value              Allowance         Inventory, Net    Valuation Method
    1. Inventory Categories
        A. Available and Purchased for Resale               $ 19,368,592 $           (3,143,145) $ 16,225,447               LAC, MAC
        B. Held for Repair                                     7,285,566             (1,037,902)    6,247,664               LAC, MAC
        C. Excess, Obsolete, and Unserviceable                   473,341               (473,341)            0                 NRV
        D. Raw Materiel                                          490,280                      0       490,280             MAC, SP, LAC
        E. Work in Process                                       200,861                      0       200,861                   AC
        F. Total                                            $ 27,818,640 $           (4,654,388) $ 23,164,252


    Legend for Valuation Methods:
    LAC = Latest Acquisition Cost                           NRV = Net Realizable Value
    SP = Standard Price                                     LCM = Lower of Cost or Market
    AC = Actual Cost                                        O = Other
    MAC = Moving Average Cost




112	Fiscal Year 2010 United States Army Annual Financial Report
Restrictions of Inventory Use, Sale, or Disposition                                                                                           113




                                                                                                                                              Army Working Capital Fund | Principal Financial Statements, Notes, and Auditor’s Report
There are restrictions on the use, sale, and disposition of $2.2 billion in inventory classified as war reserve materiel. This type of
inventory includes petroleum products, subsistence items, spare parts, and medical materiel.

Other Information

The categories listed below comprise Inventory, Net. The Army WCF assigns Inventory items to a category based upon the
type and condition of the asset. Inventory Available and Purchased for Resale includes spare and repair parts, clothing and
textiles, and petroleum products. Inventory Held for Repair consists of damaged materiel held as inventory that is more
economical to repair than to dispose. Excess, Obsolete, and Unserviceable Inventory consists of scrap materiel or items that
cannot be economically repaired and are awaiting disposal. Raw Materials consist of items consumed in the production of
goods for sale or in the provision of services for a fee.

Work-in-process includes costs related to the production or servicing of items, including direct material, direct labor, applied
overhead, and other direct costs. Work-in-process also includes the value of finished products or completed services pending
the submission of bills to the customer. The work-in-process designation may also be used to accumulate the amount paid to a
contractor under cost-reimbursable contracts, including amounts withheld from payment to ensure performance, and amounts
paid to other government plants for accrued costs of end items of materiel ordered but not delivered. Work-in-process includes
munitions in production and depot maintenance work with its associated labor, applied overhead, and supplies used in the
delivery of maintenance services.


Operating Materiel and Supplies, Net
Not Applicable.


Stockpile Materiel, Net
Not Applicable.


Note 10.	 General PP&E, Net
 As of September 30                                                                        2010
                                                  Depreciation/                                          (Accumulated
                                                  Amortization                                           Depreciation/
 (Amounts in thousands)                             Method        Service Life   Acquisition Value       Amortization)       Net Book Value
 1. Major Asset Classes
    A. Land                                           N/A            N/A         $            0                   N/A        $          0
    B. Buildings, Structures, and Facilities          S/L          20 or 40           1,823,526      $     (1,399,994)            423,532
    C. Leasehold Improvements                         S/L         lease term              1,427                  (227)              1,200
    D. Software                                       S/L         2-5 or 10             830,889              (371,359)            459,530
    E. General Equipment                              S/L          5 or 10            1,642,622            (1,207,037)            435,585
    F. Military Equipment                             S/L          various                    0                     0                   0
    G. Shipbuilding (Construction-in-
        Progress)                                     N/A            N/A                         0                       0                0
    H. Assets Under Capital Lease                     S/L         lease term                     0                       0                0
     I. Construction-in-Progress (Excludes
                                                      N/A            N/A
        Military Equipment)                                                              77,993                   N/A             77,993
    J. Other                                                                                  0                     0                  0
    K. Total General PP&E                                                        $    4,376,457      $     (2,978,617)       $ 1,397,840
    As of September 30                                                                                       2009
                                                               Depreciation/                                               (Accumulated
                                                               Amortization                                                Depreciation/
    (Amounts in thousands)                                       Method        Service Life       Acquisition Value        Amortization)           Net Book Value
    1. Major Asset Classes
       A. Land                                                     N/A            N/A             $               0                  N/A       $                    0
       B. Buildings, Structures, and Facilities                    S/L          20 or 40                1,630,407      $      (1,280,520)                 349,887
       C. Leasehold Improvements                                   S/L         lease term                   96,629               (86,308)                  10,321
       D. Software                                                 S/L         2-5 or 10                  740,838               (298,888)                 441,950
       E. General Equipment                                        S/L          5 or 10                 1,595,058             (1,222,694)                 372,364
       F. Military Equipment                                       S/L          various                           0                        0                        0
       G. Shipbuilding (Construction-in-
           Progress)                                               N/A            N/A                             0                        0                        0
       H. Assets Under Capital Lease                               S/L         lease term                         0                        0                        0
        I. Construction-in-Progress (Excludes
                                                                   N/A            N/A
           Military Equipment)                                                                              85,676                   N/A                   85,676
       J. Other                                                                                                   0                        0                        0
       K. Total General PP&E                                                                      $     4,148,608      $      (2,888,410)      $        1,260,198

    1
        Note 15 for additional information on Capital Leases
    Legend for Valuation Methods:
    S/L = Straight Line                                        N/A = Not Applicable




   Assets Under Capital Lease
   Not Applicable.


   Note 11.	 Liabilities Not Covered by Budgetary Resources
    As of September 30                                                                                     2010                                2009
    (Amounts in thousands)
    1. Intragovernmental Liabilities
        A. Accounts Payable                                                                   $                            0 $                                 0
        B. Debt                                                                                                            0                                   0
        C. Other                                                                                                      45,627                              46,378
        D. Total Intragovernmental Liabilities                                                $                       45,627 $                            46,378
    2. Nonfederal Liabilities
        A. Accounts Payable                                                                   $                         0        $                            0
        B. Military Retirement and Other Federal Employment Benefits                                              219,913                               231,234
        C. Environmental Liabilities                                                                                    0                                     0
        D. Other Liabilities                                                                                            0                                     0
        E. Total Nonfederal Liabilities                                                       $                   219,913        $                      231,234
    3. Total Liabilities Not Covered by Budgetary Resources                                   $                   265,540        $                      277,612
    4. Total Liabilities Covered by Budgetary Resources                                                         1,157,111                             2,069,824
    5. Total Liabilities                                                                      $                 1,422,651        $                    2,347,436



   Liabilities Not Covered by Budgetary Resources include liabilities for which congressional action is needed before budgetary
   resources can be provided.


114	Fiscal Year 2010 United States Army Annual Financial Report
Intragovernmental Other Liabilities represent future-funded Federal Employees’ Compensation Act (FECA) liabilities billed to   115
the Army WCF by the Department of Labor (DOL) for payments made by DOL to Army’s beneficiaries. The current portion




                                                                                                                               Army Working Capital Fund | Principal Financial Statements, Notes, and Auditor’s Report
of this bill, $20.3 million, is due in FY 2011 and the remainder is due in the following fiscal years.

Military Retirement and Other Federal Employment Benefits consist of various employee actuarial liabilities not due and
payable during the current fiscal year. Refer to Note 17, Military Retirement and Other Federal Employment Benefits, for
additional details and disclosures.


Note 12.	Accounts Payable
 As of September 30                                                                       2010
                                                                                  Interest, Penalties, and
 (Amounts in thousands)                                        Accounts Payable     Administrative Fees         Total
 1. Intragovernmental Payables                             $            103,071                       N/A $         103,071
 2. Nonfederal Payables (to the Public)                                 659,167 $                       0           659,167
 3. Total                                                  $            762,238 $                       0 $         762,238



 As of September 30                                                                       2009
                                                                                  Interest, Penalties, and
 (Amounts in thousands)                                        Accounts Payable     Administrative Fees         Total
 1. Intragovernmental Payables                             $             84,576                       N/A $          84,576
 2. Nonfederal Payables (to the Public)                               1,606,340 $                       0         1,606,340
 3. Total                                                  $          1,690,916 $                       0 $       1,690,916



Accounts Payable include amounts owed to federal and nonfederal entities for goods and services received by the Army WCF.
The Army WCF's systems do not track intragovernmental transactions by customer at the transaction level. Buyer-side
accounts payable are adjusted to agree with intraagency seller-side accounts receivable. Accounts payable were adjusted by
reclassifying amounts between federal and nonfederal accounts payable.


Note 13.	 Debt
Not Applicable.


Note 14.	Environmental Liabilities and Disposal Liabilities
Not Applicable.
   Note 15.	 Other Liabilities
    As of September 30                                                                          2010                           2009
                                                                                              Noncurrent
    (Amounts in thousands)                                            Current Liability        Liability         Total         Total

    1. Intragovernmental
        A. Advances from Others                                      $           0        $            0 $             0   $    20,548
        B. Deposit Funds and Suspense Account Liabilities                        0                     0               0             0
        C. Disbursing Officer Cash                                               0                     0               0             0
        D. Judgment Fund Liabilities                                             0                     0               0             0
        E. FECA Reimbursement to the Department of Labor                    20,279                25,347          45,626        46,378
        F. Custodial Liabilities                                                 0                     0               0             0
        G. Employer Contribution and Payroll Taxes Payable                  17,792                     0          17,792        15,644
        H. Other Liabilities                                                     0                     0               0             0
        I. Total Intragovernmental Other Liabilities                 $      38,071        $       25,347 $        63,418   $    82,570
    2. Nonfederal
        A. Accrued Funded Payroll and Benefits                       $     268,589 $                       0 $   268,589 $     126,331
        B. Advances from Others                                             71,376                         0      71,376        83,704
        C. Deferred Credits                                                      0                         0           0             0
        D. Deposit Funds and Suspense Accounts                             (20,703)                        0     (20,703)      (20,703)
        E. Temporary Early Retirement Authority                                  0                         0           0             0
        F. Nonenvironmental Disposal Liabilities
             (1) Military Equipment (Nonnuclear)                                 0                     0               0             0
             (2) Excess/Obsolete Structures                                      0                     0               0             0
             (3) Conventional Munitions Disposal                                 0                     0               0             0
        G. Accrued Unfunded Annual Leave                                         0                     0               0        86,455
        H. Capital Lease Liability                                               0                     0               0             0
        I. Contract Holdbacks                                                  471                     0             471         4,595
        J. Employer Contribution and Payroll Taxes Payable                  24,571                     0          24,571        23,471
        K. Contingent Liabilities                                                0                32,778          32,778        38,863
        L. Other Liabilities                                                     0                     0               0             0
        M. Total Nonfederal Other Liabilities                        $     344,304        $       32,778 $       377,082   $   342,716
    3. Total Other Liabilities                                       $     382,375        $       58,125 $       440,500   $   425,286



   Capital Lease Liability
   Not Applicable.


   Contingent Liabilities
   Contingent liabilities includes $32.8 million related to contracts authorizing progress payments based on cost as defined in
   the Federal Acquisition Regulation (FAR). In accordance with contract terms, specific rights to the contractors’ work vests with
   the federal government when a specific type of contract financing payment is made. This action protects taxpayer funds in the
   event of contract nonperformance. These rights should not be misconstrued as rights of ownership. The Army WCF is under
   no obligation to pay contractors for amounts greater than the amounts authorized in contracts until delivery and government
   acceptance. Due to the probability the contractors will complete their efforts and deliver satisfactory products, and because the
   amount of potential future payments are estimable, the Army WCF has recognized a contingent liability for estimated future
   payments which are conditional pending delivery and government acceptance.




116	Fiscal Year 2010 United States Army Annual Financial Report
Total contingent liabilities for progress payments based on cost represent the difference between the estimated costs incurred                      117
to date by contractors and amounts authorized to be paid under progress payments based on cost provisions within the FAR.




                                                                                                                                                    Army Working Capital Fund | Principal Financial Statements, Notes, and Auditor’s Report
Estimated contractor-incurred costs are calculated by dividing the cumulative unliquidated progress payments based on cost by
the contract-authorized progress payment rate. The balance of unliquidated progress payments based on cost is deducted from
the estimated total contractor-incurred costs to determine the contingency amount.


Note 16.	Commitments and Contingencies
The Army WCF is a party in various administrative proceedings and legal actions, with claims, including environmental
damage claims, equal opportunity matters, and contractual bid protests.

The Army WCF has accrued contingent liabilities for legal actions when the Army’s Office of the General Counsel (OGC)
considers an adverse decision probable and the amount of loss is measurable. In the event of an adverse judgment against the
government, some of the liabilities may be payable from the U.S. Treasury Judgment Fund. The Army WCF records Judgment
Fund liabilities in Note 12, Accounts Payable, and Note 15, Other Liabilities.

Nature of Contingency

The FY 2010 Legal Representation Letter for the Army WCF outlines three claims against the Army WCF totaling
$357.8 million for which the Army OGC is unable to express an opinion.

Other Information Pertaining to Commitments

The Army WCF is a party in numerous individual contracts that contain clauses, such as price escalation, award fee payments,
or dispute resolution that may result in a future outflow of expenditures. Currently, the Army WCF has limited automated
system processes by which it captures or assesses these potential contingent liabilities; therefore, the amounts reported may not
fairly present the Army WCF's contingent liabilities.


Note 17.	 Military Retirement and Other Federal Employment Benefits
 As of September 30                                                                          2010                                  2009
                                                                                          (Less: Assets
                                                                                         Available to Pay     Unfunded            Unfunded
 (Amounts in thousands)                                                Liabilities          Benefits)         Liabilities         Liabilities

 1. Pension and Health Benefits
    A. Military Retirement Pensions                                $                 0 $                0 $                 0 $                 0
    B. Military Pre Medicare Retiree Health Benefits                                 0                  0                   0                   0
    C. Military Medicare-Eligible Retiree Health Benefits                            0                  0                   0                   0
    D. Total Pension and Health Benefits                           $                 0 $                0 $                 0 $                 0
 2. Other Actuarial Benefits
    A. FECA                                                        $     219,913 $                      0 $     219,913 $           231,234
    B. Voluntary Separation Incentive Programs                                 0                        0             0                   0
    C. DoD Education Benefits Fund                                             0                        0             0                   0
    D. Other                                                                         0                  0                   0                   0
     E. Total Other Actuarial Benefits                             $     219,913 $                      0 $     219,913 $           231,234
 3. Total Military Retirement and Other Federal
    Employment Benefits:                                           $     219,913 $                      0 $     219,913 $           231,234
   Federal Employees’ Compensation Act

   The Army WCF actuarial liability for workers’ compensation benefits is developed by the Department of Labor and provided
   to the Army WCF at the end of each fiscal year. The liability includes the estimated liability for death, disability, medical, and
   miscellaneous costs for approved compensation cases, plus a component for incurred-but-not-reported claims. The liability is
   determined using a method that utilizes historical benefit payment patterns related to a specific incurred period to predict the
   ultimate payments. The projected annual benefit payments are discounted to present value using the Office of Management
   and Budget’s (OMB) economic assumptions for 10-year Treasury notes and bonds. Cost-of-living adjustments (COLAs) and
   consumer price index medical (CPIM) factors are applied to the calculation of projected future benefits. The actuarial liability
   relating to the Federal Employees’ Compensation Act (FECA) decreased $11.3 million between FY 2009 and FY 2010.

   The liability for future workers’ compensation benefits includes the expected liability for death, disability, medical, and
   miscellaneous costs for approved compensation cases, plus a component for incurred but not reported claims. The liability
   is determined using a method that utilizes historical benefit payment patterns related to a specific incurred period to predict
   the ultimate payments related to that period. Consistent with past practice, these projected annual benefits payments have
   been discounted to present value using the OMB’s economic assumptions for 10-year Treasury notes and bonds. Interest rate
   assumptions utilized for discounting were as follows:

   2009 	    4.223%
   2010 	    4.715% and thereafter

   To provide more specifically for the effects of inflation on the liability for future workers’ compensation benefits, wage inflation
   factors (COLAs) and medical inflation factors (CPIMs) were applied to the calculation of projected future benefits. The actual
   rates for these factors for the charge back year (CBY) 2009 are used to adjust the methodology’s historical payments to current
   year constant dollars.

   The compensation COLAs and CPIMs used in the projections for various CBYs were as follows:

                                                 CBY              COLA             CPIM
                                                 2010              N/A              N/A
                                                 2011             2.23%            3.45%
                                                 2012             1.13%            3.43%
                                                 2013             1.70%            3.64%
                                                 2014             1.90%            3.66%
                                                 2015+            1.93%            3.73%

   The model’s resulting projections were analyzed to insure that the estimates were reliable. The analysis was based on four tests:
   (1) a sensitivity analysis of the model to economic assumptions, (2) a comparison of the percentage change in the liability
   amount by agency to the percentage change in the actual incremental payments, (3) a comparison of the incremental paid
   loses per case (a measure of case-severity) in CBY 2010 to the average pattern observed during the most current three CBYs,
   and (4) a comparison of the estimated liability per case in the 2010 projection to the average pattern for the projections of the
   most recent three years.

   Other Disclosures

   Actuarial liabilities are computed for employee compensation benefits as mandated by the FECA. The Office of Personnel
   Management provides updated Army actuarial liabilities during the 4th Quarter of each fiscal year. The Army WCF computes
   its portion of the total Army actuarial liability based on the percentage of Army WCF FECA expense to the total Army FECA
   expense.




118	Fiscal Year 2010 United States Army Annual Financial Report
The actuaries calculate the actuarial liability annually based on the assumed interest rate of 4.1 percent that was approved by   119
the DoD Board of Actuaries.




                                                                                                                                  Army Working Capital Fund | Principal Financial Statements, Notes, and Auditor’s Report
Note 18.	General Disclosures Related to the Statement of Net Cost
 Intragovernmental Costs and Exchange Revenue
 As of September 30                                                                  2010                        2009
 (Amounts in thousands)
 1. Intragovernmental Costs                                               $             3,660,487      $             4,290,257
 2. Public Costs                                                                       25,408,223                   25,957,290
 3. Total Costs                                                           $            29,068,710      $            30,247,547
 4. Intragovernmental Earned Revenue                                      $           (15,360,609)     $           (13,645,957)
 5. Public Earned Revenue                                                             (14,333,015)                 (15,914,486)
 6. Total Earned Revenue                                                  $           (29,693,624)     $           (29,560,443)
 7. Net Cost of Operations                                                $              (624,914)     $               687,104



Intragovernmental costs and revenue are transactions made between two reporting entities within the federal government.

The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the federal government supported
by appropriations or other means. The intent of the SNC is to provide gross and net cost information related to the amount
of output or outcome for a given program or organization administered by a responsible reporting entity. The DoD’s current
processes and systems do not capture and report accumulated costs for major programs based upon the performance measures
as required by the Government Performance and Results Act. The DoD is in the process of reviewing available data and
developing a cost reporting methodology as required by the Statement of Federal Financial Accounting Standards (SFFAS)
No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal Government,” as amended by SFFAS No. 30,
“Inter-entity Cost Implementation.”

Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.

The Army WCF systems do not track intragovernmental transactions by customer at the transaction level. Buyer-side expenses
are adjusted to agree with internal seller-side revenues. Expenses were adjusted by reclassifying amounts between federal and
nonfederal expenses.

While Army WCF activities generally record transactions on an accrual basis, as is required by federal generally accepted
accounting principles, the systems do not always capture actual costs. Some of the information presented on the Consolidated
SNC is based on non-financial feeder systems, including property accountability and logistics systems. The Army WCF is in
the process of converting to the Logistics Modernization Program to address this issue.

The Army WCF is researching the $505.1 million abnormal balance for nonfederal revenue for services provided, which is
displayed on the trial balance.


Note 19.	 Disclosures Related to the Statement of Changes in Net Position
Other Financing Sources, Other on the Statement Changes in Net Position consist of other gains and other losses from
nonexchange activity primarily attributable to intragovernmental transfers-in/out for which trading partners could not be
identified.
   Note 20.	            Disclosures Related to the Statement of Budgetary Resources
    As of September 30                                                                              2010            2009
    (Amounts in thousands)

    1. Net Amount of Budgetary Resources Obligated for Undelivered Orders at the
       End of the Period                                                                      $      9,146,899 $    10,597,722
    2. Available Borrowing and Contract Authority at the End of the Period                    $              0 $             0


   All Army WCF obligations represent reimbursable obligations in apportionment category B.

   The Army WCF Statement of Budgetary Resources includes intraentity transactions because the statements are presented as
   combined.

   There are no legal arrangements affecting the use of unobligated balances of budgetary authority.


   Note 21.	Reconciliation of Net Cost of Operations to Budget
    As of September 30                                                                             2010             2009
    (Amounts in thousands)
    Resources Used to Finance Activities:
    Budgetary Resources Obligated:
    1. Obligations incurred                                                               $        16,261,161 $     16,895,570
    2. Less: Spending authority from offsetting collections and recoveries (-)                    (18,682,332)     (17,326,331)
    3. Obligations net of offsetting collections and recoveries                           $        (2,421,171) $      (430,761)
    4. Less: Offsetting receipts (-)                                                                        0                0
    5. Net obligations                                                                    $        (2,421,171) $      (430,761)
    Other Resources:
    6. Donations and forfeitures of property                                              $                 0 $             0
    7. Transfers in/out without reimbursement (+/-)                                                (1,398,190)       (119,665)
    8. Imputed financing from costs absorbed by others                                                209,352         174,567
    9. Other (+/-)                                                                                  1,163,871       1,028,859
    10. Net other resources used to finance activities                                    $           (24,967) $    1,083,761
    11. Total resources used to finance activities                                        $        (2,446,138) $      653,000
    Resources Used to Finance Items not Part of the Net Cost of Operations:
    12. Change in budgetary resources obligated for goods, services and benefits
        ordered but not yet provided:
            12a. Undelivered Orders (-)                                                   $        1,450,822 $      1,639,490
            12b. Unfilled Customer Orders                                                           (364,859)        (163,069)
    13. Resources that fund expenses recognized in prior Periods (-)                                 (98,553)         (44,670)
    14. Budgetary offsetting collections and receipts that do not affect Net Cost of
        Operations                                                                                          0                0
    15. Resources that finance the acquisition of assets (-)                                       (7,488,952)      (8,617,214)
    16. Other resources or adjustments to net obligated resources that do not affect
        Net Cost of Operations:
            16a. Less: Trust or Special Fund Receipts Related to exchange in the
                Entity’s Budget (-)                                                                         0                0
            16b. Other (+/-)                                                                          234,319         (909,197)
    17. Total resources used to finance items not part of the Net Cost of Operations      $        (6,267,223) $    (8,094,660)
    18. Total resources used to finance the Net Cost of Operations                        $        (8,713,361) $    (7,441,660)




120	Fiscal Year 2010 United States Army Annual Financial Report
                                                                                                                                 121
 As of September 30                                                                            2010                  2009
 (Amounts in thousands)




                                                                                                                                 Army Working Capital Fund | Principal Financial Statements, Notes, and Auditor’s Report
 Components of the Net Cost of Operations that will not Require or Generate Resources in the Current Period:
 Components Requiring or Generating Resources in Future Period:
 19. Increase in annual leave liability                                      $            0 $        10,672
 20. Increase in environmental and disposal liability                                     0               0
 21. Upward/Downward reestimates of credit subsidy expense (+/-)                          0               0
 22. Increase in exchange revenue receivable from the public (-)                          0               0
 23. Other (+/-)                                                                                        0                   0
 24. Total components of Net Cost of Operations that will Require or Generate
    Resources in future periods                                                          $              0   $          10,672
 Components not Requiring or Generating Resources:
 25. Depreciation and amortization                                                       $       132,592 $             61,493
 26. Revaluation of assets or liabilities (+/-)                                               (1,482,128)              (8,977)
 27. Other (+/-)
         27a. Trust Fund Exchange Revenue                                                              0                  0
         27b. Cost of Goods Sold                                                               9,525,406         10,684,562
         27c. Operating Material and Supplies Used                                                     0                  0
         27d. Other                                                                              (87,422)        (2,618,985)
 28. Total Components of Net Cost of Operations that will not Require or Generate
    Resources                                                                            $     8,088,448    $        8,118,093
 29. Total components of Net Cost of Operations that will not Require or Generate
    Resources in the current period                                                      $     8,088,448 $           8,128,765
 30. Net Cost of Operations                                                              $      (624,913) $            687,105



Due to the Army WCF’s financial systems limitations, budgetary data is not in agreement with proprietary expenses and
capitalized assets. The difference between budgetary and proprietary data is a previously identified deficiency.

Resources that Finance the Acquisition of Assets were adjusted by $1.7 billion to bring the note schedule into agreement with
the Statement of Net Cost.

The following Reconciliation of Net Cost of Operations to Budget lines is presented as combined instead of consolidated due
to interagency budgetary transactions not being eliminated:

     n	 Obligations Incurred
     n	 Less: Spending Authority from Offsetting Collections and Recoveries
     n	 Obligations Net of Offsetting Collections and Recoveries
     n	 Less: Offsetting Receipts
     n	 Net Obligations
     n	 Undelivered Orders
     n	 Unfilled Customer Orders

Other Resources, Other consist of other gains and other losses from nonexchange activity primarily attributable to
intragovernmental transfers-in/out for which trading partners could not be identified.
   Other resources or adjustments to net obligated resources that do not affect Net Cost of Operations, Other consist of other
   gains and losses from nonexchange activity primarily attributable to intragovernmental transfers-in/out for which trading
   partners could not be identified and the correction of prior-period adjustments that did not meet the materiality thresholds.

   Components not Requiring or Generating Resources Other, Other consist of cost capitalization offsets. Agencies must first
   record all expenses to Operating Expenses/Program Costs. These expenses are then offset using the Cost Capitalization Offset
   account when the costs are capitalized to the appropriate in-process type account.


   Note 22.	Disclosures Related to Incidental Custodial Collections
   Not Applicable.


   Note 23.	Earmarked Funds
   Not Applicable.


   Note 24.	Fiduciary Activities
   Not Applicable.


   Note 25.	Other Disclosures
   Not Applicable.


   Note 26.	Restatements
   Not Applicable.




122	Fiscal Year 2010 United States Army Annual Financial Report
                                                                                                              123
                                      INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE




                                                                                                              Army Working Capital Fund | Principal Financial Statements, Notes, and Auditor’s Report
                                       400 ARMY NAVY DRIVE
                                  ARLINGTON, VIRGINIA 22202-4704



                                                                                       November 9, 2010

MEMORANDUM FOR ASSISTANT SECRETARY OF THE ARMY (FINANCIAL
	                MANAGEMENT AND COMPTROLLER)

SUBJECT: Independent Auditor’s Report on the Army Working Capital Fund FY 2010 and
	        FY 2009 Basic Financial Statements (Report No. D 2011 004)

The Chief Financial Officers Act of 1990, as amended, requires the Department of Defense Inspector
General to audit the accompanying Army Working Capital Fund Consolidated Balance Sheet as of
September 30, 2010 and 2009, and the Consolidated Statement of Net Cost, Consolidated Statement
of Changes in Net Position, Combined Statement of Budgetary Resources, and related notes for the
fiscal years then ended. The financial statements are the responsibility of Army management. The
Army is also responsible for implementing effective internal control and for complying with laws and
regulations.

We are unable to express an opinion on the Army Working Capital Fund FY 2010 and FY 2009
Basic Financial Statements because of limitations on the scope of our work. Thus, the financial
statements may be unreliable. In addition to our disclaimer of opinion on the financial statements, we
are including the required Report on Internal Control and Compliance With Laws and Regulations
(Report). The Report is an integral part of our disclaimer of opinion on the financial statements and
should be considered in assessing the results of our work.

Disclaimer of Opinion on the Financial Statements
The Deputy Assistant Secretary of the Army (Financial Operations) acknowledged to us that the Army
Working Capital Fund FY 2010 and FY 2009 Basic Financial Statements do not substantially conform
to accounting principles generally accepted in the United States of America (U.S. GAAP) and that the
Army financial management and feeder systems were unable to adequately support material amounts
on the financial statements as of September 30, 2010. Section 1008(d) of the FY 2002 National
Defense Authorization Act limits the Department of Defense Inspector General to performing
only those audit procedures required by generally accepted government auditing standards that are
consistent with the representations made by management. Accordingly, we did not perform auditing
procedures required by U.S. Government Accountability Office, “Government Auditing Standards,”
and Office of Management and Budget (OMB) Bulletin No. 07-04, “Audit Requirements for
Federal Financial Statements,” as amended,* to determine whether material amounts on the financial
statements were presented fairly.



*	OMB Memorandum No. 09-33, Technical Amendments to OMB Bulletin No. 07-04, “Audit Requirements for Federal
  Financial Statements,” September 23, 2009.
   Prior audits have identified, and the Army has acknowledged, the long-standing material internal
   control weaknesses identified in the Summary of Internal Control. These pervasive material
   weaknesses may affect the reliability of certain information contained in the Basic Financial
   Statements. Therefore, we are unable to express, and we do not express, an opinion on the Basic
   Financial Statements. Additionally, the purpose of the audit was not to express an opinion
   on Management’s Discussion and Analysis, Required Supplementary Information, and Other
   Accompanying Information presented with the Basic Financial Statements. Accordingly, we express no
   opinion on that information.

   Summary of Internal Control
   In planning our work, we considered the Army internal control over Working Capital Fund financial
   reporting and compliance with applicable laws and regulations. We did this to determine our
   procedures for auditing the financial statements and to comply with OMB guidance, but our purpose
   was not to express an opinion on internal control.

   Accordingly, we do not express an opinion on internal control over financial reporting and compliance
   with applicable laws and regulations. However, previously identified material weaknesses continue to
   exist in the following areas.

            n	 Financial Management Systems	

            n	 Inventory

            n	 General Property, Plant, and Equipment

            n	 Accounts Payable

            n	 Abnormal Account Balances

            n	 Statement of Net Cost

            n	 Statement of Budgetary Resources

            n	 Intragovernmental Eliminations

            n	 Other Accounting Entries

            n	 Reconciliation of Net Cost of Operations to Budget

   A material weakness is a deficiency, or a combination of deficiencies, in internal control such that there
   is a reasonable possibility that a material misstatement of the entity’s financial statements will not be
   prevented, or detected and corrected on a timely basis.

   Internal control work that we conducted as part of our prior audits would not necessarily disclose
   all significant deficiencies. The Attachment offers additional details on significant deficiencies, all of
   which we consider to be material internal control weaknesses.


124	Fiscal Year 2010 United States Army Annual Financial Report
The Army reported the above weaknesses in its FY 2010 Statement of Assurance.                         125




                                                                                                      Army Working Capital Fund | Principal Financial Statements, Notes, and Auditor’s Report
Summary of Compliance With Laws and Regulations
We limited our work to determining compliance with selected provisions of applicable laws and
regulations related to financial reporting because management acknowledged that instances of
noncompliance identified in prior audits continued to exist. The Deputy Assistant Secretary of the
Army (Financial Operations) acknowledged to us that Army financial management systems do not
substantially comply with Federal financial management system requirements, U.S. GAAP, and the
U.S. Government Standard General Ledger at the transaction level. Therefore, we did not determine
whether the Army complied with all applicable laws and regulations related to financial reporting.
Providing an opinion on compliance with certain provisions of laws and regulations was not an
objective of our audit, and accordingly, we do not express such an opinion. See the Attachment for
additional details on compliance with laws and regulations.

Management’s Responsibilities
Management is responsible for:

       n	 preparing the financial statements in conformity with U.S. GAAP;

       n	 establishing, maintaining, and assessing internal control to provide reasonable assurance
          that the broad control objectives of the Federal Managers’ Financial Integrity Act are
          met; and

       n	 complying with applicable laws and regulations.

We provided a draft of this report to the Deputy Assistant Secretary of the Army (Financial
Operations), who provided technical comments that we have incorporated as appropriate. Army
officials expressed their continuing commitment to addressing the problems this report outlines.




                                              Patricia A. Marsh, CPA
                                              Assistant Inspector General
                                              Defense Business Operations



Attachment:
As stated
126	Fiscal Year 2010 United States Army Annual Financial Report
                 Report on Internal Control and                                                             127


              Compliance With Laws and Regulations




                                                                                                            Army Working Capital Fund | Principal Financial Statements, Notes, and Auditor’s Report
Internal Control
Management is responsible for implementing and maintaining effective internal control and for
providing reasonable assurance that accounting data are accumulated, recorded, and reported properly;
that the requirements of applicable laws and regulations are met; and that assets are safeguarded against
misappropriation and abuse. Our purpose was not to, and we do not, express an opinion on internal
control over financial reporting. However, we have identified the following material weaknesses, which
could adversely affect the Army Working Capital Fund financial management operations.

Previously Identified Material Weaknesses
Management acknowledged that previously identified material weaknesses continue to exist in the
following areas.

Financial Management Systems
The Army Working Capital Fund systems do not meet the requirements for full accrual accounting.
The systems do not collect and record financial information as required by U.S. GAAP. The
financial and nonfinancial feeder systems do not contain the required system integration to provide a
transaction-level audit trail for the amounts reported in the proprietary and budgetary general ledger
accounts. The Army derives a portion of its financial information for the Army Working Capital
Fund from budgetary transactions and data from nonfinancial feeder systems, such as the Commodity
Command Standard System and the Standard Industrial Fund System.

In FY 2003, the Army began deploying the Logistics Modernization Program system as the
core financial management system for the Army Working Capital Fund and completed the final
deployment of this system to all Army Working Capital Fund activities on October 21, 2010. The
Government Accountability Office, DOD Office of Inspector General, and U.S. Army Audit Agency
continue to issue audit reports that identify significant data integrity and system integration problems,
questioning whether the Logistics Modernization Program system will record transaction-level data
correctly to support the financial statements.

DOD Inspector General Report No. D-2011-015, “Insufficient Governance Over Logistics
Modernization Program System Development,” November 2, 2010, found that the Logistics
Modernization Program system was not configured to comply with the U.S. Government Standard
General Ledger (USSGL) or to record transactional data correctly in accordance with Government
accounting standards. The Logistics Modernization Program system did not have all the required
USSGL accounts in its general ledger, record transactions correctly with the required attributes, and
generate a trial balance in the USSGL format required for financial reporting. In addition, the system
did not record transactions in accordance with the USSGL and DOD Standard Financial Information
Structure transaction libraries. The Army reported that it will complete a five-phased implementation
of the necessary modifications to the Logistics Modernization Program system to bring it into
compliance with the Standard Financial Information Structure by March 2011. However, the Army
   does not expect to complete all corrective actions needed to resolve the financial management systems
   weakness until FY 2015.

   Inventory
   The inventory valuation method used for some of the Army Working Capital Fund inventory does not
   produce an auditable approximation of historical cost as required by Statement of Federal Financial
   Accounting Standards (SSFAS) No. 3, “Accounting for Inventory and Related Property.” The Army
   uses the latest acquisition cost method of valuing some of its inventory because the Army designed
   legacy systems for materiel management, rather than for accounting in conformance with U.S. GAAP.
   The legacy systems provide accountability for inventory items but do not maintain the historical cost
   data necessary to comply with SSFAS No. 3. As of September 30, 2010, the Army reported 65 percent
   of its resale inventory in the Logistics Modernization Program system, which is capable of recording
   inventory using moving average cost. However, the Army reported that it did not correctly revalue the
   inventory held for resale in the legacy systems from latest acquisition cost to the moving average cost
   basis during the first two deployments of the Logistics Modernization Program system.

   In addition, the legacy systems are unable to produce financial transactions using the USSGL accounts,
   and neither the Defense Finance and Accounting Service (DFAS) nor the Army reconciled all
   differences between the accounting records and the logistical records. Instead, they accepted the data
   from the logistical records and adjusted the accounting records by $2.4 billion. The final deployment
   of the Logistics Modernization Program system during FY 2011 is intended to eliminate the future
   need for accomplishing this adjustment. The Army does not expect to complete all corrective actions
   to resolve this weakness until FY 2015.

   General Property, Plant, and Equipment
   The reported value of Army Working Capital Fund General Property, Plant, and Equipment is
   unreliable because the Army lacks the documentation needed to support the historical acquisition costs
   of its assets. In addition, because of system limitations, the Army has not fully implemented DOD
   policy that requires an entity to maintain information in its property systems on all property furnished
   to contractors. The Army has not fully implemented a methodology to baseline acquisition costs for
   all property, plant, and equipment. The Army Working Capital Fund activities sometimes recorded
   the acquisition data and cost incorrectly or received incorrect information from the feeder systems.
   In addition, the Army Working Capital Fund financial statements incorrectly reported real property
   assets belonging to other Military Departments that were being used by Army Working Capital Fund
   activities.

   Beginning in FY 2011, the DOD Financial Management Regulation, Volume 4, Chapter 6, Annex
   4, “Real Property Financial Reporting,” requires the acquisition value of real property assets and
   associated depreciation to be recorded on the financial statements of the DOD entity that funded
   the acquisition. Entities that use assets they did not fund must recognize their share of the assets’
   depreciation and sustainment and maintenance costs by either reimbursing the entity who records the
   asset on its financial statements or recording the imputed costs incurred on their financial statements.

   The Army Assistant Chief of Staff for Installation Management directed that the Army Working
   Capital Fund activities conduct a 100-percent inventory of real property and establish auditable
   documentation, using the methodology established in the Real Property Audit Readiness Handbook.
   As of September 30, 2010, the Office of Assistant Chief of Staff reported that it had completed asset

128	Fiscal Year 2010 United States Army Annual Financial Report
existence validation assistance visits to 25 of 26 Army Working Capital Fund activities. In addition, it   129
completed file assembly assistance visits to 10 of 26 Army Working Capital Fund activities to develop




                                                                                                           Army Working Capital Fund | Principal Financial Statements, Notes, and Auditor’s Report
supportable cost documentation for each asset inventoried. The Army plans to have its real property
validations completed in FY 2013.

Accounts Payable
DFAS adjusted Accounts Payable balances to derive the reported balances. It adjusted Accounts
Payable with the Public downward by $69.3 million for undistributed disbursements. The Army
Working Capital Fund systems also cannot reconcile Accounts Payable with corresponding
Intragovernmental Accounts Receivable that generated the payables. As a result, DFAS made
$1.1 billion in unsupported adjustments, which increased Intragovernmental Accounts Payable by
a net amount of $578.9 million, to force the amounts to agree with Army Working Capital Fund
trading partners. In addition, the Supply Management, Army, did not establish accounts payable in
accordance with SFFAS No. 1, “Accounting for Selected Assets and Liabilities,” which requires the
Army to establish an Account Payable when it accepts title to goods or services.

Abnormal Account Balances
In FY 2010, the Army Working Capital Fund Industrial Operations and Supply Management
activities (limit-level) reported 81 abnormal account balances, valued at $2.1 billion. Of the
81 abnormal account balances, 33 valued at $1.6 billion, were reported by activities using the Logistics
Modernization Program system. Of the 16 installations where the Army had fielded the Logistics
Modernization Program system as of September 30, 2010, 12 reported at least one abnormal account
balance for FY 2010. The Army and DFAS used the 81 abnormal balances to compute the amounts
reported on the Balance Sheet for such items as Accounts Receivable, Inventory, Accounts Payable,
Other Assets, and Other Liabilities.

Statement of Net Cost
The Army did not present the Army Working Capital Fund’s Statement of Net Cost by major
program, as required by OMB Circular No. A-136, “Financial Reporting Requirements,” September
29, 2010. The Army Working Capital Fund’s programs should align with the major goals and outputs
described in the strategic and performance plans required by the Government Performance and Results
Act of 1993. Accounting systems did not accurately capture costs for Army Working Capital Fund
programs or properly account for intragovernmental transactions and related eliminations. The Army
used budgetary obligations, collections, and disbursement data to present some of the information
reported on the Army Working Capital Fund’s Statement of Net Cost.

Statement of Budgetary Resources
OMB Circular No. A 136 states that the entity should develop the Statement of Budgetary Resources
predominantly from the budgetary general ledger accounts in accordance with budgetary accounting
rules. The Army did not use data received from the Army Working Capital Fund budgetary general
ledger accounts reported by the Logistics Modernization Program system to populate the Statement
of Budgetary Resources. Instead, DFAS continues to use budget execution data contained in status
reports.

The Army’s ability to correct the weakness relies on the implementation of the Logistics Modernization
Program system at all Army Working Capital Fund activities. In addition, Army business processes
   must use the correct budgetary general ledger accounts within the Logistics Modernization Program
   system. DFAS made $221 million in adjustments to the budgetary accounts because the accounting
   systems did not correctly record budgetary transactions related to Advances and Prepayments. The
   Army’s target date to correct this weakness is FY 2015.

   Intragovernmental Eliminations
   DOD was unable to collect, exchange, and reconcile buyer and seller intragovernmental transactions,
   resulting in adjustments that were not verifiable. The DOD and Army Working Capital Fund
   systems did not capture the trading partner financial data at the transaction level needed to facilitate
   reconciling and eliminating intragovernmental transactions. DOD procedures require that the Army
   adjust its buyer-side transaction data to agree with seller-side transaction data from other Government
   entities, without the entities performing proper reconciliations. As a result, DFAS made $7.9 billion
   in adjustments to Army Working Capital Fund accounts to force the accounts to agree with the
   corresponding records of intragovernmental trading partners.

   Other Accounting Entries
   DFAS did not adequately support $14.9 billion in journal vouchers used to prepare the Army Working
   Capital Fund financial statements. DFAS made unsupported adjustments to force amounts to agree
   with other sources of information and records used in preparing the FY 2010 Army Working Capital
   Fund Financial Statements. In addition, DFAS did not always follow the established minimum
   requirements to document the analytical process used to develop the journal vouchers and support
   adjusting accounting entries made to the general ledger accounts. The resulting unsupported
   accounting adjustments present a material uncertainty regarding the line item balances on the FY 2010
   Army Working Capital Fund Financial Statements.

   Reconciliation of Net Cost of Operations to Budget
   SSFAS No. 7, “Revenues and Other Financing Sources,” requires a reconciliation of proprietary and
   budgetary information to assist users in understanding the relationship of the data. The Army could
   not reconcile the information reported in Note 21 with the Army Working Capital Fund’s Statement
   of Net Cost without preparing $2.3 billion in unsupported adjustments to the general ledger accounts
   to force costs to match obligation information.

   These financial management deficiencies may cause inaccurate management information. As a result,
   Army management decisions based in whole or in part on this information may be adversely affected.
   Financial information reported by DOD may also contain misstatements resulting from these
   deficiencies.

   Compliance With Laws and Regulations
   Management is responsible for compliance with existing laws and regulations related to financial
   reporting. We limited our work to determining compliance with selected provisions of the applicable
   laws and regulations because management acknowledged instances of noncompliance, and previously
   reported instances of noncompliance continued to exist. Therefore, we did not determine whether
   the Army complied with selected provisions of all applicable laws and regulations related to financial
   reporting. Our objective was not to, and we do not, express an opinion on overall compliance with
   applicable laws and regulations.


130	Fiscal Year 2010 United States Army Annual Financial Report
Federal Financial Management Improvement Act of 1996                                                      131

The Federal Financial Management Improvement Act of 1996 (FFMIA) requires DOD to establish




                                                                                                          Army Working Capital Fund | Principal Financial Statements, Notes, and Auditor’s Report
and maintain financial management systems that comply substantially with the Federal financial
management system requirements, applicable Federal accounting standards, and USSGL at the
transaction level. For FY 2010, the Army did not fully comply with FFMIA. The Army acknowledged
that many of its critical financial management and feeder systems did not substantially comply with
the Federal financial management system requirements, Federal accounting standards, and USSGL at
the transaction level as of September 30, 2010.

Antideficiency Act
Section 1341, title 31, United States Code (31 U.S.C. § 1341 [1990]) limits the Army and its
agents to making or authorizing only expenditures or obligations that do not exceed the available
appropriations or funds. Additionally, the Army and its agents may not contract or obligate for the
payment of money before an appropriation is made available for that contract or obligation unless
otherwise authorized by law. According to 31 U.S.C. § 1351 (2004), if an officer or employee
of an executive agency violates the Antideficiency Act (ADA), the head of the agency must report
immediately to the President and Congress all relevant facts and a statement of actions taken.

In June 2009, the Army initiated a formal investigation of a potential violation of ADA within the
Army Working Capital Fund at Blue Grass Army Depot. As of September 30, 2010, the Army
Materiel Command was still investigating the potential violation, after receiving input from the
Army Office of General Counsel and Assistant Secretary of the Army (Financial Management and
Comptroller). During FY 2010, the Army reported no additional violations of ADA related to the
Army Working Capital Fund.

DOD internal guidance limits the time from identification to reporting of ADA violations to
12 months. Our review of the Army Working Capital Fund ADA violations showed that the Army
did not process the Blue Grass Army Depot case within 12 months. Until the Army’s investigation is
completed, we cannot determine whether the Army has fully complied with 31 U.S.C. §§ 1341 (1990)
and 1351 (2004).

Audit Disclosures
The Deputy Assistant Secretary of the Army (Financial Operations) acknowledged to us on April 2,
2010, that the Army financial management and feeder systems could not provide adequate evidence
supporting various material amounts on the financial statements and that previously identified material
weaknesses continued to exist. Therefore, we did not perform detailed testing related to previously
identified material weaknesses. In addition, we did not perform audit work related to the following
selected provisions of laws and regulations: Government Performance and Results Act, Prompt
Payment Act, Provisions Governing Claims of the United States Government (including provisions of
the Debt Collection Improvement Act), Federal Credit Reform Act, Improper Payment Act, and the
Pay and Allowance System for Civilian Employees.

This report does not include recommendations to correct the material internal control weaknesses
and instances of noncompliance with laws and regulations because previous audit reports contained
recommendations for corrective actions or because audit projects currently in progress will include
appropriate recommendations.
132	Fiscal Year 2010 United States Army Annual Financial Report
   We are interested in your feedback regarding the content of this report.
Please feel free to e-mail your comments to AAFS@hqda.army.mil or write to:


                      Department of the Army
             Office of the Deputy Assistant Secretary of the Army
                  (Financial Management and Comptroller)

                    Office of the Financial Reporting Directorate
                         Room 3A312, 109 Army Pentagon
                            Washington, DC 20310-0109

   Additional copies of this report can be obtained by sending a written request to
                      the e-mail or mailing address listed above.

  You may also view this document at: http://www.asafm.army.mil/fo/fod/cfo/cfo.asp
                          The Soldier’s Creed
                           I am an American Soldier.
                    I am a Warrior and a member of a team.
        I serve the people of the United States and live the Army Values.

                       I will always place the mission first.
                              I will never accept defeat.
                                    I will never quit.
                        I will never leave a fallen comrade.

                 I am disciplined, physically and mentally tough,
                    trained and proficient in my warrior tasks
                      and drills. I always maintain my arms,
                            my equipment and myself.

                     I am an expert and I am a professional.

                      I stand ready to deploy, engage, and
                    destroy the enemies of the United States
                           of America in close combat.

                       I am a guardian of freedom and the
                              American way of life.

                            I am an American Soldier.




United States Army : 1500 Army Pentagon : Washington, DC, 20310-1500 : www.army.mil
